<html>
<title> - BUILDING A MORE SECURE CYBER FUTURE: EXAMINING PRIVATE SECTOR EXPERIENCE WITH THE NIST FRAMEWORK</title>
<body><pre>[Senate Hearing 114-86]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-86

                  BUILDING A MORE SECURE CYBER FUTURE:
               EXAMINING PRIVATE SECTOR EXPERIENCE WITH  
                         THE NIST FRAMEWORK

=======================================================================

                                HEARING

                               BEFORE THE
                               
                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                           U.S. GOVERNMENT PUBLISHING OFFICE
96-958 PDF                     WASHINGTON : 2015                           
___________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  
      
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 4, 2015.................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
Statement of Senator Moran.......................................    35
Statement of Senator Peters......................................    37
Statement of Senator Schatz......................................    39
Statement of Senator Daines......................................    41
Statement of Senator Klobuchar...................................    43
Statement of Senator Manchin.....................................    45
Statement of Senator Udall.......................................    47
Statement of Senator Gardner.....................................    48
Statement of Senator Blumenthal..................................    51

                               Witnesses

Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology, 
  U.S. Department of Commerce....................................     4
    Prepared statement...........................................     6
Ann M. Beauchesne, Vice President, National Security and 
  Emergency Preparedness, U.S. Chamber of Commerce...............    11
    Prepared statement...........................................    12
Paul N. Smocer, President of BITS, Financial Services Roundtable.    18
    Prepared statement...........................................    20
Jefferson H. England, Chief Financial Officer, Silver Star 
  Communications.................................................    25
    Prepared statement...........................................    26
Dr. James Lewis, Director and Senior Fellow, Strategic 
  Technologies Program, Center for Strategic and International 
  Studies........................................................    27
    Prepared statement...........................................    28

                                Appendix

Joshua J. Pauli, Ph.D., Associate Professor of Cyber Security, 
  Dakota State University, prepared statement....................    55
Letter dated February 18, 2014 to Hon. John Thune and Hon. Bill 
  Nelson from Peter M. Cleveland, Vice President, Global Public 
  Policy Group, Intel Corporation................................    56
Letter dated February 4, 2015 to Hon. John Thune and Hon. Bill 
  Nelson from Jennifer M. Safavian, Executive Vice President, 
  Government Affairs, Retail Industry Leaders Association (RILA).    68
Independent Community Bankers of America (ICBA), prepared 
  statement......................................................    69
Response to written questions submitted to Dr. Charles H. Romine 
  by:
    Hon. John Thune..............................................    70
    Hon. Roy Blunt...............................................    72
Response to written questions submitted to Ann M. Beauchesne by:
    Hon. John Thune..............................................    73
    Hon. Roy Blunt...............................................    75
    Hon. Bill Nelson.............................................    77
Response to written questions submitted to Paul N. Smocer by:
    Hon. John Thune..............................................    79
    Hon. Roy Blunt...............................................    81
    Hon. Bill Nelson.............................................    82
Response to written questions submitted to Jefferson H. England 
  by:
    Hon. John Thune..............................................    83
Response to written question submitted to Dr. James A. Lewis by:
    Hon. Roy Blunt...............................................    84
    Hon. Bill Nelson.............................................    85

 
     BUILDING A MORE SECURE CYBER FUTURE: EXAMINING PRIVATE SECTOR 
                   EXPERIENCE WITH THE NIST FRAMEWORK

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:59 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Blunt, Ayotte, Moran, 
Gardner, Daines, Nelson, Cantwell, Klobuchar, Blumenthal, 
Schatz, Udall, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order.
    Good morning and welcome.
    We are here today to examine the private sector's 
experience working with the National Institute of Standards and 
Technology to develop and utilize the Framework for Improving 
Critical Infrastructure Cybersecurity and also to look forward 
to additional steps that can be taken to help improve our 
Nation's cybersecurity.
    No country, company, or consumer is immune to cybersecurity 
threats. The United States faces a growing array of threats 
from hackers, from criminals, terrorists, and nation states who 
seek to gain access to sensitive or classified information. 
This also includes efforts to steal intellectual property or 
consumers' personal information, deny the availability of 
normally accessible online services, or potentially sabotage 
the networks and control systems of critical infrastructure.
    While cyber threats are not new, we saw a number of notable 
cyber events last year. In 2014, security flaws such as 
Sandworm, Shellshock, POODLE, and Heartbleed compromised 
millions of servers and systems. Attacks on point of sale 
systems sent ripples through the retail industry, not to 
mention the significant cyber hack of Sony Pictures.
    In 2014, after a decade without passage of major 
cybersecurity legislation, Congress passed five cybersecurity 
bills that were signed into law. I am especially pleased that 
our committee's work on the Cybersecurity Enhancement Act of 
2014, which I worked on with former Chairman Rockefeller, was 
one of those bills the President signed into law.
    Our Committee's bill ensures the continuation of a 
voluntary and industry-led process for identifying 
cybersecurity standards and best practices for critical 
infrastructure, codifying elements of the successful process 
that NIST undertook to create its Cybersecurity Framework and 
ensuring NIST's continued involvement in this public-private 
collaboration.
    The law also included important provisions for research and 
development, workforce development, and increased public 
awareness. It will help to protect the public and private 
sectors against the growing number of cyber threats from around 
the world by, among other things, strengthening and directing 
better cooperation across Federal agencies in research and 
development, improving our test beds and cloud computing 
security, and authorizing the National Science Foundation's 
successful Cybercorps scholarships.
    I am proud to note that Dakota State University in my home 
state is a leading institution of higher education in the area 
of cybersecurity. I appreciate that Dr. Josh Pauli, an 
Associate Professor of Cyber Security at DSU, has provided 
written remarks discussing that work, and I will submit those 
as a part of the record.
    I called today's hearing primarily to hear from 
stakeholders about their experience with the NIST Framework. 
Released almost one year ago today, the Framework provides a 
common language regarding security issues to facilitate 
discussions within a company between the technical IT security 
managers and senior management. While the Framework targets 
organizations that own or operate critical infrastructure, 
businesses across all sectors may find use of the Framework 
beneficial.
    The success of the Framework thus far is due in large part 
to NIST's collaborative relationship and engagement with the 
private sector. As a non-regulatory agency dedicated to 
promoting U.S. innovation and industrial competitiveness in 
ways that enhance economic security, NIST has been a genuine 
partner and has successfully combined its technical expertise 
in standards with the know-how of the private sector to help 
advance the Nation's technology infrastructure.
    Congress is now tasked with important questions about what 
actions the Federal Government should take next. Included among 
those questions is: one, how do we assess the effectiveness of 
the Framework going forward? What incentives do businesses and 
consumers need to improve their cyber defenses? What type of 
cyber threat information sharing legislation is needed to help 
industry defend against more sophisticated cyber attacks? What 
should we do to better secure our supply chain? And what more 
can be done in related areas?
    These questions are relevant to both the private and public 
sectors. According to the U.S. Government Accountability 
Office, ``Federal agencies have significant weaknesses in 
information security controls . . .'' Last year, I along with 
Senator Rockefeller sent letters to every agency under our 
committee's jurisdiction asking targeted questions about the 
measures being taken to protect systems using unsupported 
operating systems, as well as compliance with the Federal 
Information Security Management Act. As chairman, I will be 
continuing to conduct such oversight of agencies' information 
security management.
    While I am pleased that Congress took a positive step to 
improving our cybersecurity posture by passing a number of 
bills in December, I believe an absolutely missing piece for 
this Congress is finally passing legislation to spur greater 
cyber threat information sharing. It is my hope that the Senate 
can find a path forward in this area soon. The hearing being 
held today underscores the seriousness of the threat and our 
commitment to passing information sharing legislation that did 
not get done in the last Congress.
    I now yield to my distinguished Ranking Member, the Senator 
from Florida, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. And that is music 
to my ears because that is exactly what we need, greater 
sharing, because cyber attacks and data breaches have real 
consequences on the lives of everyday Americans. They are 
painful for the American family that has to juggle their 
responsibilities while trying to replace their credit card or 
get back the money that was taken from them because of a 
compromised bank account, or reclaim his or her identity, which 
is a nightmare when it gets stolen.
    And they are costly for businesses that have been hacked. 
The estimate for Sony is something like $100 million. Some 
studies estimate that cyber attacks are costing American 
business as much as $400 billion a year. That is extraordinary. 
I see you nodding your head; I want you to testify about that.
    These cyber attacks also threaten the national security. 
Now, if a saboteur came and blew up an electric plant here, 
that would be an attack upon America. Well, a cyber attack can 
do the same thing. And it is coming whether it is in the form 
of an electrical plant or a business grid, or a water system--
whatever is going to try to inject economic pain and terror 
into the American people. Those attacks are upon us right now, 
and sooner or later, they are going to be successful. So it is 
not a question of if. It is a question of when is the attack 
going to be successful like it was with Sony.
    Now, fortunately, we have got some things on our side. 
Everybody's awareness is being heightened. We have got a great 
National Institute of Standards and Technology that is 
constantly working. You mentioned the stuff in your home state. 
NIST just had their Cybersecurity Framework Workshop down in my 
state.
    We have really got to figure out how we are going to come 
together, whether it be entirely voluntarily or whether there 
be some kind of mandate, because the necessity for all of us 
coming together, both government and the private sector, is 
upon us because of the threat to our way of life and our 
standard of living.
    And so, Mr. Chairman, thank you. I take this very 
seriously. I had the privilege of serving as the Chairman of 
the Subcommittee in Armed Services, where I just came from, 
called Emerging Threats, which has as its jurisdiction 
cybersecurity and the national security interests. I am, 
needless to say, quite interested in this subject, and I 
appreciate your attention in calling this hearing.
    The Chairman. Thank you, Senator Nelson. You are right. 
This has some tremendous national security implications, not to 
mention the enormous economic harm that you alluded to and the 
impact that can have on our country's economic interests.
    We have a great panel with us today. We look forward to 
hearing from them. First off is going to be Dr. Charles Romine. 
He is the Director of the Information Technology Laboratory at 
the National Institute of Standards and Technology under the 
U.S. Department of Commerce. That is a long thing to put on a 
business card right there.
    Ms. Ann Beauchesne. Ms. Beauchesne is the Vice President of 
National Security & Emergency Preparedness at the United States 
Chamber of Commerce.
    Dr. Paul Smocer. Mr. Smocer is the President of BITS, the 
Technology Policy Division of the Financial Services 
Roundtable.
    Mr. Jefferson England. Mr. England is the Chief Financial 
Officer for Silver Star Communications.
    And Dr. James Lewis. Dr. Lewis is the Director and Senior 
Fellow of the Strategic Technologies Program at the Center for 
Strategic and International Studies, CSIS.
    So we will look forward to hearing from all of you. We will 
start at my left and your right with Dr. Romine.

         STATEMENT OF DR. CHARLES H. ROMINE, DIRECTOR,

          INFORMATION TECHNOLOGY LABORATORY, NATIONAL

             INSTITUTE OF STANDARDS AND TECHNOLOGY,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Romine. Thank you, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. I am Dr. Charles Romine, 
the Director of the Information Technology Laboratory at NIST. 
Thank you for the opportunity to appear before you today to 
discuss our work in cybersecurity.
    NIST has worked in cybersecurity with Federal agencies, 
industry, and academia since 1972. Our role to research, 
develop, and deploy information security standards and 
technology to protect information systems against threats to 
the confidentiality, integrity, and availability of information 
and services was strengthened through the Computer Security Act 
of 1987, broadened through the Federal Information Security 
Management Act of 2002, and reaffirmed in the Federal 
Information Security Modernization Act of 2014. The 
Cybersecurity Enhancement Act of 2014 also authorizes NIST to 
facilitate and support the development of voluntary, industry-
led cybersecurity standards and best practices for critical 
infrastructure.
    NIST accomplishes its mission in cybersecurity through 
collaborative partnerships with our national and international 
stakeholders in industry, government, academia, standards 
bodies, and consortia.
    A prime example of these collaborations is the Framework 
for Improving Critical Infrastructure Cybersecurity, or just 
the Framework, in response to Executive Order 13636. The 
Framework consists of standards, guidelines, and practices to 
promote the protection of critical infrastructure. The 
prioritized, flexible, repeatable, and cost-effective approach 
of the Framework helps owners and operators of critical 
infrastructure align their policies, technologies, and day-to-
day business operations to better protect their data and their 
information technology and industrial control systems and 
tailor it to individual needs.
    The fact that the Framework is and will remain voluntary 
allows us to bring the maximum number of stakeholders to the 
table.
    The Framework was always designed to be a living document, 
shaped by the experiences of those using it. Based on recent 
feedback, I would like to share some thoughts about where we 
are now almost a year since the release of the Framework.
    Organizations are using the Framework in a variety of ways, 
such as raising awareness within their organization, including 
with executive leadership, improving communications of 
cybersecurity expectations with business partners, suppliers, 
and across and among sectors, and demonstrating alignment with 
standards, guidelines, and best practices. We have been 
encouraged by seeing expanding networks within and across 
sectors of the economy utilizing the Framework, making it more 
relevant to their stakeholders.
    For example, technology companies are developing products 
and services tied to the Framework. The auditing community is 
leveraging the Framework to provide a consistent auditable 
standard, and many states are leveraging the Framework to 
improve the security of their critical infrastructure.
    As the Framework incorporates globally recognized standards 
for cybersecurity, it is also serving as a model for other 
countries.
    Current feedback indicates widespread agreement that it is 
too early to update the Framework. Waiting will allow for tools 
and services to be built and implemented. In the meantime, NIST 
will continue the open, transparent, and inclusive process as 
it considers producing guidance on the challenging aspects of 
implementation. NIST will work on areas singled out by the 
Roadmap for Improving Critical Infrastructure Cybersecurity and 
will continue exploring options for future governance of the 
Framework, understanding the benefits of this being a private 
sector-maintained process in the future.
    NIST recognizes our essential role in helping industry, 
consumers, and government manage cybersecurity risks. We are 
extremely proud of our role in establishing and improving the 
comprehensive set of cybersecurity technical solutions, 
standards, guidelines, and best practices and the robust 
collaborations with our Federal Government partners, private 
sector collaborators, and international colleagues.
    But there is still much to do. A sustained dialogue between 
government and the private sector is critical to ensuring we 
can respond to those growing challenges, and we appreciate the 
support of the Committee in this effort.
    Thank you for the opportunity to testify today on NIST's 
work in cybersecurity, and I would be happy to answer any 
questions you may have.
    [The prepared statement of Dr. Romine follows:]

  Prepared Statement of Dr. Charles H. Romine, Director, Information 
      Technology Laboratory, National Institute of Standards and 
            Technology, United States Department of Commerce
Introduction
    Chairman Thune, Ranking Member Nelson and Members of the Committee, 
I am Dr. Charles Romine, the Director of the Information Technology 
Laboratory (ITL) at the Department of Commerce's National Institute of 
Standards and Technology (NIST). Thank you for the opportunity to 
appear before you today to discuss NIST's work in cybersecurity.
The Role of NIST in Cybersecurity
    With programs focused on national priorities from the Smart Grid 
and electronic health records to forensics, atomic clocks, advanced 
nanomaterials, and computer chips and more, NIST's overall mission is 
to promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve the quality of life.
    In the area of cybersecurity, NIST has worked with Federal 
agencies, industry, and academia since 1972, starting with the 
development of the Data Encryption Standard, when the potential 
commercial benefit of this technology became clear. NIST's role, to 
research, develop and deploy information security standards and 
technology to protect the Federal Government's information systems 
against threats to the confidentiality, integrity and availability of 
information and services, was strengthened through the Computer 
Security Act of 1987 (Public Law 100-235), broadened through the 
Federal Information Security Management Act of 2002 (FISMA; 44 U.S.C. 
Sec. 3541 \1\) and recently reaffirmed in the Federal Information 
Security Modernization Act of 2014 (Public Law 113-283). Importantly, 
the Cybersecurity Enhancement Act of 2014 (Public Law 113-274) 
authorizes NIST to facilitate and support the development of voluntary, 
industry-led cybersecurity standards and best practices for critical 
infrastructure--consistent with NIST's role in implementation of 
Executive Order 13636, ``Improving Critical Infrastructure 
Cybersecurity''.
---------------------------------------------------------------------------
    \1\ FISMA was enacted as Title III of the E-Government Act of 2002 
(Public Law 107-347; 116 Stat. 2899).
---------------------------------------------------------------------------
    NIST accomplishes its mission in cybersecurity through 
collaborative partnerships with its customers and stakeholders in 
industry, government, academia, standards bodies, consortia and 
international partners.
NIST Engagement with Industry
    Beyond NIST's responsibilities under FISMA, under the provisions of 
the National Technology Transfer and Advancement Act (PL 104-113) and 
related OMB Circular A-119, NIST is tasked with the key role of 
encouraging and coordinating Federal agency use of voluntary consensus 
standards and participation in the development of relevant standards, 
as well as promoting coordination between the public and private 
sectors in the development of standards and in conformity assessment 
activities. NIST works with other agencies, such as the Department of 
State, to coordinate standards issues and priorities with the private 
sector through consensus standards organizations such as the American 
National Standards Institute (ANSI), the International Organization for 
Standardization (ISO), the Institute of Electrical and Electronics 
Engineers (IEEE), the Internet Engineering Task Force (IETF), and the 
International Telecommunications Union (ITU).
    Partnership with industry to develop, maintain, and implement 
voluntary consensus standards related to cybersecurity best ensures the 
interoperability, security and resiliency of the global infrastructure 
needed to make us all more secure. It also allows this infrastructure 
to evolve in a way that embraces both security and innovation--allowing 
a market to flourish to create new types of secure products for the 
benefit of all Americans.
    NIST believes further development of cybersecurity standards will 
be needed to improve the security and resiliency of critical U.S. 
information and communication infrastructure. The availability of 
cybersecurity standards and associated conformity assessment schemes is 
essential in these efforts, which NIST supports to help enhance the 
deployment of sound security solutions and build trust among those 
creating and those using the solutions throughout the country.
Cybersecurity Framework: Current Status
    Almost one year ago, NIST issued The Framework for Improving 
Critical Infrastructure Cybersecurity (Framework) in accordance with 
Section 7 of Executive Order 13636, ``Improving Critical Infrastructure 
Cybersecurity'' (Executive Order). The Framework, created through 
collaboration between industry and government, consists of standards, 
guidelines, and practices to promote the protection of critical 
infrastructure. The prioritized, flexible, repeatable, and cost-
effective approach of the Framework helps owners and operators of 
critical infrastructure to manage cybersecurity-related risk.
    Executive Order 13636 was designed to increase protection across 
the full range of Critical Infrastructure--those systems and assets 
that the Nation's economic and national security rely upon. Under 
Executive Order 13636, Federal Government security agencies were 
charged to increase the flow of valuable threat information to 
industry, and NIST was charged to play a convener and facilitator role 
in supporting the private sector's efforts to develop the Cybersecurity 
Framework.
    The goal of the Framework is to help organizations align their 
policies, technologies, and day-to-day business operations to better 
protect their data and their information technology (IT) and industrial 
control systems.
    The Framework also was designed to assess the capacity of the 
market to deliver better cybersecurity protection. During the 
development process for the Framework, NIST asked industry to 
contribute ideas about what standards, guidelines, and best practices 
could be used more widely to better manage cybersecurity risks, and 
then what steps should be taken to develop the next set of tools in 
these public-private partnerships.
    In the course of developing the Framework document published in 
February of 2014, NIST estimates that more than 3,000 people from 
industry, academia, and government came to participate in workshops and 
webinars, while providing hundreds of detailed comments on drafts. The 
NIST approach was premised on the understanding that a Framework 
designed by industry would gain greater adoption throughout the private 
sector, and could support a vibrant market for IT security products and 
services.
    The result of this effort is a dynamic tool that has two main 
parts.
    First, the Framework is a collection of existing standards and best 
practices that proved to be helpful in protecting systems from cyber 
threats and ensuring business confidentiality, while protecting 
individual privacy and civil liberties.
    Second, the Framework sets out basic guidelines that organizations 
can use in adopting those practices, providing them with a coherent 
structure to consider the many, varied approaches to cybersecurity that 
have proliferated in recent years.
    NIST heard over and over that a key challenge facing information 
security professionals, senior business leaders, and company executives 
and boards of directors striving to address cybersecurity, was the lack 
of a common vocabulary and approach. As a result, the Framework starts 
with general guidance, and cascades to the more technical and specific, 
to help facilitate that dialogue with and within an organization.
    The fact that the Framework is--and will remain--voluntary has 
allowed NIST to continue to bring the maximum number of stakeholders to 
the table. And the inherent flexibility of the Framework allows each 
organization to tailor it to individual needs.
    Since the release of the Framework, NIST has strengthened its 
collaboration with critical infrastructure owners and operators, 
industry leaders, government partners, and other stakeholders to raise 
awareness about the Framework, encourage use by organizations across 
and supporting the critical infrastructure, and develop implementation 
guides and resources.
    NIST, along with its partners across government, has focused on 
building on that initial awareness and on working arm-in-arm with the 
private sector as the Framework begins to be used within organizations, 
and as those organizations develop supporting products and services.
    The Framework was designed to be a ``living'' document, shaped by 
the experiences of those using it. To learn more about these 
experiences, NIST released a Request for Information (RFI) \2\ on 
August 26, 2014, and held its 6th Cybersecurity Framework Workshop at 
the University of South Florida in Tampa, Florida, on October 29 and 
30, 2014. Responses to the RFI came from industry, academia and 
government organizations at multiple levels, as well as organizations 
representing large constituencies and key stakeholders in critical 
infrastructure sectors.
---------------------------------------------------------------------------
    \2\ RFI--Experience with the Framework for Improving Critical 
Infrastructure Cybersecurity, August 26, 2014, https://
federalregister.gov/a/2014-20315
---------------------------------------------------------------------------
    Based on that feedback, and NIST's continued work, I'd like to 
share some thoughts about where NIST is now--almost a year since the 
release of the Framework.
    NIST found that organizations are using the Framework in a variety 
of ways. Many users have found the Framework helpful in raising 
awareness and communicating with stakeholders within their 
organization, including executive leadership. It is also being used to 
improve communications across organizations, allowing cybersecurity 
expectations to be shared with business partners, suppliers, and among 
sectors. The Framework is being used to demonstrate alignment with 
standards, guidelines, and best practices. The Framework is also being 
used as a strategic planning tool to assess risks and current 
practices.
    In addition to those ``users,'' we have been encouraged by seeing 
expanding networks--within and across sectors of the economy--beginning 
to learn about and take advantage of the Framework, making it more 
relevant to their stakeholders.
    This includes:

  <bullet> Technology companies have been developing products and 
        services aligned with the Framework.

  <bullet> Communities of interest and associations have been sharing 
        practical advice to help organizations to optimize their use of 
        the Framework.

  <bullet> The auditing community has begun to leverage the Framework 
        to provide a consistent auditable standard.

  <bullet> Major insurance providers have begun to offer policies tied 
        to the Framework and are promoting it among their policy-
        holders.

  <bullet> States have begun to leverage the Framework to improve the 
        security of their infrastructure, including as a foundation for 
        their work in cybersecurity for state emergency management 
        agencies.

    And, in part because the Framework incorporates globally recognized 
voluntary standards for cybersecurity, it is serving as a model for 
other countries, allowing them to match their business' perspectives 
with their governments' needs. In other words, this is not a ``U.S.-
only'' Framework.
Cybersecurity Framework: Next Steps
    NIST is continuing its outreach and awareness program through 
discussions with international partners, global companies and other 
interested governments, while NIST continues the primary outreach 
efforts to U.S. industries and organizations. This includes outreach to 
regulatory agencies, to facilitate a consistent understanding of the 
Framework across the Federal Government, and to reinforce that the 
Framework is not designed or intended to create additional requirements 
for owners and operators of critical infrastructure, who are otherwise 
subject to regulatory requirements.
    As NIST learns from individual organizations about their 
experiences with the Framework--good or otherwise--NIST hopes to share 
that knowledge and insight with others so that they may gain confidence 
in using the Framework. NIST also hopes to provide specifics, for 
example, through appropriate ``case studies,'' for those who are 
seeking more information on how to build or improve their own 
cybersecurity programs.
    The data that is collected and reflected will be the source 
information for any determinations or suggestions for changes that 
might be needed to the Framework going forward. The Framework is 
envisioned as a ``living document.'' At this point, however, there is 
rather widespread agreement among workshop participants that it is too 
soon to consider updating the Framework, and that NIST should continue 
efforts to promote understanding and use of the current version. This 
will allow industry the time to implement, for tools and service to be 
built and offered, as well as for the common vocabulary of the 
Framework to become established. In any event, any changes that might 
be made to the Framework will be made through the same open, 
transparent and inclusive process that was used in the initial creation 
of the Framework.
    In the months ahead, NIST will focus on the challenging aspects of 
implementation and will consider producing guidance that will help 
organizations address these challenges. No modifications or new 
versions of the Framework are anticipated within the next year, 
although NIST will continue to work on areas singled out in the Roadmap 
for Improving Critical Infrastructure Cybersecurity, \3\ released the 
same time as the Framework. NIST also will continue to explore options 
for future governance of the Framework, based on NIST's appreciation of 
the long-term benefits of the Framework becoming a private-sector 
maintained process in the future.
---------------------------------------------------------------------------
    \3\ http://www.nist.gov/cyberframework/upload/roadmap-021214.pdf
---------------------------------------------------------------------------
    NIST will continue, and increase, its efforts to raise awareness of 
the Framework, including through partnerships with other organizations. 
NIST's efforts will be carried out in the same open and collaborative 
manner which was the hallmark of the Framework's development. One 
priority will be to develop and disseminate information and training 
materials that advance use of the Framework, such as actual or 
exemplary illustrations of how organizations of varying sizes, types, 
and cybersecurity capabilities can practically employ the Framework to 
make themselves more secure.
National Initiative for Cybersecurity Education
    I would like to provide you now with an update on NIST's work to 
support building a capable cybersecurity workforce--a workforce that is 
agile and can adapt to meet the national need to design, develop, 
implement, maintain and continuously improve cybersecurity, consistent 
with the relevant provisions of the Cybersecurity Enhancement Act of 
2014.
    In 2010, the National Initiative for Cybersecurity Education (NICE) 
was established to enhance the overall cybersecurity posture of the 
United States by accelerating the availability of educational, 
training, and workforce development resources designed to improve the 
cybersecurity behavior, skills, and knowledge of every segment of the 
population. As the lead agency for this initiative, NIST works with 
more than 20 Federal departments and agencies, as well as with industry 
and academia, to raise national awareness about risks in cyberspace, 
broaden the pool of individuals prepared to enter the cybersecurity 
profession, and cultivate a globally competitive cybersecurity 
workforce.
    NICE has also aligned with the President's Job-Driven Training 
Initiative to increase the number of individuals who complete high-
quality cybersecurity training and education programs and attain the 
skills most needed to provide a pipeline of skilled workers for 
industry and government.
Additional Research Areas
    NIST performs research and development in related technologies, 
such as the usability of systems including electronic health records, 
voting machines, biometrics and software interfaces. NIST is performing 
basic research on the mathematical foundations needed to determine the 
security of information systems. In the areas of digital forensics, 
NIST is enabling improvements in forensic analysis through the National 
Software Reference Library and computer forensics tool testing. 
Software assurance metrics, tools, and evaluations developed at NIST 
are being implemented by industry to help strengthen software against 
hackers. NIST responds to government and market requirements for 
biometric standards by collaborating with other Federal agencies, 
academia, and industry partners to develop and implement biometrics 
evaluations, enable usability, and develop standards (fingerprint, 
face, iris, voice/speaker, and multimodal biometrics). NIST plays a 
central role in defining and advancing standards, and collaborating 
with customers and stakeholders to identify and reach consensus on 
cloud computing standards.
Conclusion
    NIST recognizes that it has been entrusted with an essential role 
in helping industry, consumers and government to manage cybersecurity 
risks.
    NIST is extremely committed to fulfilling that role; it is 
committed to improving on existing cybersecurity technical solutions, 
standards, guidelines, and best practices, through robust 
collaborations with our Federal Government partners, private sector 
collaborators, and international colleagues; and NIST is committed to 
helping to ensure that government needs stay aligned with, and are 
informed by, the needs of American industry.
    But let us be clear, and here I am not telling this Committee 
anything it does not know well: even with the body of work that is now 
behind us, there is still much to do. NIST will continue a sustained 
dialogue between government and the private sector to ensure it can be 
responsive to ever-evolving cybersecurity challenges, and in this NIST 
has appreciated the support of the Committee.
    Thank you for the opportunity to testify today on NIST's work in 
cybersecurity. I would be happy to answer any questions you may have.
                               Attachment
                           Charles H. Romine
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Charles Romine is Director of the Information Technology Laboratory 
(ITL). ITL, one of seven research Laboratories within the National 
Institute of Standards and Technology (NIST), has an annual budget of 
$150 million, more than 350 employees, and about 160 guest researchers 
from industry, universities, and foreign laboratories. Dr. Romine 
oversees a research program designed to promote U.S. innovation and 
industrial competitiveness by developing and disseminating standards, 
measurements, and testing for interoperability, security, usability, 
and reliability of information systems, including cybersecurity 
standards and guidelines for Federal agencies and U.S. industry, 
supporting these and measurement science at NIST through fundamental 
and applied research in computer science, mathematics, and statistics. 
Through its efforts, ITL supports NIST's mission, to promote U.S. 
innovation and industrial competitiveness by advancing measurement 
science, standards, and technology in ways that enhance economic 
security and improve our quality of life. Within NIST's traditional 
role as the overseer of the National Measurement System, ITL is 
conducting research addressing measurement challenges in information 
technology as well as issues of information and software quality, 
integrity, and usability. ITL is also charged with leading the Nation 
in using existing and emerging IT to help meet national priorities, 
including developing cybersecurity standards, guidelines, and 
associated methods and techniques, cloud computing, electronic voting, 
smart grid, homeland security applications, and health information 
technology.
Education

Ph.D. in Applied Mathematics from the University of Virginia

B.A. in Mathematics from the University of Virginia

    The Chairman. Thank you, Dr. Romine.
    Ms. Beauchesne?

        STATEMENT OF ANN M. BEAUCHESNE, VICE PRESIDENT,

         NATIONAL SECURITY AND EMERGENCY PREPAREDNESS,

                    U.S. CHAMBER OF COMMERCE

    Ms. Beauchesne. Thank you. Good morning, Chairman Thune, 
Ranking Member Nelson, and members of the Committee. My name is 
Ann Beauchesne. I am the Vice President of the U.S. Chamber's 
National Security and Emergency Preparedness Department. On 
behalf of the Chamber, I welcome the opportunity to testify 
before the Senate Commerce Committee regarding the business 
community's experience with NIST's Framework for Improving 
Critical Infrastructure Cybersecurity.
    I want to thank the Committee for holding today's hearing. 
Recent cyber incidents underscore the need to keep building 
toward a more secure and resilient cyber future at home and 
globally.
    The good news is that addressing sophisticated cyber 
threats against American businesses has gone from an IT issue 
to a top priority for company executives and boards of 
directors. My statement will focus on the successful rollout of 
the Framework and the positive collaboration that many 
businesses and government entities have developed over the past 
several months.
    The Chamber's promotion of the Framework through our 
Cybersecurity Campaign, as well as the urgent need for 
cybersecurity information sharing legislation. It is 
encouraging to see that the administration has put forward its 
own views on cybersecurity information sharing legislation as 
well. Legislation is needed to help businesses improve their 
awareness of cyber threats, as well as to enhance their 
protection and response capabilities.
    The Chamber believes that the development and rollout of 
the Framework has been a success. We view the Framework as one 
of the best examples of a public-private partnership in action. 
From conception to release, the Chamber, trade associations, 
and companies of all sizes and sectors collaborated closely 
with the administration, NIST, and the Department of Homeland 
Security in developing the Framework. Much of industry's 
favorable reaction is owed in large measure to NIST. They have 
treated the business community as a genuine partner and tackled 
a tough assignment in ways that ought to serve as a model for 
other agencies.
    Last spring, the administration sent the business community 
a powerful message, saying that the Framework should remain 
collaborative, voluntary, and innovative over the long term, in 
a word, ``non-regulatory.'' Businesses need flexible solutions 
to respond to the rapidly changing threat environment. As 
threats continue to evolve, businesses must be able to adapt 
accordingly.
    I appreciate the comments of Silver Star Communications' 
Jeff England who notes in his written testimony that a 
regulatory approach to cybersecurity distracts policymakers' 
attention from the root problem, that is, attacks coming from 
organized criminals and state-sponsored groups.
    Since the Framework's release last February, industry has 
demonstrated its commitment to using it. Critical 
infrastructure are keenly aware and supportive of the 
Framework.
    In my written testimony, I have outlined how numerous 
associations and trade groups are creating tools and resources 
for their members and holding events around the country to 
promote cybersecurity awareness and education of the Framework. 
Going forward, we urge policymakers to commit even greater 
resources over the next several years to grow awareness of the 
Framework and risk-based tools for cybersecurity.
    The Chamber has launched its own cybersecurity campaign 
under the banner of Improving Today, Protecting Tomorrow. Last 
year, we organized roundtable events with State and local 
chambers in Chicago, Austin, Everett, and Phoenix in the run-up 
to our third annual cybersecurity summit in October. Each 
roundtable featured cybersecurity principles from the White 
House, DHS, NIST, as well as local FBI and Secret Service 
officials. At these roundtables, the Chamber and our Federal 
partners have urged businesses of all sizes and sectors to 
adopt fundamental security practices to reduce network and 
system weaknesses. The Chamber is planning to hold more 
cybersecurity roundtables this year with our Federal partners, 
as well as our fourth annual cybersecurity summit on October 6.
    The Framework is a good start, but more work is needed to 
push back against skilled attackers. No single tool or approach 
can prevent advanced and persistent threats or state-sponsored 
cyber attacks. Most small and mid-sized businesses tend to lack 
the money and personnel to beat back highly advanced and 
nefarious actors.
    Despite the Chamber's strong support for the Framework, the 
effort will be incomplete without getting information sharing 
legislation done. While the Chamber recognizes that the 
Commerce Committee does not have jurisdiction over 
cybersecurity information sharing legislation, we continue to 
push Congress to pass a bill that includes robust safeguards 
such as liability, regulatory, FOIA, and antitrust protections 
for businesses that voluntarily exchange threat data with their 
peers and with the Government.
    Last week, 35 associations, including the Chamber, sent the 
Senate a letter urging lawmakers to quickly pass a cyber 
information sharing bill.
    The Senate Intelligence Committee passed a smart and 
workable bill last year which earned broad bipartisan support.
    Cyber attacks aimed at U.S. businesses and government 
entities are being launched from various sources, including 
sophisticated hackers, organized crime, and state-sponsored 
groups. Congressional action on information sharing cannot come 
quickly enough.
    Again, I want to thank you for inviting me to be here. The 
Chamber looks forward to working with you and your staff, and I 
would be happy to answer any questions.
    [The prepared statement of Ms. Beauchesne follows:]

   Prepared Statement of Ann M. Beauchesne, Vice President, National 
     Security and Emergency Preparedness, U.S. Chamber of Commerce
    Good morning, Chairman Thune, Ranking Member Nelson, and other 
distinguished members of the Committee. My name is Ann Beauchesne, and 
I serve as vice president of the U.S. Chamber's National Security and 
Emergency Preparedness Department. On behalf of the Chamber, I welcome 
the opportunity to testify before the Senate Commerce committee 
regarding the business community's experience with the National 
Institute of Standards and Technology's (NIST's) Framework for 
Improving Critical Infrastructure Cybersecurity (the framework).\1\
---------------------------------------------------------------------------
    \1\ See www.nist.gov/cyberframework.
---------------------------------------------------------------------------
    The National Security and Emergency Preparedness Department was 
established in 2003 to develop and implement the Chamber's homeland and 
national security policies. The department works through the National 
Security Task Force, a policy committee composed of roughly 200 Chamber 
members representing practically every sector of the American economy. 
The task force's Cybersecurity Working Group identifies current and 
emerging issues, crafts policies and positions, and provides analysis 
and direct advocacy to government and business leaders.
    The need to address increasingly sophisticated threats against U.S. 
and global businesses has gone from an IT issue to a top priority for 
the C-suite and the boardroom. Chamber President and CEO Thomas J. 
Donohue recently said, ``In an interconnected world, economic security 
and national security are linked. To maintain a strong and resilient 
economy, we must protect against the threat of cyberattacks.''
    My statement focuses on the successful rollout of the framework and 
the positive collaboration that many businesses and government entities 
have developed over the past several months, including our new 
cybersecurity campaign--Improving Today, Protecting 
Tomorrow<SUP>TM</SUP>. I am also going to highlight policy issues--
information-sharing legislation being the top legislative priority--
that lawmakers and the administration need to diligently address. The 
information-sharing discussion puts too little emphasis on improving 
government-to-business sharing. The Chamber wants to expand government-
to-business information sharing, which is progressing but needs 
improvement.\2\
---------------------------------------------------------------------------
    \2\ The Chamber submitted in October 2014 similar comments to 
National Institute of Standards and Technology (NIST) related to 
businesses' awareness and use of the framework. See http://
csrc.nist.gov/cyberframework/rfi_comments_10_2014.html.
---------------------------------------------------------------------------
    The framework is a good start, but more work is needed to push back 
against skilled attackers. Most small and midsize businesses (SMBs) 
tend to lack the money and personnel to beat back highly advanced and 
nefarious actors, such as organized criminal gangs and groups carrying 
out state-sponsored attacks. No single strategy can prevent advanced 
and persistent threats--popularly known as APTs in cybersecurity 
jargon--from breaching an organization's cyber defenses.
    Policymakers have not sufficiently acknowledged this expensive, 
practical reality. American companies should not be expected to 
shoulder the substantial costs of cyberattacks emanating from well-
resourced bad actors such as criminal syndicates or nation-states--
costs typically absorbed by national governments. Nation-states or 
their proxies and other sophisticated actors are apparently hacking 
businesses with impunity--and that has got to stop.
    In addition to having policymakers acknowledge cost concerns, the 
Chamber would welcome working with the administration and Congress on 
establishing an intelligent and forceful deterrence strategy, which the 
United States currently lacks. U.S. policymakers need to focus on 
pushing back against illicit actors and not on blaming the victims of 
cybersecurity incidents.\3\
---------------------------------------------------------------------------
    \3\ The Chamber submitted comments to the Department of Homeland 
Security (DHS) on cybersecurity solutions for small and midsize 
businesses (SMBs) in April 2014.
---------------------------------------------------------------------------
The Framework Is an Excellent Example of an Effective Public-Private 
        Partnership; Critical Infrastructure Awareness of the Framework 
        Is Strong, and Sector Activities Are Robust and Maturing
    The Chamber believes that the framework--which was released last 
February--has been a success. The framework represents one of the best 
examples of public-private partnerships in action. NIST and 
stakeholders in the public and private sectors should have a great 
sense of accomplishment. The Chamber, sector-based coordinating 
councils and associations, companies, and other entities collaborated 
closely with NIST in developing the framework since the first workshop 
was held in April 2013.
    Critical infrastructure sectors are keenly aware of and supportive 
of the framework. The Chamber understands that critical infrastructures 
at ``greatest risk'' have been identified and engaged by administration 
officials under the terms of the cyber executive order (EO).\4\ 
Government officials ought to ensure that all resources, particularly 
the latest cyber threat indicators, are available to these enterprises 
to counter increasing and advanced threats.
---------------------------------------------------------------------------
    \4\ Executive Order (EO) 13636, Improving Critical Infrastructure 
Cybersecurity, is available at www.gpo.gov/fdsys/pkg/FR-2013-02-19/pdf/
2013-03915.pdf.
---------------------------------------------------------------------------
    Further, important elements of U.S. industry are aware of the 
framework and are using it or similar risk management tools. Indeed, 
the Chamber welcomed an assessment from Michael Daniel, White House 
special assistant to the president and cybersecurity coordinator, who 
remarked on September 23, 2014, at the Chamber's third cyber roundtable 
in Everett, Washington, that industry's response to the framework has 
been ``phenomenal.''
    A second White House official, Ari Schwartz, senior director for 
cybersecurity, noted on October 1, 2014, that business support for the 
framework has ``exceeded expectations.'' Such recognition is 
constructive and helps keep the private sector engaged in using the 
framework and promoting it with business partners.\5\
---------------------------------------------------------------------------
    \5\ See ``At eight-month mark, industry praises framework and eyes 
next steps,'' Inside Cybersecurity, October 6, 2014, http://
insidecybersecurity.com/Cyber-Daily-News/Daily-News/at-eight-month-
mark-industry-praises-framework-and-eyes-next-steps/menu-id-1075.html.
---------------------------------------------------------------------------
    Much of industry's favorable reaction is owed in large measure to 
NIST, which tackled the framework's development in ways that ought to 
serve as a model for other agencies and departments. In May 2014, the 
administration sent the business community a powerful message, saying 
that the framework should remain collaborative, voluntary, and 
innovative over the long term.\6\ Interestingly, public focus on the 
framework has created visibility into industry's long-standing efforts 
to address cyber risks and threats--constant, dedicated, and (mostly) 
silent efforts that preceded the creation of the framework.\7\
---------------------------------------------------------------------------
    \6\ The Chamber agrees with Michael Daniel's May 22 blog, Assessing 
Cybersecurity Regulations, at www.whitehouse.gov/blog/2014/05/22/
assessing-cybersecurity-regulations. The blog says that business and 
government ``must build equally agile and responsive capabilities not 
bound by outdated and inflexible rules and procedures.'' The Chamber 
and industry partners especially urge independent agencies and Congress 
to adhere to the dynamic approach advocated by the administration and 
that is embodied in the nonregulatory, public-private framework. See 
June 11, 2014 letter, available at www.uschamber.com/sites/default/
files/documents/files/11June14GroupLetterT-
YReplytoDanielCyberBlog_Final_0.pdf.
    \7\ The online publication Inside Cybersecurity provides an 
excellent catalog of industry initiatives to implement data-and 
network-security best practices. See http://insidecyber
security.com/Sectors/menu-id-1149.html.
---------------------------------------------------------------------------
    Most notable, since the framework's release, industry has 
demonstrated its commitment to using it. Many associations are creating 
resources for their members and holding events across the country and 
taking other initiatives to promote cybersecurity education and 
awareness of the framework. Some examples are listed here. Associations 
are planning and exploring additional activities as well.

  <bullet> The Alliance of Automobile Manufacturers and the Association 
        of Global Automakers have initiated a process to establish an 
        automobile industry sector information-sharing and analysis 
        center (Auto-ISAC) to voluntarily collect and share information 
        about existing or potential threats to the cybersecurity of 
        motor vehicle electronics and in-vehicle networks.

  <bullet> The American Chemistry Council (ACC) is developing sector-
        specific guidance based on the NIST cyber framework to further 
        enhance and implement the council's Responsible Care Security 
        Code. ACC's Chemical Information Technology Center (ChemITC) is 
        also piloting an ISAC for the chemical sector.

  <bullet> The American Gas Association (AGA) has hosted a series of 
        webinars on control system cybersecurity, is collaborating with 
        small utilities to develop robust cybersecurity programs, and 
        is working with companies to review and enhance their 
        cybersecurity posture using the Oil and Natural Gas Subsector 
        Cybersecurity Capability Maturity Model (ONG-C2M2) from the 
        Department of Energy (DOE). Among other activities, AGA has 
        stood up the Downstream Natural Gas Information and Analysis 
        Center (DNG-ISAC), an ISAC designed to help support the 
        information-sharing interests of downstream natural gas 
        utilities.

  <bullet> The American Hotel & Lodging Association (AH&LA) has 
        conducted a series of widely attended cyber and data security 
        webinars to assist small, medium, and large hotel and lodging 
        businesses with implementing key information security measures 
        and risk assessments.

  <bullet> The American Water Works Association (AWWA) has created 
        cybersecurity guidance and a use-case tool to aid water and 
        wastewater utilities' implementation of the framework. The 
        guidance is cross-referenced to the framework. This tool is 
        serving as implementation guidance for the framework in the 
        water and wastewater systems sector.

  <bullet> Members of the Communications Sector Coordinating Council 
        (CSCC)--made up of broadcasting, cable, wireline, wireless, and 
        satellite segments--have participated in multiple NIST, 
        Department of Homeland Security (DHS), and industry 
        association-sponsored programs, webinars, and panels. The 
        sector is completing a year-long effort within the Federal 
        Communication Commission's (FCC's) Communications Security 
        Reliability and Interoperability Council (CSRIC) that involves 
        more than 100 professionals who have worked to adapt the NIST 
        framework to the sector segments and provide guidance to the 
        industry.

  <bullet> The Electricity Subsector Coordinating Council has worked 
        with DOE to develop sector-specific guidance for using the 
        framework. The guidance leverages existing subsector-specific 
        approaches to cybersecurity, including DOE's Electricity 
        Subsector Cybersecurity Risk Management Process Guideline, the 
        Electricity Subsector Cybersecurity Capability Maturity Model, 
        NIST's Guidelines for Smart Grid Cyber Security, and the North 
        American Electric Reliability Corporation's (NERC) Critical 
        Infrastructure Protection Cybersecurity Standards.

  <bullet> The mutual fund industry, represented by the Investment 
        Company Institute (ICI), has added to its committee roster a 
        Chief Information Security Officer Advisory Committee. The 
        committee's mission is to collaborate on cybersecurity issues 
        and information sharing in the financial services industry and 
        provide a cyber threat protection resource for ICI members.

  <bullet> The Information Technology Industry Council (ITI) visited 
        Korea and Japan in May 2014 and shared with these countries' 
        governments and business leaders the benefits of a public-
        private partnership-based approach to developing globally 
        workable cybersecurity policies. ITI highlighted the framework 
        as an example of an effective policy developed in this manner, 
        reflecting global standards and industry-driven practices. ITI 
        principals also spoke at a U.S.-European Union (EU) workshop in 
        Brussels in November 2014, comparing U.S. and EU policy 
        approaches to cybersecurity and highlighting the positive 
        attributes of the framework and its development.

  <bullet> The National Association of Manufacturers (NAM) has 
        spearheaded the D.A.T.A. (Driving the Agenda for Technology 
        Advancement) Policy Center, providing manufacturers with a 
        forum to understand the latest cybersecurity policy trends, 
        threats, and best practices. The D.A.T.A. Center focuses on 
        working with small and medium-size manufacturers to help them 
        secure their assets.

  <bullet> Through the American Petroleum Institute (API), the oil and 
        natural gas sector has worked with DOE to complete the Oil and 
        Natural Gas Subsector Cybersecurity Capability Maturity Model 
        (ONG-C2M2). The oil and natural gas sector in 2014 established 
        a new Oil and Natural Gas Information Sharing and Analysis 
        Center (ONG-ISAC) to provide shared intelligence on cyber 
        incidents, threats, vulnerabilities, and responses throughout 
        the industry.

  <bullet> The Retail Industry Leaders Association (RILA), in 
        partnership with the National Retail Federation (NRF), has 
        created the Retail Cyber Intelligence Sharing Center (R-CISC), 
        featuring information sharing, research, and education and 
        training. This ISAC enables retailers to share threat data 
        among themselves and to receive threat information from 
        government and law enforcement partners.

  <bullet> The U.S. Chamber of Commerce has launched its national 
        roundtable series, Improving Today, Protecting Tomorrow 
        <SUP>TM</SUP>, recommending that businesses of all sizes and 
        sectors adopt fundamental Internet security practices.
The Chamber's New Cybersecurity Campaign Enters Its Second Year; 
        Policymakers Need to Focus on Passing Information-Sharing 
        Legislation and Deterring Foreign Attackers
    The NIST framework is designed to help s start a cybersecurity 
program or improve an existing one. The framework puts cybersecurity 
into a common language for organizations to better understand their 
cybersecurity posture, set goals for cybersecurity improvements, 
monitor their progress, and foster communications with internal and 
external stakeholders.
    Looking ahead to 2015, the Chamber's cybersecurity campaign intends 
to focus on several areas, including the following:

  <bullet> Organizing roundtables with local chambers and growing 
        market solutions. The Chamber is planning more cyber 
        roundtables in 2015. Last year, the Chamber organized 
        roundtable events with state and local chambers in Chicago, 
        Illinois (May 22); Austin, Texas (July 10); Everett, Washington 
        (September 23); and Phoenix, Arizona (October 8) prior to the 
        Chamber's Third Annual Cybersecurity Summit on October 28.

    Leading member sponsors of the campaign were American Express, 
        Dell, and Splunk. Other sponsors were the American Gas 
        Association, Boeing, the Edison Electric Institute, Exelon, HID 
        Global, Microsoft, Oracle, and Pepco Holdings, Inc., and The 
        Wall Street Journal.

    Each roundtable featured cybersecurity principals from the White 
        House, DHS, NIST, and local FBI and U.S. Secret Service 
        officials. The Chamber and our partners urged businesses to 
        adopt fundamental Internet security practices to reduce network 
        and system weaknesses and make the price of successful hacking 
        increasingly steep. The Chamber also urged businesses to 
        improve their cyber risk management processes. All businesses 
        should understand common online threats that can lead them to 
        become victims of cybercrime. Using the framework and similar 
        risk management tools, such as the Chamber's Internet Security 
        Essentials for Business 2.0 guidebook,\8\ is ultimately about 
        making your business more secure and resilient. The Chamber 
        encouraged businesses to report cyber incidents. Perfect online 
        security is unattainable, even for large businesses. Innovative 
        solutions are regularly being brought to market because cyber 
        threats are always changing. Businesses should report cyber 
        incidents and online crime to their FBI or U.S. Secret Service 
        field offices.
---------------------------------------------------------------------------
    \8\ The booklet is available free for downloading at 
www.uschamber.com/issue-brief/internet-security-essentials-business-20.

  <bullet> Increasing public awareness of the framework. The Chamber 
        urges policymakers to commit greater resources over the next 
        several years to growing awareness of the framework and risk-
        based solutions through a national education campaign. A broad-
        based campaign involving federal, state, and local governments 
        and multiple sectors of the U.S. economy would spur greater 
        awareness of cyber threats and aggregate demand for market-
---------------------------------------------------------------------------
        driven cyber solutions.

    The Chamber believes that government--particularly independent 
        agencies--should devote their limited time and resources to 
        assisting resource-strapped enterprises, not trying to flex 
        their existing regulatory authority. After all, while 
        businesses are working to detect, prevent, and mitigate 
        cyberattacks originating from sophisticated criminal syndicates 
        or foreign powers, they shouldn't have to worry about 
        regulatory or legal sanctions.

  <bullet> Improving information-sharing is job No. 1. The framework 
        would be incomplete without enacting information-sharing 
        legislation that removes legal and regulatory penalties to 
        quickly exchange data about threats to U.S. companies.

    <ctr-circle> Passing legislation this year. Last week, 35 
            associations, including the Chamber, strongly urged the 
            Senate to quickly pass a cybersecurity information-sharing 
            bill.\9\ The Senate Intelligence committee passed a smart 
            and workable bill in July 2014, which earned broad 
            bipartisan support. Recent cyber incidents underscore the 
            need for legislation to help businesses improve their 
            awareness of cyber threats and enhance their protection and 
            response capabilities.
---------------------------------------------------------------------------
    \9\ The coalition letter is available at www.uschamber.com/sites/
default/files/150127_multi-association_cyber_info-
sharing_legislation_senate.pdf.

      Above all, the Chamber urges Congress to send a bill to the 
            president that gives businesses legal certainty that they 
            have safe harbor against frivolous lawsuits when 
            voluntarily sharing and receiving threat indicators and 
            countermeasures in real time and taking actions to mitigate 
            cyberattacks. The legislation also needs to offer 
            protections related to public disclosure, regulatory, and 
            antitrust matters in order to increase the timely exchange 
---------------------------------------------------------------------------
            of information among public and private entities.

      The Chamber also believes that legislation needs to safeguard 
            privacy and civil liberties and establish appropriate roles 
            for civilian and intelligence agencies. The cybersecurity 
            measure approved in July 2014 by the Senate Intelligence 
            committee reflected practical compromises among many 
            stakeholders on these issues.

      Cyberattacks aimed at U.S. businesses and government entities are 
            being launched from various sources, including 
            sophisticated hackers, organized crime, and state-sponsored 
            groups. These attacks are advancing in scope and 
            complexity. Congressional action cannot come quickly 
            enough.

    <ctr-circle> Helping SMBs mitigate attacks. The cybersecurity EO 
            elevates the importance of bidirectional information 
            sharing and calls for expanding the public-private Enhanced 
            Cybersecurity Services (ECS) program to critical 
            infrastructure. The administration should consider 
            developing an ECS program that is affordable to SMBs. On 
            the one hand, some businesses would be well equipped 
            internally or in partnership with third-party providers to 
            make use of cyber threat information. On the other hand, 
            the Chamber believes that, depending on their size and 
            abilities, most SMBs would need significant guidance and 
            perhaps additional assistance with incorporating threat 
            information and risk management strategies into their 
            organizations.

  <bullet> Engaging law enforcement. The Chamber plans to continue its 
        close contact with the FBI and the U.S. Secret Service to build 
        trusted public-private relationships, which are essential to 
        confirming a crime and beginning criminal investigations. We 
        are encouraging businesses to partner with law enforcement 
        before, during, and after a cyber incident. FBI and U.S. Secret 
        Service officials have participated in each of the Chamber's 
        roundtables.

  <bullet> Harmonizing cybersecurity regulations. Information-security 
        requirements should not be cumulative. The Chamber believes it 
        is valuable that agencies and departments are urged under the 
        EO to report to the Office of Management and Budget any 
        critical infrastructure subject to ``ineffective, conflicting, 
        or excessively burdensome cybersecurity requirements.'' We urge 
        the administration and Congress to prioritize eliminating 
        burdensome regulations on businesses. One solution could entail 
        giving businesses credit for information security regimes that 
        exist in their respective sectors that they have adopted.\10\ 
        It is positive that Michael Daniel, the administration's lead 
        cyber official, has made harmonizing existing cyber regulations 
        with the framework a priority.
---------------------------------------------------------------------------
    \10\ The business community already complies with multiple 
information security rules. Among the regulatory requirements impacting 
businesses of all sizes are the Chemical Facilities Anti-Terrorism 
Standards (CFATS), the Federal Energy Regulatory Commission-North 
American Reliability Corporation Critical Information Protection (FERC-
NERC CIP) standards, the Gramm-Leach-Bliley Act (GLBA), the Health 
Insurance Portability and Accountability Act (HIPAA), and the Sarbanes-
Oxley (SO<INF>X</INF>) Act. The Securities and Exchange Commission 
(SEC) issued guidance in October 2011 outlining how and when companies 
should report hacking incidents and cybersecurity risks. Corporations 
also comply with many non-U.S. requirements, which add to the 
regulatory mix.

  <bullet> Raising adversaries' costs through deterrence. The Chamber 
        is reviewing actions that businesses and government can take to 
        deter nefarious actors that threaten to empty bank accounts, 
        steal trade secrets, or damage vital infrastructures. While we 
        have not formally endorsed the report, the U.S. Department of 
        State's International Security Advisory Board (ISAB) issued in 
        July draft recommendations regarding cooperation and deterrence 
---------------------------------------------------------------------------
        in cyberspace.

    The ISAB's recommendations--including cooperating on crime as a 
        first step, exploring global consensus on the rules of the 
        road, enhancing governments' situational awareness through 
        information sharing, combating IP theft, expanding education 
        and capacity building, promoting attribution and prosecution, 
        and leading by example--are sensible and worthy of further 
        review by cybersecurity stakeholders.\11\
---------------------------------------------------------------------------
    \11\ The ISAB report is available at www.state.gov/documents/
organization/229235.pdf.

    The Chamber believes that the United States needs to coherently 
        shift the costs associated with cyberattacks in ways that are 
        legal, swift, and proportionate relative to the risks and 
        threats. Policymakers need to help the law enforcement 
        community, which is a key asset to the business community but 
        numerically overmatched compared with illicit hackers.\12\
---------------------------------------------------------------------------
    \12\ The Chamber argues for a clear cyber deterrence strategy in 
its December 2013 letter to NIST on the framework. See http://
csrc.nist.gov/cyberframework/framework_comments/2013
1213_ann_beauchesne_uschamber.pdf.

  <bullet> Making incentives work. In an April 2013 letter to NIST 
        regarding businesses' use of the framework and the role of 
        incentives, the Chamber provides its views on extending 
        liability protections related to information-sharing 
        legislation (see p. 6 of this statement), extending a safe 
        harbor related to using the framework, extending SAFETY Act 
        applicability to the framework, eliminating cybersecurity 
        regulations, leveraging Federal procurement, and making the 
        research and development (R&D) tax credit permanent.\13\
---------------------------------------------------------------------------
    \13\ The letter is available at www.ntia.doc.gov/files/ntia/
29apr13_chamber_comments.pdf.

    The Chamber appreciates that the administration is assessing a mix 
        of incentives that could induce businesses to use the 
        framework.\14\ However, in the Chamber's view, it is imperative 
        that the administration, independent agencies, and lawmakers 
        extend to companies the assurance that the cybersecurity 
        framework and any actions taken in relation to it remain 
        collaborative, flexible, and innovative over the long term. The 
        Chamber believes that the presence of these qualities, or the 
        lack thereof, would be a key determinant to use of the 
        framework by U.S. critical infrastructure as well as businesses 
        generally.
---------------------------------------------------------------------------
    \14\ See www.whitehouse.gov/blog/2013/08/06/incentives-support-
adoption-cybersecurity-framework.
---------------------------------------------------------------------------
Roadmap for the Future of the Cybersecurity Framework
    In February 2014, NIST released a Roadmap to accompany the 
framework. The Roadmap outlines further areas for possible 
``development, alignment, and collaboration.'' \15\ The Chamber noted 
in an October 2014 letter to NIST some key areas that we see as needing 
more attention. The Chamber would highlight for the Committee the 
importance of aligning international cybersecurity regimes with the 
framework.
---------------------------------------------------------------------------
    \15\ The Roadmap is available at www.nist.gov/cyberframework/
upload/roadmap-021214.pdf.
---------------------------------------------------------------------------
    Many Chamber members operate globally. We appreciate that NIST has 
been actively meeting with foreign governments to urge them to embrace 
the framework. Like NIST, the Chamber believes that efforts to improve 
the cybersecurity of the public and private sectors should reflect the 
borderless and interconnected nature of our digital environment.
    Standards, guidance, and best practices relevant to cybersecurity 
are typically industry driven and adopted on a voluntary basis; they 
are most effective when developed and recognized globally. Such an 
approach would avoid burdening multinational enterprises with the 
requirements of multiple, and often conflicting, jurisdictions.\16\ The 
administration should organize opportunities for stakeholders to 
participate in multinational discussions. The Chamber encourages the 
Federal Government to work with international partners and believes 
that these discussions should be stakeholder driven and occur on a 
routine basis.
---------------------------------------------------------------------------
    \16\ The Chamber sent a letter in September 2013 to Dr. Andreas 
Schwab, member of the European Parliament's Internal Market and 
Consumer Protection Committee, recommending amendments to the proposed 
European Union (EU) cybersecurity directive. The Chamber argues that 
cybersecurity and resilience are best achieved when organizations 
follow voluntary global standards and industry-driven practices.
---------------------------------------------------------------------------
The Public and Private Sectors Need to Increase the Framework's Success 
        by Improving Collaboration and Eliminating Barriers to Smart 
        and 
        Efficient Cybersecurity
    NIST and multiple stakeholders produced a smart framework that 
participants can take pride in. But more work lies ahead. The Chamber 
looks forward to working with policymakers to ensure that preexisting 
regulations are harmonized with the collaborative and voluntary nature 
of the framework. Businesses also seek the enactment of information-
sharing legislation to achieve timely and actionable situational 
awareness to improve detection, mitigation, and response capabilities.
    The Chamber is committed to protecting America's business community 
and enhancing the Nation's resilience against an array of physical and 
cyber threats. Government and business entities need to continue 
leveraging the framework to strengthen collective resilience and 
security and make ongoing improvements. We look forward to working with 
Congress and the administration to build on the progress that we--
industry and government--have made together.

    The Chairman. Thank you, Ms. Beauchesne.
    Mr. Smocer?

   STATEMENT OF PAUL N. SMOCER, PRESIDENT OF BITS, FINANCIAL 
                      SERVICES ROUNDTABLE

    Mr. Smocer. Thank you, Mr. Chairman. Last year, with this 
committee's stewardship, Congress passed the Cybersecurity 
Enhancement Act of 2014. The Act's focus on an open, voluntary 
cybersecurity framework development process and its emphasis on 
cybersecurity R&D, career development, awareness, and education 
improve the information security of our country's cyber 
ecosystem. The act's passage signaled Congress' commitment to 
cultivate the public-private partnership so essential to our 
Nation's security.
    Now we are witnessing a new era of attacks by organized 
crime syndicates and nation states. These attacks threaten the 
availability of services and threaten individual's privacy and 
even the accuracy of their information through data 
manipulation or destruction. This growing threat endangers all 
institutions in our sector and companies in other sectors.
    The financial sector has historically made huge investments 
in security and in driving collaboration across industries and 
with government. Our institutions invest because they recognize 
their customers trust them, but individual institution's 
investments can only do so much as the cyber ecosystem extends 
beyond any one company. Companies connect with sectors, across 
sectors, and with the government. The reliance on each other 
gives us all a critical role in the cyber landscape and 
requires coordinated action for the most effective response.
    Recognizing the necessity for collaboration, our sector has 
facilitated a series of collaborative activities, as I note in 
my written testimony, including a significant effort around the 
development of the NIST Cybersecurity Framework. Let me spend 
some time on the Framework.
    As a leader in cybersecurity, our sector wanted to be 
engaged in the Framework's development. From the onset, BITS, 
as an organization and as a representative for the Financial 
Sector Coordinating Council, participated with NIST. We took 
part in all the workshops, providing our diverse membership's 
perspectives. We appreciated the opportunity to be a major 
contributor. We wanted to ensure the Framework addressed our 
sector's attributes, and we wanted to understand how it would 
harmonize with our existing requirements. We applaud the NIST 
development engaged so many other sectors. NIST's inclusive 
approach is reflected in today's broad embrace of the 
Framework.
    Our members use the Framework to communicate ideas and 
achieve buy-in for various cybersecurity initiatives. They use 
it to communicate expectations and requirements to their 
vendors.
    Given its age, the Framework's uses are still evolving. One 
evolution we see is its use as a baseline for cyber insurance 
underwriting. A critical next step in the Framework's evolution 
will involve ways independent regulators align their 
expectations with it. We are concerned with a lack of a uniform 
approach across all regulators. Last week, BITS provided input 
to the Cybersecurity Forum for Independent and executive branch 
Regulators urging harmonization of regulatory requirements. 
Some agencies have charted divergent paths not aligning with 
the Framework or its collaborative process. Consequently, 
companies will need to devote time to manage a patchwork of 
incompatible agency requirements and invest funding in 
potentially duplicative efforts. This strains already taxed 
security resources. We ask this committee as part of its 
oversight to encourage agencies to focus on coordination and 
harmonization.
    The NIST Cybersecurity Framework is very helpful in 
mitigating cyber risk, but we need to do more to end the cyber 
threat and Congress can help. We strongly believe passing 
effective cyber threat information sharing legislation would 
bolster the Framework. Our sector has worked with prior 
Congresses toward the development of a bipartisan bill. We hope 
in this Congress we witness the enactment of legislation that 
incentivizes the real-time sharing of cyber threat indicators 
amongst companies within and between sectors and with the 
Government and provides a targeted level of liability and 
disclosure protection, offers a good faith defense for sharing, 
and includes appropriate levels of privacy and civil liberties 
protections.
    Protecting consumers, companies, and the Nation must remain 
our collaborative focus. The ability to share information is at 
the core of our Nation's response to the current cyber threat. 
We are encouraged by the recent bipartisan progress and will 
continue to advocate for effective legislation.
    In conclusion, the NIST Cybersecurity Framework benefits 
and strengthens the overall cybersecurity of organizations 
across the cyber ecosystem. It is important in combating the 
growing threat of cyber attacks. With that said, we can do more 
to encourage its voluntary adoption, particularly encouraging 
agencies to coordinate and harmonize their cybersecurity 
guidance to avoid duplicative requirements.
    Thank you again for inviting me to testify on this critical 
issue. Chairman Thune, Ranking Member Nelson, we look forward 
to working closely with you and the rest of the Committee on 
this important issue.
    [The prepared statement of Mr. Smocer follows:]

       Prepared Statement of Paul N. Smocer, President of BITS, 
                     Financial Services Roundtable
    Chairman Thune, Ranking Member Nelson, Members of the Committee, 
thank you for this opportunity to appear before you today to address 
the important topic of cybersecurity and the evolution of public and 
private efforts to protect critical infrastructure from cyber threats.
    My name is Paul Smocer, and I am the President of BITS, the 
technology policy division of the Financial Services Roundtable (FSR). 
FSR is a trade association representing the country's leading financial 
service companies. Our members include banking, insurance, asset 
management, finance, and payment companies. Cybersecurity has been a 
key focus area for FSR and our companies for decades. Since 1996, BITS 
has played an important leadership role in cybersecurity, fraud 
reduction, third-party vendor management, payments and emerging 
technologies. BITS addresses issues at the intersection of financial 
services, technology, and public policy.
Cyber Threat Environment
    Late last year, with this Committee's stewardship, Congress passed 
the Cybersecurity Enhancement Act of 2014 (Public Law No: 113-274). We 
believe the Act's focus on supporting and facilitating an open and 
voluntary cybersecurity standards development process is an important 
step in improving the overall information security of our country's 
cyber ecosystem. Moreover, we applaud the Act's emphasis on 
cybersecurity research and development, cybersecurity career 
development, and cyber awareness and education. Indeed, with the 
passage of this Act, Congress has signaled its commitment to cultivate 
the public-private partnership--a partnership that is essential to our 
Nation's security.
    Even with these improvements, more needs to be done. The current 
cyber threat environment is grim. Each day, cyber risk grows as attacks 
increase in number, pace, and complexity. We are no longer in the days 
wherein the threat was confined to individual hacktivists and 
fraudsters. We are now in an era of attacks by not only organized crime 
syndicates, but also nation-states. Correspondingly, the attacks have 
grown beyond webpage vandalism and fraud into large-scale attacks that 
threaten the availability of services to citizens and threaten the 
privacy and accuracy of their information. Our sector is increasingly 
concerned with these threats, particularly with the potential for 
attacks that could undermine the integrity of the financial system 
through data manipulation or destruction. This growing threat affects 
all institutions in our sector regardless of size or type of financial 
institution including large and small, banks, credit unions, insurers 
and investment firms. Increasingly, and as we have recently witnessed, 
other sectors face these same threats.
    As mentioned, with each day that passes, the cyber threat against 
our Nation's critical infrastructure, private sector companies, and 
individuals' privacy intensifies. According to Symantec's 2014 
``Internet Security Threat Report,'' the number of targeted spear-
phishing campaigns in 2013 rose by 91 percent over the previous year. 
These campaigns are a key method used by cyber attackers to infiltrate 
victim's systems and gather information. In recent years, we have also 
witnessed serious and significant attacks from various nation-state 
actors and organized criminals on the Estonian, Georgian, and Ukrainian 
telecommunications systems;\1\ European power plants;\2\ a U.S. public 
utility;\3\ the NASDAQ;\4\ Target and other major retailers and their 
customers.\5\ Moreover, a recent report reveals that of the estimated 
$2-3 trillion generated annually from the ``internet economy,'' 
cybercrime alone extracts between 15 percent and 20 percent of that 
total value.\6\ In response, the private sector has increased its 
spending on cybersecurity, with one financial services firm spending as 
much as $250 million a year.
---------------------------------------------------------------------------
    \1\ Reuters, ``Ukraine: Cyberattack on communications, MPs phones 
blocked,'' http://www
.cnbc.com/id/101465198, (March 4, 2014).
    \2\ Symantec Security Response, ``Dragonfly: Western Energy 
Companies Under Sabotage Threat,'' http://www.symantec.com/connect/
blogs/dragonfly-western-energy-companies-under-sabotage-threat, (June 
30, 2014).
    \3\ ICS-CERT Monitor, ``Internet Accessible Control Systems At 
Risk,'' https://ics-cert.us-cert.gov/sites/default/files/Monitors/ICS-
CERT_Monitor_%20Jan-April2014.pdf, (January-April 2014).
    \4\ Michael Riley, ``How Russian Hackers Stole the Nasdaq,'' http:/
/www.businessweek.com/articles/2014-07-17/how-russian-hackers-stole-
the-nasdaq, (July 17, 2014).
    \5\ Symantec Corporation, '' Internet Security Threat Report 
2014,'' http://www.symantec.com/content/en/us/enterprise/
other_resources/b-istr_main_report_v19_21291018.en-us.pdf, (April 
2014).
    \6\ Center for Strategic and International Studies, ``Net Losses: 
Estimating the Global Cost of Cybercrime Economic impact of cybercrime 
II, http://www.mcafee.com/us/resources/reports/rp-economic-impact-
cybercrime2.pdf, (June 2014).
---------------------------------------------------------------------------
    The quote often attributed to Willie Sutton that he robbed banks 
``because that's where the money is'' reminds us as to why financial 
institutions are often the subject of cyber-attacks. Being a focus of 
the attacks is certainly one reason why the financial sector has 
historically led the way in making huge investments in not only 
security infrastructure and the best-qualified people to maintain the 
systems, but also in driving collaboration across industries and with 
the government. The primary reason for these investments though is the 
recognition that our customers trust us to protect them--to protect 
their investments, their records and their information. Individual 
financial institutions invest in personnel, infrastructure, services, 
and top of the line security protocols to protect their customers and 
themselves and to respond to cyber-attacks. These investments protect 
the individual institutions and their customers, but on its own, an 
individual institution generally only has the ability to protect what 
is within its ``four walls of the company''. However, as we all know, 
companies do not exist only within those walls. We are connected within 
our sector, across sectors, and with the government. This reliance on 
each other gives all of us a unique and critical role in the cyber 
landscape and requires coordinated action for the most effective 
response. Recognizing the cyber threat environment continues to expand 
in complexity and frequency and that individual institution efforts 
alone will not be enough, executives from the financial services sector 
have stepped up efforts to work together.
Financial Sector Collaborations
    Our sector has facilitated a series of collaborations that resulted 
in a number of achievements, such as:

  <bullet> The development of the Financial Services Information 
        Sharing and Analysis Center (FS-ISAC) in 1999, which has grown 
        in membership and capabilities since then, and significantly 
        helped the sector response to the 2012-2013 distributed denial 
        of service attacks (DDoS) preventing wide-scale outages;

  <bullet> Creation of Soltra Edge, an initiative that will help 
        standardize and automate the flow of real-time cyber threat 
        information;

  <bullet> Collaborating with the merchant and retail community to 
        share best practices on cybersecurity, information sharing and 
        payments security; and

  <bullet> The significant and coordinated financial services industry 
        effort during the development of the NIST Cybersecurity 
        Framework.
The NIST Cybersecurity Framework
    Almost two years ago, President Obama issued Executive Order 13636, 
calling for the development of a voluntary cybersecurity framework by 
the National Institute of Standards and Technology (NIST). The 
executive order directed NIST to seek private sector input through a 
collaborative process. From the outset, BITS/FSR--both as an 
organization and as a sector representative for the Financial Services 
Sector Coordinating Council (FSSCC)--participated in the NIST 
Cybersecurity Framework's development by taking part in all six NIST-
facilitated workshops, providing the perspective of our uniquely 
diverse membership to this important effort. We appreciated the 
opportunity to be one of the major contributors to NIST's hard work 
that almost a year ago today, resulted in NIST's release of the 
Framework for Improving Critical Infrastructure Cybersecurity.
    The financial services sector is often credited, and rightly so, as 
being one of leaders in cybersecurity. That is why we wanted to be a 
part of the Framework's development. We wanted to ensure the eventual 
framework addressed our unique sector attributes, and we wanted to 
understand how it would harmonize our existing requirements. We 
recognized too that in an interconnected world, we as a sector are not 
an island unto ourselves. We need and rely on entities that provide us 
with information technology, power, telecommunications and other 
critical services. We applaud that NIST's process for developing the 
Framework engaged these other sectors during the Framework's drafting. 
NIST's successful approach at inclusion of so many essential parties is 
reflected in how broadly embraced the Framework has become across so 
many sectors.
    With respect to the Framework, its true value is that it 
synthesizes a process for cyber risk management that is accessible from 
the boardroom to the operations floor, across not only individual 
enterprises but also entire sectors. It relies on international 
standards and is consistent with the regulatory requirements that have 
been in place for our sector for more than a decade. It is a ``Rosetta 
Stone'' in that it provides a common lexicon for categorizing and 
managing cyber risks across sectors and enterprises for various 
unifying risk management jargons and creates a common understanding 
around various risk management terms, methodologies, ideas and 
language.
    As a result, we have heard from member financial institutions that 
in terms of internal enterprise usage, Chief Information Security 
Officers (CISOs) are using the Framework to communicate ideas and 
achieve ``buy-in'' for various cybersecurity initiatives. Externally, 
firms are beginning to use it to communicate expectations and 
requirements to vendors. That said the Framework has only been in 
circulation for a relatively short time. This is an important fact for 
this Committee to keep in mind as it reviews the Framework at its 
anniversary. Because it has been only one year--one budget cycle for 
most firms--usage from institution to institution varies. 
Appropriately, the number of institutions that are aware and use the 
Framework, and the ways in which the Framework will be used, will 
evolve over time. An example of how the Framework continues to permeate 
new industries is its progressing role in the insurance space. The 
potential for the Framework to act as a baseline standard for cyber-
insurance underwriters shows a new level of possibility and versatility 
for the voluntary standards.
    Regarding the Framework development process, it was a success due 
in large part to its transparency and because it sought to harmonize 
various views into a cohesive whole. Indeed, BITS/FSR continues to 
participate in the evolution and maturation of the Framework through 
NIST's ongoing activities. For example, later this month we will be 
participating as a sector representative at NIST's ``Cybersecurity and 
Consumer Protection Summit: Executive Technical Workshop on Improving 
Cybersecurity and Consumer Privacy'' at Stanford University.
    Just last week, BITS provided input to the Cybersecurity Forum for 
Independent and Executive Branch Regulators, which is comprised of all 
the independent regulators that are looking at ways to align and 
harmonize with the Framework and thus increase overall effectiveness 
and consistency of regulatory authorities' cybersecurity efforts 
pertaining to critical infrastructure. BITS reviewed how financial 
institutions manage cybersecurity risks, comply with comprehensive 
regulatory requirements, and collaborate to mitigate cyber risks. We 
urged the regulators to focus on harmonizing regulatory requirements to 
reduce regulatory compliance burdens and to focus resources on 
mitigating cyber risk.
    However, the process has not been uniform across all stakeholders. 
In the year since the Framework's release, some Federal and state 
agencies have charted similar yet divergent paths to enhancing 
cybersecurity that do not embrace the Framework's open and 
collaborative process, instead favoring agency-unique approaches that 
often do not align with the Framework. As a result, information 
security practitioners have had to devote their time to managing a 
patchwork of conflicting agency efforts and organizations have to 
invest funding in potentially duplicative efforts, which are 
significant drains on available resources. While some may say that is 
the ``cost of doing business'', such a statement ignores the current 
reality: There is already a recognized shortage of security 
professionals and money needing to be increasingly invested in 
cybersecurity limits investment in new products to serve consumers.
    Thus, we would urge this Committee, as part of its oversight 
function, to encourage agencies to focus more on coordination and 
harmonization.
Financial Top Level Domains
    Like the process behind the NIST Framework, the financial services 
industry is no stranger to voluntary processes designed to benefit the 
greater good. I would like to highlight two of our most recent 
successes: .BANK and .INSURANCE, and Soltra Edge.
    As background, in 2008, the Internet Corporation for Assigned Names 
and Numbers (ICANN) approved its new generic Top-Level Domains Program. 
This program in 2013 opened the door to a land rush on new top-level 
domains--the top-level domains we were accustomed to such as .COM and 
.ORG are no longer the only suffixes available. For a time we advocated 
against this domain name expansion especially as it related to 
financial services oriented domains out of concern for customer 
confusion, potential for increased malicious activity and ultimately 
increased costs to brand holders. When it became clear our concerns 
would not be addressed, the Financial Services Roundtable/BITS and the 
American Bankers Association, along with other financial services 
organizations, partnered to create a new registry operator dedicated 
specifically to the financial services sector--fTLD Registry Services, 
LLC.
    This newly created organization submitted community-based 
applications for .BANK and .INSURANCE. I say community because unlike 
some entrepreneurs who have entered this space with little or no 
concern for protecting financial institutions or their customers, fTLD 
is dedicated to serving and protecting the global financial services 
industry. This is evidenced by the more than 120 financial services 
domestic and international entities who directly or through others 
endorsed our applications on behalf of the industry.
    Besides being a financial services' owned, operated and governed 
registry, fTLD's domains of BANK and .INSURANCE will go beyond being 
simply an alternative to the legacy domains of .COM and .ORG. These 
domains will have robust operational requirements including 
eligibility, verification and name selection standards as well as 
enhanced technical requirements including, but not limited to, Domain 
Name Security Extensions (DNSSEC), strong encryption standards and e-
mail authentication requirements to mitigate for example phishing and 
spoofing activities. fTLD is also planning other innovative uses that 
will be announced at a later date. All of these enhanced requirements 
and capabilities could only happen when individual organizations 
voluntarily came together to work towards a better and safer Internet.
    Secondly, I want to highlight Soltra Edge, a threat intelligence-
sharing platform created by a joint venture between FS-ISAC and the 
Depository Trust and Clearing Corporation and voluntarily funded by 
contributions from the financial services community. Soltra Edge is a 
software solution that supercharges the current information-sharing 
model to make it more automated and collaborative so that trusted, 
actionable intelligence from disparate sources can be uniformly 
disseminated in near real time to defend more effectively against cyber 
threats. The software for Soltra Edge only takes a few minutes to 
download and install with the basic license completely free, making 
this solution accessible to the largest and smallest financial 
institutions.
    While this effort started in the financial services sector, we 
expect the technology behind Soltra Edge to be adopted broadly by other 
critical sectors including healthcare, energy, transportation, retail 
and others.
    Though Soltra Edge represents significant progress in closing the 
gap between threat intelligence sharing and implementing mitigating 
controls, a platform like this is still constrained by legal 
limitations on what information can be shared. Congress has an 
important role to play in filling this gap. The passage of effective 
cyber threat information sharing legislation is a critical step to 
enabling optimal sharing capability.
The Public-Private Partnership: How Congress Can Help
    While the NIST Cybersecurity Framework is a helpful tool, it is not 
the silver bullet that puts an end to the cyber threat. As such, an 
institution could use the NIST Cybersecurity Framework fully and it 
could still be compromised. Thus, more is needed, and Congress can 
help. At a basic level, policymakers can help by recognizing that the 
firm that experiences the cyber-attack--be it a bank, retailer, or an 
entertainment firm--is a victim. Political leaders and regulators 
should work to de-stigmatize attacks and encourage companies to come 
forward and share threat information that could help other companies 
protect themselves, their employees and their customers.
    Despite the success of the information-sharing model used by the 
financial services sector, more can be done. We believe the Framework 
would be bolstered by the passage of effective cyber threat information 
sharing legislation. Our sector has been focused on this effort for 
many years and has continued to work closely with key committees in 
both the House and Senate. The legislation should not be delayed. BITS/
FSR has supported several pieces of information sharing legislation 
developed by both the House and Senate. Most recently BITS/FSR has 
supported the cyber threat information sharing legislation passed by 
the Senate Intelligence Committee last year, the Cybersecurity 
Information Sharing Act of 2014 (CISA). BITS/FSR worked closely with 
former Chair Chambliss, Vice Chair Feinstein and their staff to develop 
the bipartisan bill. In our view, that bill encompassed key components 
to help enhance the volume and scope of threat information sharing. 
Furthermore, the legislation had the support of not only the financial 
services sector but also a wide range of critical infrastructure 
sectors. Congress must enact legislation that incentivizes the sharing 
and receiving of cyber threat indicators amongst companies within 
sectors, between sectors, and with the government. BITS/FSR believes 
that for legislation to be truly effective it must include the 
following provisions:

  <bullet> Facilitate real-time sharing to enable institutions and 
        government to act quickly;

  <bullet> Provide a targeted level of liability and disclosure 
        protections for cyber threat information sharing and receiving 
        between individual institutions, through existing sharing 
        mechanisms such as our FS-ISAC, private to government, and 
        government to private;

  <bullet> Offer a good faith defense for the sharing of threat 
        information and data;

  <bullet> Provide protection from disclosure through the Freedom of 
        Information Act or to prudential regulators;

  <bullet> Facilitate the appropriate declassification of information 
        by the intelligence agencies and expedites the issuance of 
        clearances to appropriate private sector individuals; and

  <bullet> Include appropriate levels of privacy and civil liberties 
        requirements.

    BITS/FSR is encouraged by recent bipartisan progress and will 
continue to advocate for legislation that will allow our members to 
share cyber threat information with each other, various business 
sectors, the government, and law enforcement, to protect their 
customers.
Conclusion
    In conclusion, the NIST Cybersecurity Framework benefits and 
strengthens the overall cybersecurity posture of critical 
infrastructure organizations, including those sectors on which 
financial institutions rely. The Framework will continue to play an 
important role as we continue to combat the growing threat of cyber-
attacks. With that said, more can be done to encourage adoption of this 
voluntary Framework. This Committee should use its oversight 
authorities to encourage agencies to coordinate and harmonize 
cybersecurity requests, examinations, and guidance. Security 
professionals and investment dollars are constrained. When different 
regulators place duplicative burdens on security, that takes away from 
resources that could be devoted to preventing cyber-attacks. That, in 
turn, does not help any company and ultimately weakens our ability to 
protect the Nation's critical infrastructure.
    The risks associated with cyber-attacks and threats are vitally 
important to the private and public sectors. Protecting consumers, 
companies, and the Nation must remain the focus. The ability to share 
information is at the core for our Nation's response to the current 
cyber threat.
    Thank you again for inviting me to testify on this critical issue. 
Chairman Thune and Ranking Member Nelson, we look forward to working 
closely with you and the rest of the Committee on this important issue.

    The Chairman. Thank you, Mr. Smocer.
    Mr. England?

  STATEMENT OF JEFFERSON H. ENGLAND, CHIEF FINANCIAL OFFICER, 
                   SILVER STAR COMMUNICATIONS

    Mr. England. Chairman Thune, Ranking Member Nelson, members 
of the Committee, thank you very much for inviting me to be 
here and share with you some of my experiences as we have used 
the Cybersecurity Framework that NIST developed in our own 
organization.
    In February 2013, when President Obama issued an Executive 
Order calling upon critical infrastructure industries to 
voluntarily take measures to improve their cybersecurity 
posture, I had just accepted this position as the Chief 
Financial Officer at Silver Star Communications. I am new to 
telecom. And as a risk manager in our organization, I knew that 
I had a responsibility to figure out ways to address, among 
other things, cybersecurity risk in our organization.
    Shortly after that, I had an opportunity to visit with some 
of our friends at U.S. Telecom.
    And as NIST had released their initial draft of the 
Framework, they had called upon industry representatives to 
provide some feedback regarding the initial draft copy of that 
Framework. We chose, as an organization, to go through and 
begin using it as best as we felt like we could as a way of 
providing some feedback. One of the items that we had passed 
along was this utilization of a gap analysis, which we know has 
been included in the final version of the Framework that was 
released, as you say, Chairman Thune, almost a year ago.
    We found that the Framework has been extremely beneficial 
in our organization. Not only did it give our IT staff and 
managers a framework whereupon we could exercise disciplined 
cybersecurity improvements in our organization, but it forced 
within us an opportunity to communicate at all levels within 
our organization, at level that had not previously existed 
before. We found, as we have gone through and used this, that 
voluntary adoption is key to the success within our 
organization. First off, we felt like the ability to adapt the 
Framework to use within our organization--we are a small 
business. We have roughly 9,500 access lines in western 
Wyoming. We found that the ability to adapt and use it as best 
met our need is one of the great strengths of the Framework.
    Ranking Member Nelson, you had mentioned the NIST Framework 
meeting that was taking place in February. I had an opportunity 
to speak at that conference. And in that meeting, I 
demonstrated some ways in which we had taken the Framework, as 
it exists, and used the information to build management tools 
where we could provide visibility within our organization 
regarding our progress and our activities on our cybersecurity 
practices in our organization.
    We believe that due to the voluntary nature of the 
Framework, it allows us to build ourselves as an organization 
upon having a stronger, competitive advantage amongst our 
peers, and we have found, as we have adapted the use of the 
Framework internally that it has created opportunities for us 
to discuss cybersecurity risk with our customers and with our 
vendors in a way that we had not previously done. We were 
surprised, as we began using this. We called upon some of our 
larger suppliers to get some feedback. We were hoping to 
franchise from them and their policies to implement without 
organization, and we were surprised, as we did so, that a 
number of our vendors did not have written policies and 
procedures in place regarding cybersecurity practices. And so 
it created a dialogue between us and them, and we found that to 
be very beneficial.
    And then we also found, as we have gone through and 
utilized the framework internally within our organization--just 
anecdotally I can tell you when I visited with our IT staff 
initially, they looked at the complete Framework. And it is 
voluminous. It is a wealth of information. But my IT staff 
immediately said this is going to take an additional one-and-a-
half full-time resources to go through and complete this thing. 
And since we believed it was a voluntary adoption and not a 
checklist, I turned around to my IT staff and I said, look, you 
are looking at this all wrong. We are not adding work upon you. 
This Framework is designed to help shape how you do the work 
you are already doing. When we had that perspective internally 
and we could consider the facts that we were exposing our view 
into a number of areas regarding cybersecurity that we 
previously had not done, it had made some big improvements for 
us in our organization.
    Finally, I would just like to go on record and make a case 
against regulation. We believe that regulation creates a 
minimum standards environment where a checklist approach is 
undesirable in this space. I have concern that whether it be in 
our organization or others, if it were a regulated requirement, 
it would be far easier for me to hand over the checklist to my 
IT staff and say complete this and turn in a report, and it 
would have bypassed all of the meaningful conversations that we 
have had within our organization.
    We also believe that having a minimum set of standards puts 
perpetrators on alert as to where they should be focusing their 
attentions.
    And finally, as we commented earlier by Ms. Beauchesne, we 
believe that going about it on a regulated approach alone is a 
misguided attempt by government. It has the opportunity to 
distract attention from the real perpetrators which are the 
criminals who are attacking our system. And we believe that 
through information sharing and other practices, that we can 
help focus Government attention on bringing justice to the 
perpetrators.
    [The prepared statement of Mr. England follows:]

 Prepared Statement of Jefferson H. England, Chief Financial Officer, 
                       Silver Star Communications
    Silver Star Communications, located in Freedom, WY, has been using 
the NIST Cyber Security Framework since it was originally released in 
draft form. Our initial intent was to review the framework and provide 
comment and feedback to NIST regarding its value to us as a rural 
telephone and Internet service provider. Our initial impressions were 
positive and some of our comments, including the incorporation of a gap 
analysis, ware included in the official released version of the 
framework.
    We have found that the framework has created an environment that 
encourages discussion, both internal and external, regarding its 
application in our organization. But above all, the greatest benefit 
from the framework has been the ability to use and adapt it within our 
organization such that it has become a meaningful management tool for 
improved cybersecurity practices.
    The framework helped provide us with a disciplined approach to 
reviewing cybersecurity practices within our organization. In the 
course of completing a self assessment, there were many processes and 
procedures identified that we had not previously considered. The focus 
on current state relative to desired state in the context of acceptable 
risk provided meaningful focus and direction to IT staff and 
management. Additionally, since the framework allowed for 
organizational specific adaptation, we developed an internal reporting 
mechanism that provided executive visibility into our progress on 
highest priorities.
    The voluntary nature of the framework has been the key to success 
for use within our organization.
    We believe cybersecurity to be a competitive advantage whereby we 
differentiate ourselves from our competitors and make ourselves more 
attractive to our suppliers and those we serve. Because of this, we are 
self driven toward improvement and have begun sharing our cybersecurity 
practice with those we serve more openly. Curious as to whether or not 
our suppliers have used the framework, we began asking them to share 
with us their cybersecurity practices. These conversations have been 
extremely valuable in helping us identify customers and suppliers who 
share similar cybersecurity risk tolerances to our own and has become 
an important part of our vendor selection process.
    We also believe that a regulatory mandate requiring the use of the 
framework creates a minimum standard environment. We believe this to be 
problematic because minimum standards are more likely to be treated as 
a checklist that can be delegated without having the necessary 
interdepartmental conversations regarding exposure and acceptable risk 
tolerance. There is also risk that minimum standards would put 
perpetrators on alert as to where they should focus their attentions 
for exploitation potentially placing organizations at additional 
cybersecurity risk than before.
    Finally, we believe that a regulated approach to cybersecurity may, 
at least in part, misplace government attention away from the root 
problem. Cyber attackers are criminals and state sponsored cyber 
attacks are acts of war. Government action regarding cybersecurity 
should place primary emphasis on tracking down and bringing cyber 
criminals to justice.

    The Chairman. Thank you, Mr. England.
    Dr. Lewis?

 STATEMENT OF DR. JAMES A. LEWIS, DIRECTOR AND SENIOR FELLOW, 
   STRATEGIC TECHNOLOGIES PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Dr. Lewis. Thank you, Mr. Chairman, and I thank the 
Committee for the opportunity to testify.
    Executive Order 13636, Improving Critical Infrastructure 
Cybersecurity, released in 2013 was a major shift in U.S. 
policy on cybersecurity. One of the flaws in the 2012 
comprehensive Senate legislation was it tried to give a single 
agency the authority to regulate cyberspace. The EO, by tasking 
sector-specific agencies to use the Framework for better 
cybersecurity, is a better approach. The executive order 
instructed NIST to develop a Cybersecurity Framework to guide 
companies in securing critical infrastructure. The process is 
voluntary, as you have heard. This executive order is likely to 
be followed by another on information sharing in early 2015.
    These executive actions are the building blocks for better 
cybersecurity. But what we want to think about is are they 
adequate. And the primary measurement for adequacy is are we 
stopping opponents from getting in. Adoption is not a good 
measure for success. Even if all companies adopt the Framework, 
it does not mean better cybersecurity. The only way to measure 
effectiveness is to ask if the number of successful 
penetrations in the outflow of data has decreased. If hackers 
still get in and data still flows out, the Framework needs to 
be further amended.
    In 2013, the FBI notified 3,000 companies that they had 
been hacked and lost data. There may have been more. If this 
number declines in 2015, it says the Framework is working.
    Judging from the news, however, the number of successful 
attacks against U.S. companies has not decreased. We do not 
know if this is because companies have not adopted the 
Framework or if they have been unable to implement it or if it 
is because the Framework is in itself ineffective.
    For example, it appears that Sony had not implemented the 
NIST Framework, but even if it had, the North Koreans still 
would have gotten in. And North Korea is the least skilled of 
our likely opponents.
    Implementing the NIST Framework is not easy. Many small and 
medium-sized companies lack the manpower, training, and 
resources to implement the Framework.
    Cost is an important issue for companies of all sizes. 
Improving cybersecurity asks a business to spend money on 
things it will not generate a return on investment, and we do 
not have a mechanism for them to recoup costs.
    This means that cybersecurity involves a business decision 
by companies about how much risk they will take and how much 
they are willing to spend to lower that risk. Many companies 
still underestimate risk, and the Framework provides a good way 
for them to rethink their approach to cybersecurity.
    The Framework could be seen as part of an emerging national 
approach to cybersecurity, shaped by Government action and 
economic incentives. These incentives come from regulation, 
market risk, and civil liability. The Framework helps 
regulators and companies manage risk in critical 
infrastructure. Federal Trade Commission actions and consumer 
reaction will incentivize companies to better protect personal 
information.
    The Federal Government needs to do more to discourage cyber 
espionage, but companies need to do better at defense. The 
market will penalize companies that have under-prioritized 
cybersecurity, and companies face the risk of civil liability 
because a case could be made that a company that has not 
implemented the NIST Framework has failed to exercise due 
diligence. And I think this will have a powerful shaping effect 
over the next couple of years.
    Now, is all of this enough for better cybersecurity? 
Probably not. But it is a good start, and the NIST Framework is 
a step forward in what is going to be a long process to make 
this Nation more secure.
    With that, I thank you and I am happy to take your 
questions.
    [The prepared statement of Dr. Lewis follows:]

 Prepared Statement of Dr. James A. Lewis, Director and Senior Fellow, 
Strategic Technologies Program, Center for Strategic and International 
                                Studies
    I thank the Committee for the opportunity to testify on private 
sector experience with the National Institute of Standard's (NIST) 
Cybersecurity framework. The Framework provides a list of measures 
companies can take it improve their cybersecurity. I will discuss three 
issues: what we know about the Framework's adoption, how effective it 
is, and where it can be improved.
    An initial conclusion is we lack sufficient data to say 
definitively whether the Framework is working or not to build a more 
secure cyber future. The Framework itself was released relatively 
recently, in February 2014. It will take more time for the Framework to 
be implemented, adjusted and to see if it what effect it has on 
cybersecurity. My comments on the Framework are best seen as 
preliminary until we have gained further experience and data on its 
implementation. On the larger issue of building a more secure cyber 
future, in which the NIST Framework may play a part, there is 
sufficient data and experience to describe the situation and to make 
general recommendations for improvement,
    Executive Order (EO) 13636, ``Improving Critical Infrastructure 
Cybersecurity,'' released in February 2013 was a major shift in U.S. 
policy on cybersecurity. Instead of making a single agency responsible 
for cybersecurity, it assigned responsibility to existing, sector-
specific regulatory agencies. The EO instructed the National Institutes 
of Standards and Technology to develop a ``Cybersecurity Framework'' 
released in February 2014, that companies could use to guide their 
defensive efforts and that agencies could use to measure if the 
critical infrastructure companies they regulated were doing an adequate 
job. The process is voluntary. In addition, approximately 200 critical 
infrastructure companies were notified by the White House that they 
would be held to a higher level of scrutiny given their strategic 
importance. This Executive Order is likely to be followed by another 
executive action in early 2015 on information sharing. The executive 
actions and the NIST Framework are building blocks for better 
cybersecurity, but while they are good first steps, the U.S. remains 
vulnerable.
    We should, if the Framework is effective in improving 
cybersecurity, see changes in the attacker population, with the less 
skilled attackers dropping out and the more skilled (or better 
resourced) changing attack techniques. Even if the Framework is 
effective now, if it is not dynamic and evolve along with the threats 
we face, it might not produce a lasting decrease in the rate of data 
exfiltration, as skilled opponents adjusts to improved defenses. This 
outcome is possible if the attacker seeking to exfiltrate data is an 
intelligence agency or foreign military who have the resources and 
dedication to wage a persistent campaign.
    For example, and judging from public sources, it appears that Sony 
had not implemented most of the NIST Framework recommendations, but it 
is not clear that even if it had, North Korea would have been prevented 
from gaining access and doing damage. The defenses needed for 
determined State opponents like Iran and North Korea lie outside the 
NIST Framework.
    One way to think about critical infrastructure is from the 
perspective of an enemy ``targeteer,'' planning what American targets 
to strike with cyber attacks in order to achieve the desired military 
effect. For these opponents, America is a target rich environment, with 
thousand of potential targets, many of which are poorly defended. If 
the opponent wishes to make a political statement, it will look for a 
single poorly defended target with symbolic or political value. If the 
desired effect is temporary military advantage, it might strike a few 
dozen civilian targets--logistics systems and perhaps critical 
infrastructure in the areas that would support deployed U.S. forces, in 
Hawaii and the West Coast, for example, if the conflict was with forces 
under PACCOM. If the desired effect was extensive damage to the U.S. 
economy and military capabilities, a broad campaign with hundreds of 
civilian targets would need to be attacked. Fortunately, this attack 
scenario is very unlikely and only one or two countries have this 
capability.
    The EO 13636 process attempted to identify some of these critical 
civilian targets, but in general we have no idea whether the Framework 
complicates opponent planning for cyber attack. The dilemma for cyber 
security is that, unlike other possible attacks against the U.S., we 
have not found an effective defensive strategy. Our military forces 
deter truly damaging attacks--no country willingly seeks war with the 
U.S.--but they did not deter North Korea from damaging Sony or Iran 
from attempting to damage banks. We need a blend of adequate defenses 
at the company level and robust Federal efforts to dissuade opponents 
if we are to build a secure cyber future and while the right formula 
has not been found, the NIST strategy could form a useful part of an 
effective national approach to cybersecurity.
    A compliance approach to security lists actions taken; a better 
approach is to ask to see the results of those actions. Good data on 
results is unavailable, and much of the discussion of cybersecurity is 
strangely disconnected from fact. The primary categories for 
measurement are the number of companies adopting of the Framework and 
its effectiveness in thwarting opponents.
    But adoption is not an adequate measurement for success. Even if 
all companies were to voluntarily implement the NIST Framework, it does 
not necessarily mean that there will be an improvement in 
cybersecurity. The measures listed by NIST are likely to improve 
security if implemented correctly, but to what degree there will be 
improvement is unknown, nor do we have any idea of how many companies 
have implemented the Framework recommendations, or how well they have 
done so. For example, if there was widespread adoption of the framework 
but little effect on penetration and exfiltration, it would be 
premature to say that the tide has turned in cyberspace. The difficulty 
in linking recommendation and effect strongly affects how we manage 
risk, and the lack of data hampers a range of initiatives, from 
creating a cyber insurance market to applying the NIST Framework.
    The only way to accurately measure effectiveness is to ask if the 
number of successful penetrations and the outflow of data have 
decreased. If hackers still get in and data still flows out, the 
Framework is not working. These are result-based measures, fundamental 
for determining the return on investment in cybersecurity. Many things 
can be asserted or even measured, but they are useful only to the 
extent they can be correlated with effects.
    Judging from the news, the number of successful computer breaches 
against U.S. companies and agencies has not decreased. We do not know 
if this is because companies have not adopted the framework, have been 
unable to implement it, or if it is because the Framework is 
ineffective. An initial estimate is that all three of these estimates 
are likely true, but to guide policy and legislation we need to 
understand whether which is the most likely cause for the absence of a 
visible improvement in U.S. cybersecurity.
    The success rate of opponents, determined by their ability to 
penetrate target computer networks and to exfiltrate data from these 
networks, is the only true measure of the Framework's effectiveness. In 
2013, press reports state that the FBI notified 3000 companies that 
they had been hacked--and there may have been more that we do not know 
about. If this number declines in 2015, it indicates that the Framework 
is successful.
    NIST did put out a Request for Information (RFI) on the private 
sector's experience so far with using the agency's cybersecurity 
framework and in October it received more than fifty responses form 
companies and associations. A majority of respondents were supportive 
of the Framework and acknowledged its increasing adoption in various 
sectors. Other comments included support for the Framework's easily 
understood guidance, worries that small and medium size enterprises 
were not capable of meeting the guidelines due to costs, and confusion 
about the voluntary nature of the Framework. A majority of respondents 
called for continued support for the Framework.
    A Request for Information is not the best approach to assessment, 
because companies that report ``self-select,'' with only those with 
good stories to tell providing a response. There will be a desire to 
say that the Framework is working well, as this would remove the 
impetus for further cybersecurity measures. These are normal problems 
with survey data, but they could skew responses to produce an overly 
rosy picture. An alternative approach would be to use Commerce 
Department (of which NIST is a part) authorities under the Defense 
Production Act (DPA) to require companies to respond. Using the DPA 
would allow Commerce to devise an adequate sample of companies that 
would allow it to estimate adoption rates by sector and company size. 
Other agencies also can collect information for sector specific groups. 
There may be some resistance to conducting a survey. This resistance in 
itself would be a good indication of intent regarding the Framework.
    There have been only few efforts, such as DHS's continuous 
monitoring effort and the Australian Signals Directorate work on its 
``Strategies to Mitigate Targeted Cyber Intrusions,'' to show that 
implementing a measure produces an observable reduction in successful 
attacks. These efforts allow us to say that some measures drastically 
reduce opponent success rate. Many of these measures are included in 
the Framework, along with a quantity of other.
    Several issues complicate the implementation of the NIST Framework. 
Many small and medium sized companies lack the manpower, training and 
resources to fully implement the Framework. Straightforward measures, 
such as the ASD mitigation strategies, are appropriate from small and 
medium companies but may not work as well in the complicated networks 
of large companies. Cost is an important issue for companies of all 
sizes--essentially cyber security requires a business to allocate 
resources to purposes that will not generate a return on investment. In 
cybersecurity, we are asking companies to spend money on activities 
that do not generate a return and we have not offered any mechanisms 
for them to recoup this cost. Of course, a good way for companies to 
think about spending on cyber security is that it is like insurance, 
where a company spends money to reduce and manage risk.
    This means that at the level of the firm, cyber security involves 
business decisions where companies should decide how much risk they are 
willing to take, what mitigation efforts (like insurance) best manage 
risk, and then spend accordingly on protection. Anecdotal evidence 
suggests that many companies still underestimate cyber security risks, 
but this is changing and the recent series of events, in particular the 
Target breach (which led to the resignation of the Chief Executive 
Officer and a dramatic decline in revenue), have helped to focus 
attention and raise awareness in company management and boards.
    The Framework provides a useful focal point for company discussions 
of cybersecurity, and a commonly held view is that it is a good first 
step. Over time, it is likely that as companies implement the 
Framework, they will modify it and identify measures that best fit 
their own purposes, as they experiment with different approaches and 
find what works best. Each critical infrastructure sector may find that 
some parts of the framework are more important for their business than 
others and modify implementation in ways that works best for them.
    The effect of the Framework on reducing cybersecurity risk might be 
different for critical infrastructure than for intellectual property. 
Survey data on penetration and exfiltration success rates will show 
where individual defense are inadequate and where collective action is 
needed, through increased international engagement in diplomacy and law 
enforcement cooperation to reduce cyber risks. To continue the 
insurance analogy, we want to take governmental actions that reduce 
systemic risk so that companies can spend less on ``insurance,'' e.g., 
cybersecurity.
    One of the most valuable lessons of EO 13636 is that one size does 
not fit all. In retrospect, one of the most serious flaws of the 2012 
draft Senate legislation was its efforts to assign a single agency the 
authorities to regulate cyberspace. The EO, by tasking regulatory 
agencies to ensure that their existing regulations adequately take the 
Framework into account, better reflects the diversity of the economy.
    What is emerging is a structure for national cybersecurity shaped 
by the different incentives (or lack thereof) that companies faces in 
making business decisions about cybersecurity. These incentives are 
created by are regulatory authority, business risk, and civil 
liability.

  <bullet> Critical infrastructure: improved cybersecurity will be the 
        result of partnerships between companies and their sector 
        regulators. This is the area where the Framework and the 
        Executive Order have made the most valuable contributions, 
        since it provides a basic template against which company 
        actions can be measured.

  <bullet> Personally identifiable information: Federal Trade 
        Commission (FTC) actions and market penalties can incentivize 
        companies to better protect personally identifiable 
        information, but the level of cybersecurity at major companies 
        holding PII is has been inadequate.

  <bullet> Intellectual property: there is no regulatory mechanism to 
        penalize companies for the loss of IP, nor should there be. 
        When a company is hacked and loses IP, a part of the 
        responsibility is shared by the Federal Government, which needs 
        to do more to discourage economic espionage by foreign actors, 
        but the bulk of the responsibility is held by the company, 
        which has made bad business decisions to under-prioritized 
        cybersecurity. Increasingly, the market will penalize such 
        companies, at least temporarily, and these companies face 
        increased risk of civil liability. Shareholders and customers 
        can now ask if a company had implemented the NIST Framework; if 
        it had not, a case could reasonably be made that the management 
        had failed to exercise due diligence.

    From one perspective, cobbling together measures like the 
Framework, FTC rules, and some yet-undefined set of mechanisms for 
information sharing might seem like a ramshackle approach to one of the 
principle security problems of our time. There is some truth to this, 
but another perspective is that the complexity of the problem, the 
deeply ingrained problems with the technology, and the consequences of 
any cyber action for security and economics at both the global and 
national level, militates against any single solution that can be 
easily and rapidly adopted. Federal action can accelerate progress and 
provide structures for collective action, and from this perspective, 
the NIST Framework is a valuable step forward in what will be a long 
and uncertain process to make cyberspace more secure.
    I again thank the Committee for the opportunity to Testify and 
would be happy to answer any questions.

    The Chairman. Thank you, Dr. Lewis. You all did an 
exceptionally good job of staying within the 5-minute sort of 
not requirement, but suggestion that we have.
    We will do 5-minute rounds of questions for members of the 
Committee who are here.
    And I will start it off, Mr. England, by pointing out--I 
think this is your first time testifying before Congress. Is 
that correct?
    Mr. England. It is.
    The Chairman. Welcome.
    And your company, as I understand it, was formed by a bunch 
of ranchers in Wyoming back in the early 1900s.
    Mr. England. That is correct. Initially our telephone line 
was the top wire on a barbed wire fence.
    The Chairman. I suspect in western Wyoming in the early 
1900s, forming your own communications company was born out of 
necessity probably.
    Mr. England. Pretty much so.
    The Chairman. Well, anyway, the point I want to make is 
that yours is a small rural business, and does not have the 
endless resources, as you mentioned, to address cybersecurity 
risk. And as the CFO for Silver Star, the question is, how have 
you been able to use the Framework in a cost effective way to 
guide how you protect your networks? And a follow up would be, 
has the common language helped you make business decisions and 
better communicate with your IT managers and your outside 
suppliers?
    Mr. England. Yes. Thank you, Chairman Thune.
    To answer the first part of your question regarding the 
cost effectiveness, it is true that making improvements 
identified within the Framework costs money. That is just 
unavoidable. However, using the Framework within our 
organization did not create additional cost for us as a 
business. And so, as an example, when my IT staff came in and 
discussed with me the fact that there was a lot of information 
in that Framework and how are they going to dedicate time to 
reviewing that in addition to their regular job functions, I 
explained to them that they were looking about it all wrong. 
The Framework was a way of providing some structure to the way 
that they were already doing their jobs that kept it in the 
framework of cybersecurity improvements. So we found some very 
easy things that we were able to do.
    As an example, one of the things that the Framework invites 
members to do is to consider cybersecurity risk as part of a 
risk management meeting. And when we looked through our whole 
strategic planning process internally, we knew that we were 
doing a risk assessment meeting to talk about any and all other 
risks. We had not previously considered cybersecurity risk as 
part of that meeting. And so in making an improvement 
internally, based on the suggestions provided in the Framework, 
we were able to add this discussion item at no cost to us, and 
yet it helped shape the whole way that we did the rest of our 
capital budgeting and everything else internally. So we found 
some very good benefits at minimal cost initially.
    And then the second part of your question about the common 
language of the Framework. I think that our experience was that 
the Framework has five functional areas. It ranges from the 
beginning of identifying and responding and recover at the end. 
We found that on the front end, the identify, the respond and 
recover at the back end--these were very common understandable 
things for executive leaders and directors in our organization 
because these are things we are already trying to do as it is.
    The middle sections of detect and protect were more IT 
focused. And so we did have to rely on our IT staff and sitting 
down and having conversations with them. But where the real 
value was is that I was able to turn to my IT staff and ask 
them to help me identify where our current tier assignment was, 
and then as an executive leader in our organization, I was able 
to help provide direction where our target tier, our acceptable 
risk levels would be.
    And so this dialogue that we had between executive and IT 
managers regarding overall cybersecurity risk in the 
organization was an extreme benefit for us. And we felt that 
the language contained within the Framework was conducive for 
that type of conversation.
    The Chairman. The first impulse of Government is often to 
regulate. I think you make a good point, Mr. England, that 
cybersecurity mandates can lead to minimum checklists and 
signal to hackers potential areas for exploitation.
    Dr. Romine, you stated that NIST has reached out to 
regulatory agencies to reinforce the fact that the Framework is 
not designed or intended to create additional regulatory 
requirements for critical infrastructure owners and operators. 
And that is a principle we really worked hard to incorporate 
into the legislation that moved last year.
    And I just want to ask you the question, why is a voluntary 
Framework the best approach, given the severity of the threat, 
and what kind of feedback have you received from other 
agencies?
    Dr. Romine. Thank you, Mr. Chairman. And I appreciate the 
support of the Committee for all of the work that we are doing.
    Our approach is to try to make sure that there is an 
understanding that a voluntary program does not equate to a 
weak program. In fact, voluntary programs for cybersecurity can 
be highly effective. The reason the voluntary approach I think 
makes the most sense is that it maintains the conversation. It 
maintains the engagement across sectors and provides the 
mechanism, as Mr. England pointed out, to incorporate the 
cybersecurity risk as part of the overall risk management of 
the enterprise whereas, as he pointed out, anything that would 
require adhering to regulation in this particular space--the 
tendency would be to push that to the IT component of the 
organization and just assume that that is being taken care of. 
And I think that is going to be far less effective.
    The Chairman. Thank you.
    Senator Nelson?
    Senator Nelson. Mr. Romine, the voluntary program works as 
long as everybody is volunteering.
    I look at this through two portals: data security, personal 
privacy; and national security.
    Mr. England, I think you are right that the market will 
shape the requirements because if people are having their 
personal privacy taken away, and they go through all of that 
harassment, they are going to demand of the company. Now, 
companies naturally have a reluctance to come forward by 
telling that they have been invaded, and perhaps some of that 
loss can be taken care of by insurance, as you all have 
testified.
    But when you get to the question of national security, the 
terrorist is not likely going to attack your operation, Mr. 
England. They are going to go for the bigger spectacular thing.
    So this morning, we had six or seven people killed on the 
New York railroad system. All signs are that it was just a 
train crash into a vehicle. But how about a cyber attack on a 
transportation system that may shut down the railroad or cause 
two trains to run together? What about Target? 70 million 
shoppers' data taken. How about Yahoo? Passwords and user names 
in a cyber attack. How about EBay changing the passwords 
because of a cyber attack? Several banks, including J.P. 
Morgan, 76 million households and 7 million small businesses 
affected. Home Depot, 56 million accounts, $62 million to cover 
the cost. Sony, we already talked about, $100 million, directly 
a cyber attack for its intended purpose to intimidate.
    So, Ms. Beauchesne, how can you say that everything is 
working, as you testified?
    Ms. Beauchesne. Thank you, sir.
    Well, I would say that we do not want to have mandates on 
the private sector. The bad guys do not have mandates and 
regulations. The threat is evolving quickly. We need to have 
the private sector be able to evolve quickly and continue to 
evolve their defenses. I think the strongest incentive for the 
private sector is that they want to protect their information. 
They want to protect their customers. It is in their best 
interests for them to stay in business to do that. That is the 
incentive.
    Senator Nelson. Well, as I said in the opening comments, if 
a terrorist comes in and with a satchel charge blows up a major 
electrical grid, sewer plant, water plant, that is obviously a 
terrorist attack. But they can do the same thing with a cyber 
attack where the effect even is more extensive.
    Can you tell us what percent of the companies represented 
on your task force have actually implemented this Framework, 
this voluntary Framework?
    Ms. Beauchesne. No, sir. We have not surveyed them. I do 
not have an exact number for you.
    But I will tell you that through our campaign that we have 
done around the country, all of the companies are highly 
interested in adopting the Framework and using the Framework. 
And this is not new. The Framework is a new tool but it is made 
up of best practices and standards and guidelines that 
companies have been using for several years now.
    Senator Nelson. Would you submit for the Committee's 
consideration the percentage of that, as well as the percentage 
of your general membership implementing the Framework?
    And, Mr. Smocer, among the publicly traded companies 
represented by the Business Roundtable, have any of your 
members identified cyber attacks as the reason for declining 
earnings?
    Mr. Smocer. Within the Financial Services Roundtable, to 
the best of my knowledge, no, not at this point.
    Senator Nelson. Do they consistently report, in their SEC 
filings, cyber attacks?
    Mr. Smocer. With regard to the SEC filings, obviously cyber 
risk is one of the risks they need to consider, and if there 
are indications under SEC rules that that risk has importance, 
then yes, they are reporting it, sir.
    Senator Nelson. Mr. Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran [presiding]. Thank you very much.
    Senator Thune indicated he was departing for a few minutes 
for a Finance Committee meeting, and next on the list is Mr. 
Peters after me.
    Ms. Beauchesne, you indicated in your testimony that the 
NIST Framework has been a helpful tool, but then you also 
promoted needing to go further with information sharing. You 
indicated that is not the jurisdiction of this committee. But I 
want to explore what we can learn from NIST and the partnership 
that is created there to encourage that information sharing.
    I probably will ask Mr. England a similar question. But how 
do we get the smallest businesses? What is the incentive for 
them to participate today, and what barriers need to be 
overcome to see that they do participate potentially on 
information sharing?
    Ms. Beauchesne. Thank you.
    First of all, I think take a look at the Framework. It is 
only a year old. Right? So we are still socializing it. We are 
still getting people to be aware of that, and that is part of 
the Chamber's job, working with NIST. It has been a terrific 
partnership because the private sector was involved in every 
step of the development of the Framework. So they had a big 
stake in this working.
    As far as getting smaller companies to adopt the Framework, 
the more that people are using it, the cost of adoption will go 
down. Right?
    Senator Moran. So the cost of participation will be----
    Ms. Beauchesne. A market influence, yes, sir.
    Not everyone, especially the small or medium-sized 
businesses, can afford to go out and hire a FireEye, a 
Mandiant. So we want everyone to use this tool. And again, the 
Framework is one tool in the toolbox. It is a process. It is a 
great one. Everyone is talking the same language. Everyone is 
looking at the same kind of process.
    But as you said, more needs to be done. And that is the 
information sharing piece, and that is the Chamber's number one 
cybersecurity priority this year. We really need to get that 
legislation done. If we are going to get to the next level so 
that the Federal Government shares information with the private 
sector, that we are seeing the threats at the same time, that 
we are sharing information in real time, not 6 months later 
when the FBI comes knocking on your door.
    Senator Moran. Do you know the description of the 
businesses, the kind of demographic or size, revenue, number of 
employees, kind of the description of the typical business that 
participates in the industry information sharing and analysis 
centers or a number of fusion centers across the country, 
including one in Topeka, Kansas that gets great national 
reviews? Is there an indication that small business is able and 
interested to participate?
    Ms. Beauchesne. I actually will defer to my colleague here 
on the ISAC participation. My understanding, though, is it is 
probably more mid-sized and large-sized companies. The smaller 
ones frankly do not have the staff or time that is my 
understanding.
    Mr. Smocer. Our experience within the Financial Services 
Information Sharing and Analysis Center is that it does run the 
gamut from large to small. I would say the smaller 
organizations typically tend to be more consumers of the shared 
information. So in terms of protecting themselves, they tend to 
get the information that the larger institutions are witnessing 
in terms of attempted attacks, the nature of those attacks, 
consume that information, and then prepare to defend themselves 
better from that information.
    I think one thing to recognize too is a lot of smaller 
institutions or organizations, be they in financial services or 
otherwise, are often supported by outside IT service providers. 
So I think one thing that is critical too in the information 
sharing debate is to make sure that those kind of service 
providers are engaged because they will help protect small 
institutions that they service.
    Senator Moran. That is a good point. The business that 
conducts business with a smaller business needs to be insistent 
upon the right framework in place for who they are contracting 
with.
    Mr. Smocer. And one of the advantages of the Framework for 
smaller businesses too is that in gauging the effectiveness of 
their service providers, they can use the Framework to ask the 
right questions of their service providers in a kind of lexicon 
that is common. We tend to think of the Framework as almost a 
Rosetta Stone in terms of taking a lot of disparate language 
around technology and cybersecurity and placing it in a common 
lexicon that service providers, customers, clients can 
understand.
    Senator Moran. And I would point out that while it may be 
an IT company that you are subcontracting or contracting with, 
a business contracts with lots of other businesses unrelated in 
a sense to IT, and there is an opportunity for the attack to 
occur there. And I do not know if this is demonstrated by facts 
yet today, but I assume that it may come to the point in which 
it is easier to attack the smaller business that contracts with 
a larger business and you arrive at the same point of very 
damaging occurrences. Does that make sense?
    Mr. Smocer. It does. And certainly in some of the examples 
that Senator Nelson was giving, in particular, one large 
retailer that was ostensibly attacked through a small HVAC 
provider.
    Senator Moran. Mr. England, just let me ask you why your 
company has the incentive to do what you are doing?
    Mr. England. It is a business imperative. You know, we talk 
about insurance as a protection against liability, but I like 
to think of the example of life insurance. It really does not 
benefit me if I am dead. And as a small business, I am 
dependent on the trust of my customers and being able to 
deliver them services in a secure environment. And as a small 
business, we could sustain probably just a small number of 
attacks before we would be--as a business entity, our going 
concern, would be in jeopardy. So there is a strong incentive 
to do that.
    And I echo the comments that have been shared already that 
this is why we view it as a competitive advantage for us. We 
have had open conversations with larger companies that we are 
connecting to, and we have had open conversations with people 
who are providing services to us because it is a great risk.
    Senator Moran. Thank you very much.
    Mr. Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Moran.
    I really have enjoyed the testimony here and what is going 
to be an increasingly important discussion in the years ahead. 
And so I appreciate all of your involvement in this issue.
    Mr. Lewis, if I can start with a question for you. In your 
testimony you, I think, very wisely said that the question is 
not how many folks are adopting the Framework. It is whether or 
not it is actually effective. And I think the jury is still 
out. It is still new. We are in the process of implementing it 
and companies are adopting it. So we will have more data points 
as we go forward. If you can kind of elaborate how we would 
assess that.
    And in particular, you mentioned at the very end of your 
testimony too that you think this is a good start, but you also 
believe it is not enough. So where do you think we are going to 
be? We are going to have data points, obviously, to assess 
this. But where do we have to go that is even further than this 
Framework? What were you implying in your testimony?
    Dr. Lewis. Well, and thank you for the question.
    The administration has chosen a voluntary approach, backed 
up by the implicit threat of regulatory action if companies do 
not do anything. And the jury is still out, as you said.
    For me, the easiest way would be to just look at the number 
of incidents that we see, the losses that we see, and whether 
it is going up or down. And one of the ways I think about this 
is we have four or five primary opponents in cyberspace: the 
Russians who can pretty much do whatever they want, the Chinese 
who have a massive amount of resources, Iran and North Korea 
who have really improved in recent years, and the groups that 
Iran supports, some of the terrorist groups that Senator Nelson 
might be talking about. These are pros. Let us see how they 
react. Right? If their success rate goes down--and they have 
had an unbroken string of successes for more than a decade--
then we can say we have done enough. But we do not have the 
data to say that.
    If it is not enough, then we need to think where is it we 
want to take action to harden critical infrastructure and where 
is it we want to take action as a Government to work with these 
nation state opponents to get them to change their behavior.
    So I think those are the two areas.
    Watch the Framework. People have said they wanted to do 
voluntary stuff for a long time. Now is their chance. Prove 
that it works. If it does, great. But even if it works, there 
will still be a class of opponents who can only respond to 
Government action, and that is where we need to think.
    Senator Peters. Especially with the state actors is where 
we are going to need to do it.
    Dr. Lewis. Right.
    Senator Peters. Mr. Smocer, you mentioned in your testimony 
that you think that we could see a baseline of activity from 
companies based on insurance and insurance standards. And I 
also heard a number of folks comment that with regulation, you 
basically have a checklist process that you are going to go 
through.
    How is it fundamentally different if it is an insurance 
company? Would an insurance company basically give you a 
checklist, say if you do these things, you will be insured? If 
you do not--what is the difference between those two approaches 
as you see it?
    Mr. Smocer. I would say that the way the Framework will be 
used is less about the checklist and more about underwriting 
the risk that the company faces. So I think as in any 
insurance, you need to have some level of standard underwriting 
and some lexicon that provides that to be able to get the 
actuary numbers to figure out the risk and figure out the 
premiums therefore that you are going to charge.
    I think what the Framework does is it provides a really 
good risk framework that, as many of my colleagues have pointed 
out, is understandable from the board room down to the 
operations floor. And therefore, I think the insurance 
companies see this as an opportunity potentially to say this is 
the tool that we have been looking for to give us some standard 
underwriting guidance to be able to figure out our premiums and 
risk scenarios.
    Senator Peters. Thank you.
    Mr. Romine, in your testimony you talked about your NICE 
initiative which deals with education because for us to 
effectively deal with this problem, we need folks who are 
highly skilled and trained in cybersecurity. Could you 
elaborate a little bit on what you talked about and how the 
initiative is progressing and what we need to do to make sure 
that we have the training programs in place to train folks who 
can deal with some of the threats from China and Russia and the 
others that are coming at us?
    Dr. Romine. Certainly. Thank you, sir.
    The NICE program that NIST is privileged to lead housing 
the national program office for NICE is actually a broad 
interagency activity. And it is focused on three things. One is 
cybersecurity awareness. One is fundamental education from K 
through postgraduate. And then related to that one is the 
development of a cybersecurity workforce, capable workforce.
    And so the last one I think is the one that you are 
specifically interested in. And I would say a lot has been done 
in that space. There is a lot left to do. We have collaborated 
with the Department of Labor and the Office of Personnel 
Management, OPM, and others, the Department of Education, the 
National Science Foundation, and many of our other partners. 
And I think we are addressing some of the shortcomings 
associated with sort of understanding the needs, the 
requirements of that cybersecurity work force, the STEM 
education that is required to underpin a professional workforce 
in cybersecurity.
    And so I think there is more to come. We still have a 
shortfall. This is, I think, well known. We need more capable 
cybersecurity actors. But we are making progress.
    Senator Moran. Mr. Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you.
    It seems all of the panelists emphasize--or at least most 
of the panelists emphasize that the voluntary nature of the 
Framework was key to its initial success. But I still believe 
there need to be quantifiable metrics to determine adoption 
among companies.
    Can each of you briefly suggest more rigorous and precise 
ways to measure the adoption of the Framework beyond the 
October RFI?
    Dr. Romine. I can start briefly and say that from NIST's 
perspective, it is the ongoing engagement with our industry 
partners. This is something that we did not deliver this to the 
President and walk away. We are actually continuing to engage. 
And what we are seeing is a shift in the conversation. The 
momentum is building.
    Senator Schatz. But you are a data person. So what are 
going to be the metrics? I mean, that sounds like me talking. 
Let us talk about what are the metrics for success for those 
programs.
    Dr. Romine. I represent a measurement institute, and so 
this is something that we take very, very seriously. Of course, 
one of the problems that you have to worry about is you can 
sometimes get what you measure if you are not careful about 
designing the measurements.
    We are still trying to figure out exactly the appropriate 
approach for measuring the rate or the level of use of the 
Framework. But I think----
    Senator Schatz. So we do not have metrics yet.
    Dr. Romine. We do not yet. The Framework is still--as we 
have pointed out, it is kind of in its infancy. It is less than 
a year old, and I think the amount of momentum is pretty 
striking given that fact of its youth. But we are working on 
ways that we can try to assess this.
    Senator Schatz. What is your time-frame for developing 
metrics and reporting back to the Congress on progress?
    Dr. Romine. I would be reluctant to give you a very 
specific time, but I can tell you we are diligently working on 
trying to determine the best approach for measuring that.
    Senator Schatz. Ms. Beauchesne?
    Ms. Beauchesne. Well, I am not from a metrics institute. 
But I will tell you I would think about it this way. Everyone 
wears seatbelts now. People do not smoke now. I think we need a 
campaign like that. And when we start to see people around the 
country understanding we are talking about the cyber Framework, 
that it is not just a big news story when they hit a Federal 
department or one of our big retailers, everyone understands 
what it means to protect your networks and what good cyber 
hygiene means, then that will be success.
    Mr. Smocer. And I approach it from a slightly different 
perspective coming from an industry that already has a fair 
amount of cybersecurity regulation associated with it. I mean, 
our concern is primarily around assuring that our members are 
aware of it. And part of the way we are doing that, by the way, 
is through some survey information that we are doing. So 
through the FSISAC, the Information Sharing and Analysis 
Center, through the sector coordinating council that we have, 
we have done an awareness survey, and we know that the 
institutions are very aware of it. We are then probably going 
to move on to kind of what the usage is.
    Our big concern, though, is reconciling the Framework with 
the existing regulatory structure that we have.
    Mr. England. I do not have the same kind of national reach 
that my colleagues do here to get that kind of visibility. But 
I can just share with you my own personal experience.
    This year, we have, independent from all this, gone through 
a review of our whole vendor management process. And as we have 
gone through that, we realized that this would perhaps be an 
ideal opportunity to ask some critical questions about 
cybersecurity. And in particular, we have included a question 
as to whether or not our vendors and suppliers, those we 
partner with, are using the NIST Cybersecurity Framework.
    I think, as Ms. Beauchesne pointed out, the more 
conversations that we are having about this, the more dialogues 
that we are having with those that we interface with on our 
systems--and we are seeing more interest growing in it and more 
conversations surrounding it as a result. And so I think it is 
an organic growth.
    Senator Schatz. Dr. Lewis?
    Dr. Lewis. Thank you.
    I would call everyone's attention to section 10 of the 
Executive Order which says that if the voluntary measures do 
not work, the White House reserves the right to do more in a 
regulatory fashion. They did an assessment of the effectiveness 
of the Framework a few months after it came out. Amazingly 
enough, they found that it was succeeding. I do not know how 
they figured that out.
    We have multiple data sources and we need to use them all. 
The sector-specific agencies that oversee critical 
infrastructure sectors need to collect data on the status of 
these companies and how many times they have been hacked.
    Senator Schatz. And is it NIST's job to aggregate all of 
those data, or is there a lead Government agency? You mentioned 
the FBI going to a company. But is there a point agency on 
aggregating all of these data?
    Dr. Lewis. There is not, and that might be a useful thing. 
I think NIST is not really the aggregator here. NIST could come 
up with standards for aggregation. FBI statistics are useful. 
Just the number of times they have sent people out to notify 
companies, which was in the thousands in the last 2 years.
    Senator Schatz. But right now there is no lead Federal 
Government agency in terms of getting our arms around the 
problem.
    Dr. Lewis. No. DHS does not have the authority nor do they 
have the sources. The intelligence community collects data on 
foreign success rates. That data is classified, but I would 
suggest that we are not doing so well. DOD collects information 
on the defense industrial base. And finally, Commerce has some 
authorities they have not taken advantage of.
    Senator Schatz. OK. Thank you. My time is up.
    The Chairman [presiding]. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Prior to coming up here and starting this new day job, I 
spent 28 years in the private sector. So I am always one that 
hopes to see more private sector-led solutions here. In fact, I 
was 12 years as exec in a cloud computing company, and it was 
always in our best interest to make sure we had our networks 
hardened and always had the best practices on cybersecurity 
because if we failed to do so, we did not have a business any 
longer.
    Mr. Romine, a question for you. This Framework was released 
about a year ago, February 12, 2014, version 1.0. How long did 
it take from kind of the beginnings of the process to put 
together V1.0 here before it released?
    Dr. Romine. It took the full year. We were given a year by 
the executive order. The first request for information that we 
asked the private sector to react was immediately after the 
release of the executive order. We subsequently needed to 
engage all of the stakeholders, private sector, Government 
regulators, industry associations, and international community 
over the course of the next year in five separate workshops 
that were held geographically distributed around the country. 
On the basis of that feedback, after an initial release of a 
draft, we subsequently amended the draft, and the version that 
you see that was given to the President on schedule, I am proud 
to say, was the culmination of that year's effort.
    Senator Daines. So round numbers, it is about 2 years old I 
guess as we sit here today, from the beginning of the process 
to where we are at today.
    Dr. Romine. That is correct.
    Senator Daines. You probably had your beta release, and 
then you have got your version 1.0 here.
    Dr. Romine. Yes, sir.
    Senator Daines. I know as we were building our company--one 
of our strategic advantages--we could run faster than anybody 
else. That is how we won in the technology space. And we grew a 
large company. We capitalized nearly $2 billion from virtually 
starting up from nowhere. I mean, I have lived in the world 
here of data and cloud computing.
    But I am just wondering how current now, given the speed at 
which the bad guys are moving, given the start about 2 years 
ago--you know, when is version 2.0 to come out, and how often 
do you see updating the standard?
    Dr. Romine. Thank you, sir.
    I think it is important to note that the Framework is not 
technology-specific. That is, we are not trying to institute 
specific technologies that are going to be out of date almost 
as soon as a document appears. Instead, it describes a process, 
a framework that you can use to communicate your cybersecurity 
needs both internally, as well as with external stakeholders. 
And so I do not think that is something that will--even though 
this is a fast-moving area, I----
    Senator Daines. I see that. It is clearly a framework and a 
process that is laid out here in terms of assessing risk and so 
forth.
    Dr. Romine. That is right.
    Senator Daines. One thing I also notice about D.C.--this is 
a town that seems to reward activity and not results. How do 
you help companies try to quantify this process in terms of 
eventually the outcome? We have moved this process here, but 
they have got to put, I think, some kind of quantitative 
assessment whether it is a 0 to 100 scale, whether it is a 
letter scale to say--and I have a question for Mr. England too. 
If you say are they complying with NIST, what does that mean?
    Dr. Romine. I can just start by saying as part of the 
Framework, in fact, there is an evaluation of the level of 
assurance that an organization has that they are responding to 
the various functions that are listed in the Framework, the so-
called tiers that we have developed. And so there is an 
internal assessment capability already.
    With regard to helping businesses, particularly small and 
medium businesses, we have active engagement. We have outreach 
that predates the development of the Framework, and we are now 
using those outreach mechanisms with trade associations, with 
small businesses throughout the country to socialize the 
Framework, to increase awareness.
    Senator Daines. One thing I think is helpful, I guess, is, 
is there a way to try to grade, assess, quantify what it means 
to have adopted this Framework, I think moving in that 
direction, so there is a way to have a comparative analysis 
between company A or company B?
    Dr. Romine. I think it depends. It is a little bit 
dangerous to go that route principally because the companies 
face different contexts of use, and so comparing across is 
going to be very challenging. I think the internal assessment 
of how effective your cybersecurity enterprise or your risk 
management approach is----
    Senator Daines. That is probably the better question in 
terms of looking--it is a continuum here in a rapidly very 
dynamic--you know, rapidly changing environment. If we start 
here, we do this assessment, 6 months later or a year later, we 
can see if we are making progress or not. I think it probably 
is some value add.
    And last, what I see too--I will know when these are being 
used when something like this has got its--you can tell it is 
not just sitting on the shelf and gathering dust. I am just 
always a little skeptical of this town where they just want to 
create some activity. We got a standard and here it is. And the 
real question will be adoption and focusing whether we want 
more of this. It is like bread. If it is fresh, they are going 
to want it. If it gets stale, it will just be another binder on 
the bookshelf.
    Dr. Romine. I could not agree more. We heard universally 
from all of our stakeholders that more shelf-ware was not what 
was needed, and I think we took that into account in engaging 
broadly across the stakeholder interests and listening to their 
concerns and developing, in conjunction with the stakeholders, 
a document that is actually usable.
    Senator Daines. All right. Thank you. I am out of time.
    The Chairman. Thank you, Senator Daines.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you everyone. Mr. Smocer, please say hello to 
Governor Pawlenty, my friend, who I know is, I guess, your 
boss.
    Mr. Smocer. He is in fact my boss.
    Senator Klobuchar. Is he doing OK?
    Mr. Smocer. Yes.
    [Laughter.]
    Mr. Smocer. No. He is doing very well.
    Senator Klobuchar. All right. Very good.
    And then also I think you mentioned the major retailer who 
was attacked, and of course, I think everyone knows that was 
Target out of Minnesota. So we have seen firsthand the 
devastating effect this can have even though there was not a 
lot of actual damage to consumers, but what happened to Target 
because of that, even though they were in fact victims of 
theft. And we are proud that they have come back from that.
    But I think we all know the effect that this has on 
companies and on consumers. And I just think there is a moment 
here, maybe because of what happened with Sony and other 
things, where there might be a space to actually move forward 
on some legislation which, as we all know, crosses many 
committees. And I happen to be on two of them, Commerce as well 
as Judiciary, where I think we can move forward.
    I was going to ask you, Mr. Romine, just if you could 
answer briefly, if there are any industries you think are ahead 
of this that are doing better jobs than others in terms of 
taking this on.
    Dr. Romine. We have certainly had active engagement from a 
number of sectors. The ones who are the most, I think, 
critically dependent upon information technology have had kind 
of a head start on cybersecurity issues, and so the financial 
services sector certainly is a leading sector in that area. I 
think the energy sector--some of the regulated industries, 
industries that have had to cope with regulation overall, I 
think have also kind of had a little bit of a head start.
    Senator Klobuchar. And could you explain how the Framework 
is going to be technology-neutral? I know there have been some 
concerns raised about overly complex regulations.
    Dr. Romine. That is right.
    Senator Klobuchar. Can you explain in a not complex way?
    Dr. Romine. I will do my best.
    The Framework itself is completely technology agnostic. It 
does not specify any particular technologies. It just talks 
about standards and best practices. And I should point out that 
the Framework is actually predicated on use of existing bodies 
of standards, many of them international. And I think it is an 
important thing to note that that gives greater opportunity to 
harmonize things, particularly for multinational corporations 
who have a difficult time responding to different regulatory 
environments in different parts of the globe.
    Senator Klobuchar. Ms. Beauchesne, I know the Chamber has 
been working with law enforcement, you know, FBI, Secret 
Service, cops on the beat. I used to be a prosecutor for 8 
years, and at the beginnings of this, I cannot tell you what 
this was like. We had line officers that would show up at a 
house that had some cyber problem and turn on the computer and 
all the evidence would vanish because someone had set it up 
that way. And I know there has been more training in law 
enforcement, and certainly as you get to the upper levels, 
there is more training.
    Is the working relationship good? How do you think this can 
move forward in terms of making sure we are doing a better job 
in being as sophisticated as the crooks that are taking our 
private data?
    Ms. Beauchesne. That is a very good question. Thank you.
    I think that, again, keeping this Framework flexible, 
keeping it non-regulatory so that we can move at the speed of 
the bad guys is essential.
    As far as law enforcement, I think the relationship is very 
good. When we have gone around the country doing the Chamber's 
Cyber Campaign, we have included the local FBI and the local 
Secret Service person so that our members in Austin, Texas, for 
instance, get to meet them, get to have face time with them so 
that when something does happen, they know where to go.
    And I would also say at the Bureau, we now have a private 
sector office, a private sector lead there. So our members have 
one-stop shopping and know where to go. So I think it is a good 
relationship.
    Senator Klobuchar. Very good.
    My last question is actually for anyone that wants to chime 
in. Senator Blunt and I successfully included an amendment to 
make sure that NIST was accountable in the process in terms of 
getting us information on what is happening.
    But my question is the President talked about information 
sharing and liability protection legislation as an important 
incentive to encourage further participation in both the NIST 
Framework and other cybersecurity efforts. I guess I would ask 
the panel, especially from the private sector side, how 
important is this for moving forward.
    Mr. Smocer. Sure. I think we were certainly very encouraged 
by the comments because I think the liability protection is a 
key component that we have been looking for. I think we would 
love to see that extended. In the Framework, the 
recommendation--it was mainly private-to-government that would 
be covered by the liability protection. We think that needs to 
extend a bit to the private-to-private sharing models as well. 
You know, a lot of times----
    Senator Klobuchar. Are there like antitrust concerns? You 
know, if you start giving data to your competitors saying 
something is happening in terms of the liability issues you are 
worried about.
    Mr. Smocer. Well, I think if I were a GC, that might be one 
of the reasons I would discourage information sharing. But I 
think in reality the recognition is this--when it comes to 
cybersecurity, this largely has to be a noncompetitive issue 
because the reality is that any institution that gets attacked 
is probably witnessing the next victim's circumstance. So if we 
can share that information more freely with the right 
protections in place, I think that is very important.
    Senator Klobuchar. Anyone else?
    Ms. Beauchesne. If I could just add on the information 
sharing piece. Absolutely, the liability protections are 
absolutely essential for the private sector. Whether it is 
FOIA, whether it is regulatory, the antitrust, businesses need 
those safeguards in order to share that information. We do not 
want to be blaming the victim. We want the companies to be able 
to share that information with impunity.
    Senator Klobuchar. All right. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Manchin has returned.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you so much, Mr. Chairman. I am so 
sorry because we've got two or three meetings going on. I would 
hate to look like it is being rude, but we are not. We are just 
trying to make all of our meetings.
    Let me just say this to all of you. I want to thank you all 
for your service and also being here and helping us through 
these most difficult situations.
    To Mr. Romine, you first, sir. The West Virginia National 
Guard is partnering with the University of Charleston and the 
Blue Ridge Technical College on a cyber training program that 
will help address the workforce shortage issues that are 
highlighted in the roadmap for improving critical 
infrastructure cybersecurity. The West Virginia National Guard 
and the University of Charleston have also developed 
undergraduate and graduate-level cybersecurity certificate 
programs based on the national training standards.
    How is your office and the National Initiative for 
Cybersecurity Education coordinating with the West Virginia 
National Guard on this program and what can we do, all of us 
and yourself, better to support innovative partnerships like 
this?
    Dr. Romine. Thank you, Senator. We are certainly always 
pleased when there are organizations that are taking this very 
seriously and developing curricula and contributing to solving 
the workforce issue. I do not have any specifics about that 
particular case except that I would say we would be delighted 
to engage and have discussion.
    Senator Manchin. Do you all have the ability to partner up 
with them to help them take these programs to higher levels, or 
how does that work?
    Dr. Romine. We certainly have the ability to contribute and 
share ideas under our program.
    Senator Manchin. So I can get them in contact with you to 
make sure we can hook up?
    Dr. Romine. I would welcome that.
    Senator Manchin. Ms. Beauchesne, banks and other financial 
institutions are already responsible for following a variety of 
regulations related to cybersecurity. They have requirements to 
protect against breaches, as well as requirements about how to 
respond in the event of a breach. They could be responsible for 
cyber theft that occurs through a third party even if the 
threat was not the fault of the bank.
    If financial institutions continue to bear the financial 
liability for cyber attacks, what incentive will other 
industries, such as retail, have to invest in voluntary 
cybersecurity protections?
    And they are starting to move a piece of legislation 
saying, listen, somebody else has to have skin in the game. If 
it is not my fault and you will not invest, whether it be--I am 
using Target, and maybe they have done everything possible. But 
it was a tremendous breach. But basically it fell on the 
responsibility of the banks.
    I have been called personally. They said your credit card 
has been jeopardized, and we want you to cut it up. We will 
send you a new one. I have had that done twice now.
    So with all that being done, the banks are saying we would 
not have to have this if they are doing everything possible.
    So two things. What can they do, and do you think that it 
should be a dual responsibility? Whoever is at fault may have 
not done what technology would allow them to do. Should the 
institution, whether it be commercial or retail, bear the 
brunt?
    Ms. Beauchesne. Yes. I think that the brunt should be 
shared by all involved.
    Senator Manchin. Do you think legislation would be needed 
to share that rather than the financial sector taking the full 
brunt?
    Ms. Beauchesne. I am not completely familiar with the 
legislation, so I will not commit to that.
    But what I would say is we are----
    Senator Manchin. It is pretty simple. Who pays? Who did 
wrong and who pays?
    Ms. Beauchesne. I think we are going to see a sharing of 
who pays. I think that you are seeing companies step up, and 
here is why because it is not just about who pays. They want to 
protect their customers. They want to protect their brand, and 
it is in their interest to do so.
    Senator Manchin. I know they want to, but when they know 
that it is not going to cost them anything when it is breached 
and they have not stepped up and bought the latest and greatest 
technology to try to develop it and work, what is their 
incentive to do so? And you are going to have to convince all 
of us that we need to step in there and say, OK, you are at 
fault, you pay.
    Anybody else want to comment on this? I see Mr. Lewis down 
there shaking his head.
    Dr. Lewis. So I talked to the head of a major credit card 
company, and what he said to me is, you know, it is a problem 
for us, but if I put a nickel on your credit card bill, are you 
going to notice. And that will cover the expenses. So everyone 
in the room who has a credit card, you are paying 5 or 10 cents 
a year, and that covers fraud.
    The debate is over two things. First, the cost is going up, 
and you may start to notice when you are paying more, and that 
is where you are getting companies saying, hey, wait a minute. 
Why am I holding responsibility for this?
    Senator Manchin. You are talking about the financial 
companies, financial institutions.
    Dr. Lewis. Yes, because currently they bear the liability, 
and they would like not to.
    Senator Manchin. I am just saying the innovative and 
creative ideas will come if you make me responsibility and hold 
me liable. I will push the demographics, if you will, if I know 
that it could fall back on me. If not, I might be a little 
complacent, saying you know what, Mr. Eamon here is going to 
have to pay it, so I am not worried. I have done all I can. I 
do not need to do anymore. I am not going to incur that much 
more expense.
    Dr. Lewis. We did a study of major breaches and what we 
found is the first phase is the bad guys get in. The second 
phase is they are discovered, and the third phase is everyone 
points at everyone else and says they are responsible. So some 
allocation of responsibility would be good.
    Senator Manchin. Thank you, Mr. Chairman. I am sorry.
    The Chairman. Thank you, Senator Manchin.
    Next up as we move west, Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Thune, and 
great to be back with you on the Commerce Committee. And I am 
going to talk a little bit about a couple of things we have 
worked on in the past.
    Today American citizens, businesses, and government 
agencies face what I think are very serious cyber threats, and 
so I really appreciate this hearing. Everything from personal 
data, to trade secrets, to national security are at risk from 
intrusion by independent hackers and foreign governments. They 
even tell me our own Senate offices are frequently the subject 
of those kinds of attacks from foreign governments. Cyber 
threats are real and can cripple our water systems, our oil 
pipelines, and hospitals, and I think we need to take these 
threats very seriously.
    I have supported cybersecurity legislation in the Senate, 
including the Rockefeller and Thune Cybersecurity Enhancement 
Act that became law, I believe in the last Congress. I support 
measures to improve our cybersecurity defense, including 
important work at two national laboratories in my home state of 
New Mexico. Los Alamos National Laboratory is a leader in 
quantum cryptography, and Sandia National Laboratory is engaged 
in efforts to secure the national electrical grid from cyber 
attack. Sandia has partnerships with universities and the 
private sector. They are helping computer science students 
become cyber professionals.
    And when I look at this field, like many Americans, I also 
have a lot of concerns about what our own Government is doing 
in terms of domestic surveillance. And I think it is absolutely 
clear we need to strike the right balance between security and 
our civil liberties. But I know that is not the main focus 
here.
    So, Dr. Romine, I would like to ask you about the subject 
of cloud computing. Your testimony briefly notes that NIST 
plays a role for advancing standards for cloud computing. 
Senator Moran and I worked on a piece of legislation, which was 
signed into law last year, called the Federal IT Acquisition 
Reform Act. And we know from the GAO that smarter Federal IT 
policies could lead to billions of dollars in taxpayer savings. 
This includes greater use of cloud computing across the Federal 
Government.
    So I would like to ask what is NIST's vision with respect 
to cloud computing. What does NIST see as the primary 
challenges for cybersecurity when it comes to cloud computing, 
and how is NIST working with other Federal agencies to support 
their transition to the cloud?
    Dr. Romine. Thank you, Senator.
    NIST has been involved in cloud computing. We have an 
ongoing cloud computing research program and standards program 
today in my laboratory, the Information Technology Laboratory. 
We engaged with other Federal stakeholders during the 
development of the FedRAMP process which is based on standards 
that we developed in consultation with the private sector 
again. Our standard MO is to work with the private sector on 
these issues. We establish the basic definitions for cloud 
computing.
    With regard to cybersecurity, one of the challenges, of 
course--cloud computing has sort of a multi-tendency component 
to it, meaning that multiple people are on the same hardware at 
the same time, and there is the potential for sort of bleeding 
over. So we have to be careful about that.
    But another issue and one that we have just issued guidance 
about has to do with cloud forensics. That is, given that you 
are no longer necessarily just local in your IT space but 
rather using a cloud provider, how do you after the fact figure 
out what happened using forensics techniques. And so we have 
got some recent guidance that we have issued on that.
    Senator Udall. I do not know if any of the other panelists 
have any comment on what he was talking about. You all are good 
on that?
    You noticed and you talked about working with the private 
sector. Is NIST getting the level of cooperation it needs from 
industry stakeholders?
    Dr. Romine. I think the level of engagement has been 
astonishing. We have been very pleased at the number of people 
who have engaged with us both in terms of responding to 
requests for information in the early processes of Framework 
development, for example, as well as 6 months after or 8 months 
after the Framework was released, information about how it is 
being used and the lessons that we can learn. That response has 
been tremendous. The workshop engagement has been fantastic. So 
we are very excited.
    Senator Udall. Thank you very much.
    And thank you, Chairman Thune.
    The Chairman. Thank you, Senator Udall.
    Senator Gardner is up next.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. Thanks for 
holding this hearing as well, and thank you to the witnesses 
for being here today and your testimony.
    I had an opportunity about 6 months ago to visit one of the 
largest tech employers in Colorado, manufacturing. They focus a 
lot on security issues, focus a lot on issues dealing with 
servers around the country, around the world really looking 
for, I guess, attacks, aberrations in terms of what is 
happening to their systems. And it was an interesting point 
that they made. They had said something to me to the effect of 
we no longer are just assuming that we will be able to prevent 
and keep out these attacks, but we have to assume that the 
attacks have been made, that somebody has made it inside. And 
now we are just trying to figure out how to keep them out of 
everything else and I guess cordon them off, so to speak, into 
an area where it does no harm.
    Do you think that is an accurate way to look at the world 
of technology today, Dr. Romine?
    Dr. Romine. I think in most conversations with 
cybersecurity professionals, you will find that there is no 
discussion that we will be 100 percent successful at keeping 
people out of our systems. And so what I think has to happen is 
an understanding of sort of where the crown jewels are 
regardless of, whether you are the Federal Government or 
whether private sector, what sector that you are in, and then 
seek additional steps to ensure that the very serious--whether 
it is proprietary information, whether it is personally 
identifiable information, those kinds of assets have to have 
special protection.
    Senator Gardner. And obviously, you do a lot of work at the 
NIST lab, whether it is NTIA work, telecommunications work, the 
atomic clock, things like GPS, and other issues. And this 
Framework which you believe is and will always be voluntary--is 
that correct?
    Dr. Romine. Yes, sir.
    Senator Gardner. The other question I have is if you have 
this Framework, you have set this Framework up, you have 
agreement, how do you define success. What is success 5 years 
out from now with the Framework in place?
    Dr. Romine. I think one of the perhaps useful analogies 
here is if you take a look at the evolution of safety programs 
in the private sector, for example, they initiated with let us 
do the following things. This is a checklist of things in order 
to ensure that we are trying to have a safe environment. And 
that was sort of all you did.
    Over the course of decades I think, there has been a move 
from that to baking safety into everything that you do 
operationally, and I think the same thing is going to happen 
here. The culture is going to change. One year into the 
Framework, we are not expecting a complete culture shift, but 
we are seeing signs that the conversations that need to take 
place between suppliers and between components of an 
organization and the executives--those conversations are taking 
place or beginning to take place. So I think the more pervasive 
that becomes, I think the more we have confidence that people 
are taking seriously the need to secure their networks and 
their systems and information.
    Senator Gardner. Ms. Beauchesne and perhaps Mr. England 
might be able to address the next question. Ms. Beauchesne, in 
your testimony you talked about making incentives work. You 
talked about liability issues. You talked about leveraging 
Federal procurements, making research and development tax 
credit permanent, those kinds of things. Are there currently 
private sector incentives to achieve these cybersecurity needs 
and making sure that we are bolstering and doing everything we 
can to prevent attacks or vulnerabilities?
    And I guess what I mean by that is this. Is simply the cost 
of an attack so great that that provides the incentive? Are 
banks that are looking to make loans to companies looking at 
cybersecurity and saying we believe that you present too much 
of a risk for us to make a loan and therefore the interest rate 
is going to be higher or lower because you have done such a 
good job. Are there ISO ratings that you could look at and say 
this is a NIST standard of security that we believe is 
necessary in order to people to carry out their function 
without risk?
    Ms. Beauchesne. I think what you said is right. They want 
to do the right thing--right--because the risks are so high, 
the costs of doing business. They have to do the right thing.
    But the other piece of that I think is we need to look at 
especially the small and medium-sized companies that are being 
attacked by nation states. I mean, that is costly to protect 
against. The Framework is not going to do that. If we had every 
company in the country adopt the Framework, that still would 
not prevent the Chinese or the Russians or whomever from 
attacking our companies. So I do think incentives are out 
there.
    That is not our biggest push, if you will. I mean, we want 
the information sharing legislation. Incentives exist. We are 
looking at the Safety Act. We are looking at insurance. But the 
bottom line is we want the Framework to remain flexible, non-
regulatory, and let us get that information sharing piece done.
    Senator Gardner. And are you satisfied, Dr. Romine--in my 
question and answer that it will remain voluntary. Are you 
satisfied with that?
    Ms. Beauchesne. From everything I hear, yes.
    Senator Gardner. Mr. England?
    Mr. England. I mean, in terms of incentives, we do not 
really look into the equation in terms of what the cost of a 
breach might be because with the size of our business as a 
small business, our costs are far greater. If we have breaches 
that displace the trust of our customers and the people that we 
connect to, our ability to continue as a going concern for a 
business is what our risk is. So the incentives are there 
because there is an inherent business imperative to do it.
    And it is one of the reasons why I have been a big 
proponent of the Framework and the voluntary nature of it 
because when you start throwing into it some of these regulated 
pieces--as Ms. Beauchesne mentioned, the threat is ever-
evolving, and so we have to have a tool and a mechanism that is 
ever-evolving as well and allow for adaptation as we go because 
the problem with the regulation side of it--and, of course, it 
depends on how it is written, but it is not a I go through 
this, I determine that I have met some minimum standard or 
minimum requirement, and I am done because you will never be 
done.
    And so for us, our incentive actually is to be here today 
and to petition against the regulation because, to be quite 
honest with you, anything that would be regulated as minimum 
standard requirements is not going to be enough. And so we are 
going to have to do our own activities above and beyond that 
anyway in order to maintain our systems the way that we want. 
And so what is going to happen is it is actually going to be 
more costly for us to implement cybersecurity activities in our 
organization because we are following a dual track, what the 
regulating body wants and what the market demands.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for holding this hearing and making it a priority because, as 
we know on both sides of the aisle and as one of our military 
leaders has said, and I am sure it has been repeated here, that 
the next Pearl Harbor may well be a cyber attack. Sony was 
certainly a sign that we ignore, at our grave peril, that a 
cyberattack may be the method of choice for aggressors who mean 
to do harm to our country.
    And my view is that we are patently vulnerable at the 
moment, and I think the testimony this morning has reinforced 
my view that this Nation must do better. We are susceptible now 
by choice. It is not an accident. It is not something that we 
cannot anticipate. It is by choice that we are, in effect, 
failing to address this peril before it hits us. And I believe 
there needs to be greater Government direction and legislative 
involvement.
    For the moment the best and most immediate response is for 
the private sector to do more with the encouragement and 
incentives that Government can provide. And as you know, as 
directed by the Government's Executive Order on Cybersecurity, 
the Secretaries of Homeland Security, Commerce, and Treasury 
were required to provide a report to the White House on how the 
Government can best provide those kinds of incentives to 
participate in the Framework, especially for smaller 
businesses.
    And I am very concerned about the impact on smaller 
businesses because the effect on a Sony eventually becomes an 
effect on smaller businesses; just as the effect on a defense 
contractor becomes an effect on the suppliers and components 
makers and so forth that we see in manufacturing submarines or 
the Joint Strike Fighter or helicopters, which we make in 
Connecticut. So I am interested in what progress has been made 
in developing better incentives.
    Dr. Lewis, as you alluded to in your testimony, it appears 
there may have been a lack of incentives on the part of many 
companies to make the right decisions about cybersecurity. So 
let me ask you. What were your thoughts on the recommended 
incentives that agencies made to the President following the 
executive order? Did any of these ideas particularly impress 
you as being effective?
    Dr. Lewis. Thank you for the question.
    I would note in general that I think this program will 
remain voluntary until there are too many incidents to ignore. 
And we are approaching that. We have got a lot of people who do 
not like us out there in the world, and they are very active in 
cyberspace because it is so easy.
    The problem with the incentives is really it has to be 
legislation. It has to be the Congress that creates incentives 
because incentives are either regulatory relief, tax relief, or 
some kind of money. And if you do not have those three things, 
it really is not that much of an incentive. It is not enough.
    Senator Blumenthal. So, in effect, what I hear you saying 
is that the President's executive order will be a nullity 
unless the Congress acts.
    Dr. Lewis. I think that legislation of some kind is 
necessary. I think the White House decided in 2012 to move 
ahead because of the problems then with legislation, but I know 
that they would probably welcome adequate legislation that 
would strengthen authorities and create incentives such as 
liability protection.
    Senator Blumenthal. So at a time when, rightly or wrongly, 
there has been criticism of the President for, in effect, 
usurping authority through executive order, here is an area 
where clearly legislation is necessary to accomplish the goals 
that we all believe are absolutely requisite at this point in 
our history.
    Dr. Lewis. Having followed the development of the executive 
order pretty closely, I think that everyone would agree that 
this is an area where Congress has to take the lead. Congress 
has to legislate.
    Senator Blumenthal. Dr. Romine, let me ask you in the time 
I have remaining. One idea that has been discussed is that 
Federal agencies develop a ``certificate of compliance'' or 
some other sort of identifier much like the Energy Star system, 
which is in a way a seal of approval to recognize the companies 
that are proven to be observing guidelines laid out in the NIST 
Framework.
    How could NIST be helpful in a process like that one? Do 
you think there is anything that would prevent NIST from 
working with Federal agencies to provide some certificate of 
compliance, which would be a strong incentive or encouragement 
for companies, in effect, to protect themselves more 
adequately?
    Dr. Romine. Thank you, Senator.
    I am not sure that having NIST play both the role of 
participating in partnership with the private sector and then 
coming behind and doing some sort of an audit would preserve 
our ability to work collaboratively with those folks.
    The other thing I will say with regard to incentives, 
although some of the discussion has surrounded incentives where 
there are market failures, I think we also have to recognize 
the inherent market incentives that are being made evident. One 
is, of course, managing the overall risk, in particular your 
reputational risk, and there have been companies that have been 
singled out here as victims of hacking, and that is problematic 
for them. When you become known in that way, it is a serious 
reputational risk, and I think there are some incentives to 
avoid that.
    The other incentives involve the burgeoning development of 
the insurance industry, cybersecurity insurance that is 
beginning to be underpinned by some of the work that went into 
the Framework.
    Senator Blumenthal. Well, I would just say in closing--and 
my time has expired--they paid a price, a reputational price, 
as well as enormous costs to their business, whether it is 
Target or Sony, and some of the individuals have paid a 
personal price, individuals in command of the companies. But 
that price all too often is one that is shared among innocent 
parties, companies that are linked to that one, consumers who 
pay a higher price whether it is through insurance or the 
charges that are passed on. So eventually failure to protect 
themselves has a cost that is societal and economic spread 
broadly throughout the Nation and that is why we are here 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    I am going to ask a couple of quick questions here. I think 
everybody else--unless we check with my colleagues here if they 
want to have a second round.
    Dr. Romine, NIST also plays a role in certain technical 
aspects of information sharing under its existing FISMA 
statutory authority. The NIST draft guide to cyber threat 
information sharing released recently provides guidance for an 
organization's coordinated computer security incident handling.
    So question number one is, what feedback has NIST received 
from stakeholders regarding the guide and how will the final 
version recognize the different approaches for cyber threat 
information sharing being used in the public and private 
sectors?
    Dr. Romine. Thank you, Mr. Chairman.
    The release of Special Publication 800-150, which you refer 
to, has gotten a lot of feedback. The feedback has been robust. 
The time for feedback I think closed just this past November, 
and we are dispositioning those comments now.
    I think it is important to note that again the guidance 
that we have provided is technology agnostic. We talk about 
various different approaches. Our role, as you correctly 
pointed out, is the sort of standards for the kind of 
information exchange that is envisioned, this information 
sharing.
    And it is important to point out we want to ensure that 
that information sharing is done in a way that is standard and 
interoperable principally because we want to have computers be 
able to ingest that information and act on it in sort of 
network speed instead of just sharing information. I think 
sometimes people talk about information sharing currently as 
being phone calls from network operators that happen to know 
each other, and I think we want to get well beyond that into a 
much more integrated approach.
    The Chairman. Do you believe NIST ought to have a role in 
providing additional guidance on cyber threat information 
sharing by non-Federal entities?
    Dr. Romine. I think we are very comfortable with the role 
that we have today, the standards and guidelines and best 
practices for information sharing, as well as the work that we 
have done to underpin security automation, which is what I 
alluded to just now.
    With regard to the private sector, I think that is much 
more of a policy issue and something I do not think would be 
necessarily appropriate for us to engage in.
    The Chairman. You mentioned in your testimony that tech 
companies have been developing products and services aligned 
with the Framework. Are there any examples of those types of 
products and services you can share with us?
    Dr. Romine. I could do that. I am not prepared to do it 
today, but I am happy to provide the Committee with some of 
these products and services that are beginning to be developed.
    The Chairman. Senator Gardner, anything else? All right.
    Well, we have got a few things. We will keep the hearing 
record open for a couple weeks for members to submit any 
additional questions for the record, and I will probably have a 
few of those myself.
    But I appreciate very much the great job of our panel 
today. Thank you not only for your remarks but also for your 
responses to our questions. It is an issue of great importance 
on so many levels to our country, and it is important that we 
get it right. Your expertise and counsel will be very important 
in helping shape the decisions that we make here. So thank you 
for that.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Joshua J. Pauli, Ph.D., Associate Professor of 
                Cyber Security, Dakota State University

  On Implementation of S. 1353: Cybersecurity Enhancement Act of 2014

    It is with great honor that I submit this testimony in support of 
the Cybersecurity Enhancement Act of 2014 and to share my professional 
opinion on how to best implement specific portions of the Act. As one 
of the lead cybersecurity faculty members at Dakota State University 
(DSU) in Madison, SD, I am deeply interested and invested in any 
legislation that affects the future of cybersecurity education. Dakota 
State University (DSU) is one of the leading institutions of higher 
education in the Nation in the area of cybersecurity, where we are 
designated as one of only 13 institutions in the Nation as a National 
Security Agency (NSA) Center of Academic Excellence (CAE) in Cyber 
Operations. The NSA and Department of Homeland Security (DHS) have also 
designate DSU as a CAE in Information Assurance Education and a CAE in 
Information Assurance Research. We currently have over 500 students 
studying cyber security at the bachelors, masters, and doctorate level.
    Assisting Senator Thune's office during the last 18 months on this 
piece of legislation has given me an opportunity to see the detailed 
goals, proposed implementation, and intended outcomes of this Act come 
into focus. Now that the Act has been signed into law, it is critical 
that we identify the most appropriate ways to ensure the success of the 
legislation. The most applicable way to ensure the level of success 
that we all hope for is to leverage existing mechanisms and models that 
have a proven track record of success as much as we can. This will 
ensure we don't ``reinvent the wheel'', and instead provide funding and 
support to programs that we already trust and are currently reaping the 
benefits from.
    One example of this in this Act is the inclusion, by name, of the 
National Science Foundation's Scholarship for Service (NSF-SFS) 
CyberCorps program in Section 302. The positive outcomes from this NSF 
program cannot be argued and there is certainly universal support for 
the continued and expanded support of it. As the Primary Investigator 
for DSU's NSF-SFS CyberCorps program, I can provide firsthand evidence 
of the success of the program as many of my colleagues around the 
Nation at other NSF-SFS CyberCorps institutions would as well. It is 
one of the driving forces in making DSU a cybersecurity leader in 
higher education. I applaud you for its inclusion in the Act and 
encourage you to continue to increase its funding level in future 
years, as it's truly a ``best bang for buck''.
    Along these lines, I would like call your attention to TITLE III--
EDUCATION AND WORKFORCE DEVELOPMENT and specifically SEC. 301. 
CYBERSECURITY COMPETITIONS AND CHALLENGES. Creating and holding 
cybersecurity competitions and challenges that help identify the next 
wave of cyber professionals are activities that have long been 
conducted by colleges and universities in partnership with NSF, DHS, 
NSA, and others. One current Federal program that fits perfectly with 
this goal of the Act is NSA's Center of Academic Excellence in Cyber 
Operations that started in 2012. This designation program aims to 
partner with institutions of higher education around the Nation that 
have academic degree programs that match, almost verbatim, to the (d) 
Areas of Skill included in the Act:

  (1)  ethical hacking;

  (2)  penetration testing;

  (3)  vulnerability assessment;

  (4)  continuity of system operations;

  (5)  security in design;

  (6)  cyber forensics;

  (7)  offensive and defensive cyber operations;

    The NSA's CAE in Cyber Operations program can help implement 
curriculum, competitions, workshops, and related assistance in these 
exact seven areas. Without a doubt, any educational efforts dedicated 
to these areas should not only include this NSA program, but I strongly 
encourage you to have the NSA lead any efforts related to these 
specific areas of skill. By doing so, you're not only directly 
leveraging the NSA's knowledge and expertise, but more importantly, you 
would then have a direct pathway to the designated institutions across 
the Nation that are already working in this exact domain. The NSA and 
these 13 institutions already have a working structure and model to 
take on these type of projects and deliver them back out to the greater 
community in a timely and cost-effective manner.
    Section 301 also includes (b) Participation that includes (1) 
students enrolled in grades 9 through 12. This is another perfect match 
for an already existing program that I would strongly urge you to make 
use of as you implement this Act. The NSA created the GenCyber 
(``Generation Cyber'') Summer Camp program in 2013 through a 
partnership with NSF to create a series of summer camps aimed at high 
school students and high school teachers held on college and university 
campuses. Summer 2014 was the first year of these camps and there were 
six very successful camps. DSU held a camp for 172 high school students 
that were interested in learning more about cybersecurity. 2015 will 
include 20-25 camps across the Nation and the NSA has a vision to 
expand GenCyber to be 200+ camps in the coming years in the same way 
that the ``Star Talk'' Summer Camps for linguistics has grown and 
prospered across the Nation (https://startalk.umd.edu). Providing 
support to NSA for GenCyber would be a very wise investment in our 
children's future as it's critical we continue to get this age group 
interested in cybersecurity and GenCyber is already two years down this 
path. Supporting NSA's GenCyber will support not the NSA's goals for 
this project, but also the GenCyber institutions that are holding 
camps, and the thousands of high school students that will soon be 
taking part in these summer experiences. GenCyber has the real 
potential to change how and when high school students are exposed to 
cybersecurity education, which is critical as we try to fill the 
pipeline of exceptional cybersecurity talent.
    While there will certainly be new programs and partners involved 
with the implementation of the Act, it is critical that we look to our 
trusted partners, as you already done with NSF-SFS CyberCorps, that we 
know will do a tremendous job and deserve additional support to 
continue the necessary work in cybersecurity education. The NSA's 
Center of Academic Excellence in Cyber Operations and GenCyber Summer 
Camp programs are exactly the type of cybersecurity education partners 
that deserve direct support as this Act is implemented.
    I welcome the chance to provide additional guidance and feedback on 
S.1353 as it has the potential to help mature cybersecurity education a 
great deal across the Nation.
                                 ______
                                 
                                          Intel Corporation
                                  Washington, DC, February 18, 2014

Hon. John Thune,
Chairman,
United States Senate ,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
United States Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Senate Commerce, Science, and Transportation Committee Hearing, 
            ``Building a More Secure Cyber Future: Examining Private 
            Sector Experience with the NIST Framework''

Dear Chairman Thune and Ranking Member Nelson:

    Intel Corporation commends you for holding a full committee hearing 
on February 4, 2015, ``Building a More Secure Cyber Future: Examining 
Private Sector Experience with the NIST Framework,'' and we thank you 
for the opportunity to submit written testimony for the record.
    We appreciate the Committee's attention to cybersecurity--advancing 
cybersecurity across the global digital infrastructure has long been a 
priority for Intel as well. Indeed, security, along with power-
efficient performance and connectivity, comprise the three computing 
pillars around which Intel concentrates our innovation efforts, and 
Intel has long shared the sentiment that we cannot delay in 
collectively addressing the evolving cybersecurity threats facing us 
all. Our commitment to cybersecurity has extended to the Framework for 
Improving Critical Infrastructure Cybersecurity (the ``Framework''), 
from its inception through its early implementation. President Obama 
issued Executive Order 13636--Improving Critical Infrastructure 
Cybersecurity, in February 2013, and over the ensuing year Intel 
collaborated with government and industry stakeholders to develop the 
Framework. The first version of the Framework was delivered on February 
12, 2014, and soon thereafter Intel launched a pilot project to test 
the Framework's use at Intel.
    Intel's pilot project assessed cybersecurity risk for our Office 
and Enterprise infrastructure, and demonstrated that the Framework 
provided clear benefit to Intel. We focused on developing a use case 
that would create a common language and encourage the use of the 
Framework as a process and risk management tool, rather than as a set 
of static compliance requirements. Our early experience with the 
Framework helped us harmonize our risk management technologies and 
language, improve our visibility into Intel's risk landscape, inform 
risk tolerance discussions across our company, and enhance our ability 
to set security priorities, develop budgets, and deploy security 
solutions. The pilot resulted in a set of reusable tools and best 
practices for utilizing the Framework to assess infrastructure risk; we 
plan to use these tools and best practices to expand Intel's use of the 
Framework. It is our hope that other organizations follow the path we 
forged in demonstrating the value of the Framework when it is put in 
action, by developing their own Framework use cases and driving 
adoption of the Framework. A detailed account of our pilot project and 
the benefits we derived from using the Framework is contained in the 
attached white paper, The Cybersecurity Framework in Action: An Intel 
Use Case, which we respectfully attach for the record.
    Thank you again for devoting your Committee's resources to 
addressing our cybersecurity challenges, and for providing oversight 
over the Framework. The Framework embodies a longstanding pillar of 
Intel's cybersecurity strategy: supporting collaboration between 
government, industry, and non-governmental organization stakeholders to 
improve cybersecurity in a way that promotes innovation, protects 
citizens' privacy and civil liberties, and preserves the promise of the 
Internet as a driver of global economic development and social 
interaction. We look forward to collaborating with the Committee to 
achieve our mutual goals moving forward. For more information, please 
contact John Miller.
            Best regards,
                                        Peter M. Cleveland,
                                                    Vice President,
                                            Global Public Policy Group.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                        Retail Industry Leaders Association
                                    Arlington, VA, February 4, 2015

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the Retail Industry Leaders Association (RILA), I 
write to thank you for holding today's hearing entitled, ``Building a 
More Secure Cyber Future: Examining Private Sector Experience with the 
NIST Framework.'' Retailers greatly appreciate the Committee's 
leadership in seeking to find a sensible path to address critical 
cybersecurity issues.
    RILA is the trade association of the world's largest and most 
innovative retail companies. RILA members include more than 200 
retailers, product manufacturers, and service suppliers, which together 
are responsible for more than $1.5 trillion in annual sales, millions 
of American jobs and more than 100,000 stores, manufacturing facilities 
and distribution centers domestically and abroad.
    Retailers embrace innovative technology to provide American 
consumers with unparalleled services and products online, through 
mobile applications, and in our stores. While technology presents great 
opportunity, nation states, criminal organizations, and other bad 
actors also are using it to attack businesses, institutions, and 
governments. As we have seen, no organization is immune from attacks 
and no security system is invulnerable. Retailers understand that 
defense against cyber-attacks must be an ongoing effort, evolving to 
address the changing nature of the threat. RILA is committed to working 
with Congress to give government and retailers the tools necessary to 
thwart this unprecedented attack on the United States (U.S.) economy 
and bring the fight to cybercriminals around the globe.
    As leaders in the retail community, we are taking new and 
significant steps to enhance cybersecurity throughout the industry. To 
that end, RILA formed the Retail Cyber Intelligence Sharing Center (R-
CISC) in 2014 in partnership with America's most recognized retailers. 
The Center has opened a steady flow of information sharing between 
retailers, law enforcement and other relevant stakeholders. These 
efforts already have helped prevent data breaches, protected millions 
of American customers and saved retailers millions of dollars. The R-
CISC is open to all retailers regardless of their membership in RILA.
    For years, RILA members have been developing and deploying new 
technologies to achieve pioneering levels of security and service. The 
cyber-attacks that our industry faces change every day and our members 
are building layered and resilient systems to meet these threats. Key 
to this effort is the ability to design systems to meet actual threats 
rather than potentially outdated cybersecurity standards that may be 
enshrined in law. That is why development of any technical 
cybersecurity standards beyond a mandate for reasonable security must 
be voluntary and industry-led such as the standards embodied in the 
National Institute of Standards and Technology Cybersecurity Framework. 
RILA members using the Framework have found it to be a helpful tool in 
evaluating their cybersecurity posture and support the continued use of 
voluntary, industry-led processes as a key method of addressing dynamic 
technology challenges.
    One area of cybersecurity that needs immediate attention is payment 
card technology. RILA members have long supported the adoption of 
stronger debit and credit card security protections. The woefully 
outdated magnetic stripe technology used on cards today is the chief 
vulnerability in the payments ecosystem. This 1960s era technology 
allows cyber criminals to create counterfeit cards and commit fraud 
with ease. Retailers continue to press banks and card networks to 
provide U.S. consumers with the same Chip and PIN technology that has 
proven to dramatically reduce fraud when it has been deployed elsewhere 
around the world. According to the Federal Reserve, PINs on debit cards 
make them 700 percent more secure than transactions authorized by 
signature.\1\
---------------------------------------------------------------------------
    \1\ Federal Reserve, ``2011 Interchange Fee Revenue, Covers Issuer 
Costs, and Covered Issuer and Merchant Fraud Losses Related to Debit 
Card Transactions,'' (March 5, 2013).
---------------------------------------------------------------------------
    Increasing cyber threat information sharing is also vital to 
defeating sophisticated and coordinated cyber actors. RILA strongly 
supports cybersecurity information sharing legislation that provides 
liability protections for participating organizations. Legislation also 
should increase funding for government sponsored research into next 
generation security controls and enhance law enforcement capabilities 
to investigate and prosecute criminals internationally. The cyber-
attacks faced by every sector of our economy constitute a grave 
national security threat that should be addressed from all angles.
    RILA thanks the Committee for holding this important hearing to 
look into the positive private sector experience with the NIST 
Cybersecurity Framework, cyber information sharing legislation, and 
cybersecurity more broadly. We look forward to working with you on 
these vital issues. Should you have any additional questions regarding 
this matter, please feel free to contact Nicholas Ahrens, Vice 
President, Privacy and Cybersecurity.
            Sincerely,
                                      Jennifer M. Safavian,
                      Executive Vice President, Government Affairs.
                                 ______
                                 
 Prepared Statement of Independent Community Bankers of America (ICBA)

             Cybersecurity: The Community Bank Perspective

    On behalf of the more than 6,500 community banks represented by 
ICBA, thank you for convening today's hearing on ``Building a More 
Secure Cyber Future: Examining Private Sector Experience with the NIST 
Framework.'' The financial services industry and community banks are 
typically on the front lines of defending against cybersecurity threats 
and take their role in securing data and personal information very 
seriously. ICBA is pleased to take this opportunity to submit the 
following statement for the record which sets forth the community bank 
perspective on cybersecurity and the National Institute for Standards 
and Technology (NIST) framework.
    All Critical Infrastructure Sectors Must Be Covered and Existing 
Mandates Must Be Recognized. ICBA supports the 2013 Executive Order and 
the NIST framework implementing it because they create a baseline to 
reduce cyber risk to all critical infrastructure sectors. This is a 
critical test for any new legislation, frameworks, or standards in the 
area of data security: It should extend comparable standards to all 
critical infrastructure sectors, including the commercial facilities 
sector which incorporates the retail industry and other potentially 
vulnerable entities. Financial institutions have long been subject to 
rigorous and effective data security protocols established by the 
Gramm-Leach-Bliley Act. Any new data security mandates must recognize 
the existing standards and practices community banks observe to protect 
the confidentiality and integrity of customer personal data as well as 
to mitigate cyber threats.
    Threat Information Sharing is Critical. ICBA supports the sharing 
of advanced threat and attack data between Federal agencies and the 
appropriate financial sector participants, including community banks. 
Community banks rely on this critical information to help them manage 
their cyber threats and protect their systems. ICBA supports community 
banks' involvement with services such as the Financial Services 
Information Sharing and Analysis Center (FS-ISAC). The FS-ISAC is a 
non-profit, information-sharing forum established by financial services 
industry participants to facilitate the public and private sectors' 
sharing of physical and cybersecurity threat and vulnerability 
information. ICBA also supports FS-ISAC efforts to take complex threat 
information across communities, people and devices and analyze, 
prioritize, and route it to users in real-time as long as those efforts 
incorporate community banks and such advancements are cost effective to 
community banks.
    Regulators Should Recognize Third Party Risk. Community banks 
significantly rely on third parties to support their systems and 
business activities. While community banks are diligent in their 
management of third parties, mitigating sophisticated cyber threats to 
these third parties, especially when they have connections to other 
institutions and servicers, can be challenging. Regulators must be 
aware of the significant interconnectivity of these third parties and 
must collaborate with them to mitigate this risk. This can be done by 
agencies evaluating the concentration risks of service providers to 
financial institutions, and broadening supervision of technology 
service providers to include more core, IT service providers by 
expanding the Multi-Regional Data Processing Servicer Program (MDPS) to 
include such providers.
    Properly Aligned Incentives Will Enhance Data Security and 
Cybersecurity. When an entity's systems are breached, it is critical 
that the party that incurs the breach, whether it be a retailer, 
financial institution, data processor or other entity, bear 
responsibility for the related fraud losses and costs of mitigation. 
Allocating financial responsibility with the party that incurs the 
breach will provide a strong incentive for all parties to effectively 
secure data.
    Additionally, aligning incentives to maximize data security and 
cybersecurity by all parties that process and/or store consumer data 
will make the payments system stronger over time.
    Thank you again for convening today's hearing. ICBA looks forward 
to working with the Senate Committee on Commerce, Science, and 
Transportation to improve cybersecurity.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Dr. Charles H. Romine
    Question 1. Dr. Romine, in follow up to my question at the hearing, 
please provide for the record examples of products and services that 
the private sector is developing to support use of the Framework.
    Answer. A variety of products and services have been developed by 
the private sector, including, but not limited to, implementation 
guides, mappings to the Framework, case studies, educational materials, 
example profiles, and other document templates. Recently, NIST added an 
``Industry Resources'' link to the Cybersecurity Framework website 
(www.nist.gov/cyberframework) which is a non-exhaustive list of these 
resources to share for broader use.
    It is important to note that in doing this certain commercial 
entities, equipment, or materials may be identified in this Website or 
linked websites in order to support Framework understanding and use. 
Such identification is not intended to imply recommendation or 
endorsement by NIST, nor is it intended to imply that the entities, 
materials, or equipment are necessarily the best available for the 
purpose.

    Question 2. In response to my question, you testified briefly 
regarding the feedback NIST has received in its draft Guide to Cyber 
Threat Information Sharing. NIST also has identified automated 
indicator sharing as one of the areas for development, alignment, and 
collaboration in its Roadmap for Improving Critical Infrastructure 
Cybersecurity released on February 12, 2014. Would you please elaborate 
on NIST's work to develop technical standards for information sharing, 
including machine-to-machine sharing, for use in both the public and 
private sectors?
    Answer. While the NIST draft Special Publication 800-150, Guide to 
Cyber Threat Information Sharing, provides high-level guidance on how 
to form, join, and effectively participate in information sharing 
communities, NIST has also participated in, and led significant 
initiatives to develop technical standards for information sharing. 
NIST's Security Content Automation Protocol (SCAP) specifications 
provide low-level technical guidance in support of automated 
information exchange. SCAP is a suite of interoperable open technical 
specifications, developed through ongoing public-private collaboration, 
that enable automated, machine-to-machine exchange of information. 
SCAP-validated tools can be used to evaluate the security posture of an 
IT system. SCAP is used to describe known security vulnerabilities, 
identify configuration issues, and to collect system artifacts that can 
attest to the system's current security state and to develop and 
publish indicators.
    In addition to our role in the development of the SCAP 
specifications, NIST operates the National Vulnerability Database 
(NVD), the U.S. government repository of SCAP content. The NVD 
repository includes information regarding over 68,000 known software 
flaws, 281 security checklists that provide security configuration 
guidance for operating systems and applications, and over 101,000 
product names and identifiers. The NVD-hosted SCAP content and 
resources are widely used by both public and private sector 
organizations, including many commercial anti-virus software 
developers.
    NIST continues to engage with both the private sector and Federal 
departments and agencies to help develop and refine technical 
specifications that enable the near-real-time exchange of cyber threat 
indicators. Through its participation in consensus-driven standards 
development efforts, such as the International Organization for 
Standardization's (ISO) Joint Technical Committee 1 (JTC1), NIST is 
able to help advance the development of technical specifications that 
enable the creation, use, and automated exchange of indicator data.

    Question 3. In addition to automated indicator sharing, NIST 
identified a number of additional areas for development, alignment, and 
collaboration in its Roadmap for Improving Critical Infrastructure 
Cybersecurity, released on February 12, 2014. Subsequently, on December 
5, 2014, NIST released an update reflecting the responses and feedback 
received in response to its August 26, 2014, Request for Information. 
Please provide an update on NIST's role, current status, and path 
forward to address each of the following areas: authentication, 
conformity assessment, cybersecurity workforce, data analytics, Federal 
agency cybersecurity alignment, supply chain risk management, and 
technical privacy standards.
    Answer. NIST's role in cybersecurity is to develop information 
security standards, guidelines, tests, and metrics to protect non-
national security Federal information, systems, and services against 
threats impacting their confidentiality, integrity and availability, by 
conducting research that generates the data needed to support these 
tools. As part of this mission, NIST facilitates and plays an active 
role in the development of voluntary, industry-led cybersecurity 
standards and best practices. NIST accomplishes its mission in 
cybersecurity through collaborative partnerships with our customers and 
stakeholders in industry, government, academia, standards organizations 
and international partners.
    The Roadmap for Improving Critical Infrastructure Cybersecurity 
highlighted several areas identified by stakeholders that require 
continued focus; they are important but evolving areas that have yet to 
be developed or need further research and understanding. While tools, 
methodologies, and standards exist for some of the areas, they need to 
become more mature, available, and widely adopted. NIST continues to 
work with stakeholders in each of these areas to identify primary 
challenges, solicit input to address those identified needs, and 
collaboratively develop and execute action plans for addressing them. 
NIST is actively engaging with diverse stakeholders through existing 
programs, including the National Strategy for Trusted Identities in 
Cyberspace (NSTIC) and the National Initiative for Cybersecurity 
Education (NICE), to identify primary challenges, solicit input, and 
develop and execute plans to address those identified needs in each of 
the areas identified in the roadmap.

    Question 4. The U.S. Chamber of Commerce has noted that standards 
are most effective when developed and recognized globally, which can 
help to prevent the burden of multiple, conflicting jurisdictional 
requirements. The Cybersecurity Enhancement Act (Public Law 113-274) 
recognized NIST's convening role in international standards development 
and required NIST to consult with foreign governments and international 
organizations to support the Framework development process. Please 
elaborate on the importance of global alignment in cybersecurity and 
how NIST has worked with international organizations to promote the 
Framework and the public-private partnership model overseas.
    Answer. Pursuant to U.S. law and Administration policy, Federal 
agencies are required to use voluntary consensus standards in their 
procurement and regulatory activities, except where inconsistent with 
law or otherwise impractical. The U.S. consensus standardization 
community is comprised mostly of non-governmental standards developers. 
These groups are primarily shaped by extensive industry participation 
and are market driven. U.S. government participation is motivated by 
the need to achieve cost-efficient, timely and effective solutions to 
regulatory, procurement and policy objectives. These diverse 
motivations are mutually beneficial.
    Meanwhile, many governments are proposing and enacting strategies, 
policies, laws, and regulations covering information technology for 
critical infrastructure. Because many organizations and most sectors 
operate globally or rely on the global digital infrastructure, these 
requirements are affecting, or may affect, how organizations operate, 
conduct business, and develop new products and services. Diverse or 
specialized requirements that vary by country or region, can impede 
interoperability, result in duplication, harm cybersecurity, and hinder 
innovation. In turn, this can significantly reduce the availability and 
use of innovative technologies to critical infrastructures in all 
industries and hamper the ability of organizations to operate globally 
and to effectively manage new and evolving risks.
    Because the Framework references globally accepted standards, 
guidelines and practice, organizations domiciled inside and outside of 
the United States can use the Framework to efficiently operate globally 
and manage new and evolving risks.
    During the development of the Framework and since its completion, 
NIST has engaged with foreign governments and private sector entities 
to explain the Framework and seek alignment of approaches when 
possible; worked with industry stakeholders to support their 
international engagement; and exchanged information with standards 
developing organizations, and the public and private sectors to ensure 
the Cybersecurity Framework remains aligned and compatible with 
existing and developing standards and practices.

    Question 5. How has NIST worked with insurance companies in 
particular in developing the Framework? How do insurance policies 
provide an incentive for companies to increase their cybersecurity?
    Answer. During the development of the Framework, NIST sought the 
participation of insurance companies, given their extensive knowledge 
of the effectiveness of specific cybersecurity practices and their 
ability to help evaluate specific proposed elements from this 
perspective. This collaboration included a panel at the 4th 
Cybersecurity Framework Workshop in Dallas, Texas, where panelists from 
AIG, ACE USA, Willis, and Lockton answered questions from the audience, 
and discussed the current state of the cybersecurity insurance market, 
how the Cybersecurity Framework could help insurance carriers grow the 
first-party market and be incorporated into underwriting/brokering 
processes, and anticipated challenges that may arise. According to the 
Department of Homeland Security--who NIST has partnered with on 
projects relating to cybersecurity insurance industry: ``A robust 
cybersecurity insurance market could help reduce the number of 
successful cyber attacks by: (1) promoting the adoption of preventative 
measures in return for more coverage; and (2) encouraging the 
implementation of best practices by basing premiums on an insured's 
level of self-protection.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.dhs.gov/publication/cybersecurity-insurance
---------------------------------------------------------------------------
    As industry continues to use the Framework, and insurance companies 
leverage the Framework to provide policies and services, NIST will 
continue to work with them to understand their specific implementations 
and how it could inform future work.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                         Dr. Charles H. Romine
    Question. The Framework itself is voluntary and based upon a risk 
management model, as opposed to compliance with rote standards. 
Wouldn't the concept of a mandatory survey be counter to the voluntary 
approach adopted by NIST, and could it impact the use of the Framework 
if private sector owners and operators of critical infrastructure view 
using the Framework as being linked to new reporting requirements? 
Please provide your perspective on the mandatory survey proposal.
    Answer. NIST believes that a mandatory survey would be premature 
and will not provide meaningful results to help determine the adoption 
of the Framework. Adding a mandatory reporting requirement on top of a 
voluntary Framework could create confusion about the intent of the 
Executive Order and lead to less participation and use of the 
Framework, as well as reduce trust in NIST's consensus development 
process adversely affecting future participation.
    After some time has passed, measurement of use and effectiveness of 
the Framework is an element of NIST's plans. Costs (including burden on 
companies) and benefits of doing that as well as alternative options 
would be considered at that time. Measurement should also include how 
products and services--and the overall market forces--are supporting 
use of the Framework, and where legislative changes may assist with 
use.
    Based on feedback from the private sector, the immediate focus of 
the Administration is on raising awareness about the value of the 
voluntary Framework in addressing and reducing risk, and encouraging 
its use. NIST continues to hear from the private sector--including our 
most recent discussions with leaders across many sectors--that raising 
awareness and stimulating use are the essential first steps on the path 
to achieving effectiveness.
    NIST believes that this is the pathway to effectiveness. Concerns 
about cybersecurity and risk need to be integrated into each 
organization's approach for doing business. There is no single, 
definitive and universal end point for improving quality or 
cybersecurity. NIST is asking organizations to do a serious evaluation 
of their current cybersecurity practices and develop plans to improve 
their capabilities through use of the Framework--a process that will 
take time.
    NIST is also seeing a range of products and services being 
developed or modified to assist organizations use the Cybersecurity 
Framework. The Administration is also working to ensure that this 
approach can scale globally--as NIST sees that alignment it's likely to 
also see increased use of the Framework for companies with 
international business.
    The voluntary nature of the framework in enabling a larger number 
of stakeholders to use the underlying practices--choosing a subset for 
a mandatory survey might create an impression that only this subset 
should use the Framework. The private sector voluntarily participated 
in the Framework development process and NIST has found that 
organizations are willing to discuss how they are using or intend to 
use the Framework. NIST will work with DHS on their sector-wide 
assessments, monitor surveys that private sector organizations conduct, 
and will continue to receive information through workshops, meetings, 
and potentially future Requests for Information. Much of this will be 
geared to gathering information on how to improve future versions of 
the Framework.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Ann M. Beauchesne
    Question 1. In August 2013, the Department of Commerce Internet 
Policy Taskforce released a series of recommendations incorporating 
stakeholder input for ways the government could incentivize use of the 
framework. The U.S. Chamber of Commerce has also suggested a number of 
incentives. What incentives do you think would have the biggest impact 
on business behavior?
    Answer. The U.S. Chamber generally separates the cybersecurity 
incentives discussion into two categories--(1) incentives related to 
information sharing and (2) incentives related to using risk management 
tools like the National Institute of Standards and Technology (NIST) 
Framework for Improving Critical Infrastructure Cybersecurity (the 
framework).
    First, incentives spurring bidirectional information about cyber 
threats among multiple government and private entities are most 
important to Chamber members. The Chamber needs Congress to send a bill 
to the president that gives businesses legal certainty that they are 
protected from liability when voluntarily sharing and receiving threat 
indicators and countermeasures in real time and taking actions to 
mitigate cyberattacks.
    The legislation also needs to offer protections related to public 
disclosure, regulatory, and antitrust matters in order to increase the 
timely exchange of information among public and private entities. The 
Chamber believes that legislation needs to safeguard privacy and civil 
liberties and establish appropriate roles for civilian and intelligence 
agencies. At the time of this writing, the draft Cybersecurity 
Information Sharing Act of 2015 (CISA) goes the furthest compared with 
other proposals in addressing the legal and policy priorities that the 
Chamber has been pushing for several years.
    Second, the Chamber appreciates that the administration is 
considering a limited number of incentives for the private sector to 
voluntarily use the framework.\1\ However, the most important incentive 
that the administration and lawmakers could extend to companies is the 
assurance that the cybersecurity framework would remain collaborative, 
flexible, and innovative over the long term. The Chamber believes that 
the presence of these qualities, or the lack thereof, would be a key 
determinant to participation by businesses, including critical 
infrastructure, in using the framework.
---------------------------------------------------------------------------
    \1\ www.whitehouse.gov/blog/2015/02/02/strengthening-cyber-risk-
management
---------------------------------------------------------------------------
    Ultimately, policymakers need to meet with each critical 
infrastructure sector to discuss what businesses need to potentially 
encourage greater use of the cybersecurity framework. The right 
incentives may be available or they may need to be created. In April 
2013, the Chamber sent NIST a letter regarding businesses' use of the 
framework and the role of incentives.
    Here are some incentives that are frequently discussed by public 
and private sector stakeholders, which the Chamber is willing to 
consider:

  <bullet> Extending liability protections (information sharing). 
        Businesses seek to participate in the online equivalent of a 
        Neighborhood Watch program for cybersecurity. Companies' 
        security professionals want to exchange cyber threat 
        information and vulnerabilities with their peers and 
        government--but they fear being sanctioned for doing the right 
        thing. The Chamber strongly urges Congress to pass an 
        information-sharing bill this year with strong protections 
        related to liability, public disclosure, regulatory, and 
        antitrust concerns.

  <bullet> Extending liability protections (framework). Congress may 
        consider extending liability protections to companies that 
        voluntarily adopt the cybersecurity framework. This is a 
        welcome option. However, our experience with S. 3414, the 
        Cybersecurity Act of 2012, demonstrates that the level of 
        protection authorized in the bill (i.e., against punitive 
        damages sought in a lawsuit) was relatively weak. The bill 
        provided insufficient protection to sway businesses' decision 
        making in favor of the legislation. In other words, the stick 
        was considerably bigger than the carrot.

  <bullet> Extending liability protections (SAFETY Act). The 
        administration and Congress are expected to assess how the 
        Support Anti-terrorism by Fostering Effective Technologies Act 
        of 2002 (SAFETY Act) could allow for legal liability 
        protections for providers of qualified cybersecurity 
        technologies. The act is intended to expand the development and 
        commercialization of innovative products and services to 
        mitigate significant cybersecurity incidents. This may require 
        a review and possibly a modification of the events that would 
        trigger SAFETY Act coverage and the types of technologies and 
        services that would be covered. House cybersecurity legislation 
        in the 113th Congress (H.R. 3696) contained such as provision.

  <bullet> Harmonizing cybersecurity regulations. Information-security 
        requirements should not be cumulative. The Chamber believes it 
        is valuable that agencies and departments are urged under the 
        2013 cybersecurity executive order (EO) to report to the Office 
        of Management and Budget any critical infrastructure subject to 
        ``ineffective, conflicting, or excessively burdensome 
        cybersecurity requirements.'' The Chamber urges the 
        administration and Congress to prioritize eliminating 
        burdensome regulations on businesses. One solution could entail 
        giving businesses credit for information security regimes that 
        exist in their respective sectors. It is positive that Michael 
        Daniel, the administration's lead cyber official, has made 
        harmonizing existing cyber regulations with the framework a 
        priority in a February 2, 2015, blog.

  <bullet> Leveraging Federal procurement. The Chamber generally 
        supports a government procurement process that rewards vendors 
        that follow industry-recognized cybersecurity guidance. 
        However, we are concerned about the unintended consequences of 
        procurement incentives, such as a program that leads to one-
        size-fits-all outcomes or to artificially chosen technology 
        winners and losers. The Chamber urges the administration to be 
        mindful of how procurement incentives, however beneficial in 
        the American context, could prompt foreign governments to 
        emulate this policy as a way of restricting U.S. companies' 
        access to overseas markets.

    The Chamber cautions against expanding the scope of section 8 of 
        the 2013 cybersecurity EO.\2\ The administration recognizes 
        that it should not determine how companies design, develop, and 
        manufacture their technology and products. There are well-
        established laws and policies on the books to ensure that 
        government procurement processes leverage--rather than 
        duplicate and weaken--industry-led, international technology 
        standards and best practices.
---------------------------------------------------------------------------
    \2\ www.whitehouse.gov/the-press-office/2013/02/12/executive-order-
improving-critical-infrastructure-cybersecurity

  <bullet> Making the research and development (R&D) tax credit 
        permanent. Congress should make the R&D tax credit permanent to 
        help businesses adopt a multilayered cybersecurity program that 
        matures over time in relation to risks. This is particularly 
        important for small and midsize company owners and operators 
        who typically lack the money and human talent to deploy a 
---------------------------------------------------------------------------
        sophisticated program.

    Question 2. The U.S. Chamber has noted that standards are most 
effective when developed and recognized globally, which can help 
prevent the burden of multiple, conflicting jurisdictional 
requirements.
    The Cybersecurity Enhancement Act (Public Law 113-274) recognized 
NIST's convening role in international standards development and 
required NIST to consult with foreign governments and international 
organizations to support the framework development process. How can the 
U.S. Chamber leverage its members' global operations to facilitate this 
international alignment?
    Answer. The Chamber is urging U.S. and foreign government officials 
to align international cybersecurity regimes with the framework. Many 
Chamber members operate globally. We applaud NIST for actively meeting 
with foreign officials urging them to embrace the framework. Like NIST, 
the Chamber believes that efforts to improve the cybersecurity of the 
public and private sectors should reflect the borderless and 
interconnected nature of our digital environment.
    Standards, guidance, and best practices relevant to cybersecurity 
are typically industry driven and adopted on a voluntary basis. They 
are most effective when developed and recognized globally. Such an 
approach would avoid burdening multinational enterprises with the 
requirements of multiple, and often conflicting, jurisdictions.
    The Chamber is planning to hold meetings in May in Berlin and 
Brussels with U.S. and European public officials and industry 
representatives to discuss issues of mutual interest including the 
cybersecurity framework, digital innovation, international data flows, 
and data privacy. Our organization intends to engage additional 
countries and regions globally.
    Meanwhile, the Chamber urges the administration to organize 
opportunities for stakeholders to participate in multinational 
discussions. We encourage the Federal Government to work with 
international partners and believe that these discussions should be 
stakeholder driven and occur on a routine basis.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                           Ann M. Beauchesne
    Question 1. You state in your testimony that the NIST framework is 
incomplete without Congress enacting information-sharing legislation. 
Can you elaborate on this? Is it fair to say that, in the same sense 
the NIST framework is voluntary, that the sharing of cyber threat 
indicators must be voluntary as well?
    Answer. I would like to begin with part two of this question by 
saying that cybersecurity information sharing must be voluntary. The 
U.S. Chamber would oppose any program mandating that companies report 
cyber threat data to the government, save for what companies agree to 
via contract.
    Improving information sharing should be job No. 1 for policymakers. 
The National Institute of Standards and Technology's (NIST's) Framework 
for Improving Critical Infrastructure Cybersecurity (the framework) 
would be incomplete without enacting information-sharing legislation 
that removes legal and regulatory barriers to rapidly exchanging data 
about threats to U.S. companies. On January 27, 35 associations, 
including the Chamber, urged the Senate to quickly pass a cybersecurity 
information-sharing bill. The Senate Intelligence committee passed in 
July the Cybersecurity Information Sharing Act (CISA) of 2014, a smart 
and workable bill, which earned broad bipartisan support.
    Recent cyber incidents underscore the need for legislation to help 
businesses improve their awareness of cyber threats and enhance their 
protection and response capabilities. The Chamber urges Congress to 
send a bill to the president that gives businesses legal certainty that 
they have safe harbor against frivolous lawsuits when voluntarily 
sharing and receiving threat indicators and countermeasures in real 
time with multiple private and public entities, as well as when 
monitoring information systems to mitigate cyberattacks. The 
legislation also needs to offer protections related to public 
disclosure, regulatory, and antitrust matters in order to increase the 
timely exchange of technical cyber threat indicators (CTIs) and 
countermeasures among public and private entities.
    The Chamber further believes that legislation needs to safeguard 
privacy and civil liberties and establish appropriate roles for 
civilian and intelligence agencies. For example, businesses must remove 
personal information from CTIs before sharing indicators. Private 
entities must share ``electronic mail or media, an interactive form on 
an Internet website, or a real time, automated process between 
information systems'' with DHS--a civilian entity--if they are to be 
offered protection from liability.
    CISA, which is sponsored by Sens. Richard Burr and Dianne 
Feinstein, reflects practical compromises among many stakeholders on 
these issues. At the time of this writing, the measure was marked up on 
March 12 and reported to the full Senate on a strong bipartisan vote of 
14-1. The Chamber urges the Senate to pass CISA soon.

    Question 2. In your testimony, you cited the need for the U.S. 
government to raise the costs on malicious cyber-attackers through an 
intelligent and forceful deterrence strategy. Can you elaborate what a 
cyber-deterrence strategy should look like?
    Answer. The Chamber is reviewing actions that businesses and 
government can take to deter nefarious actors that threaten to empty 
bank accounts, steal trade secrets, or damage vital infrastructures. 
While our organization has not formally endorsed the report, the U.S. 
Department of State's International Security Advisory Board (ISAB) 
issued in July draft recommendations regarding cooperation and 
deterrence in cyberspace.
    The ISAB's recommendations--including cooperating on crime as a 
first step, exploring global consensus on the rules of the road, 
enhancing governments' situational awareness through information 
sharing, combating IP theft, expanding education and capacity building, 
promoting attribution and prosecution, and leading by example--are 
sensible and worthy of further review by cybersecurity stakeholders.\1\
---------------------------------------------------------------------------
    \1\ The ISAB report is available at www.state.gov/documents/
organization/229235.pdf.
---------------------------------------------------------------------------
    The Chamber believes that the United States needs to coherently 
shift the costs associated with cyberattacks in ways that are legal, 
swift, and proportionate relative to the risks and threats. 
Policymakers need to help the law enforcement community, which is a key 
asset to the business community but numerically overmatched compared 
with illicit hackers.\2\
---------------------------------------------------------------------------
    \2\ The Chamber argued for a clear cyber deterrence strategy in its 
December 2013 letter to NIST on the framework. See http://
csrc.nist.gov/cyberframework/framework_comments/2013
1213_ann_beauchesne_uschamber.pdf.
---------------------------------------------------------------------------
    The Chamber would welcome working with you, other lawmakers, and 
the administration on establishing an effective cyber deterrence 
strategy, using an array of policy tools that the United States lacks.

    Question 3. The framework itself is voluntary and based upon a risk 
management model, as opposed to compliance with rote standards. 
Wouldn't the concept of a mandatory survey be counter to the voluntary 
approach adopted by NIST, and could it impact the use of the framework 
if private sector owners and operators of critical infrastructure view 
using the framework as being linked to new reporting requirements? 
Please provide your perspective on the mandatory survey proposal.
    Answer. The framework is a remarkable public-private achievement. 
NIST worked closely with the Chamber's Cybersecurity Working Group and 
other private sector organizations to develop the framework. NIST 
treated the business community as a genuine partner as it tackled a 
tough assignment in ways that should serve as a model for other 
agencies and departments.
    Generally, the Chamber does not survey its members, which we have 
also communicated to Sen. Nelson. However, the Chamber is committing 
substantial resources to promoting the framework to its membership and 
the wider business community. As highlighted in my testimony, the 
Chamber has organized an extensive, ongoing cybersecurity education and 
advocacy campaign--Improving Today, Protecting Tomorrow <SUP>TM</SUP>--
partnering with state and local chambers to host events in Chicago, 
Austin, Seattle, and Phoenix.
    The Chamber also hosted a number of events in Washington, D.C., 
including America's Small Business Summit 2014 and the Third Annual 
Cybersecurity Summit, where discussion of the framework was prominently 
featured. Further, we are planning events this year to build on the 
success of the 2014 campaign.
    Use of the framework is voluntary--not mandatory--which is why many 
businesses and public-sector organizations, such as county IT 
departments, have embraced it. Industry's interest in cybersecurity and 
the framework is robust and expanding. Michael Daniel, White House 
special assistant to the president and cybersecurity coordinator, said 
in September 2014 at the Chamber's third cyber roundtable in Seattle 
that industry's response to the framework has been ``phenomenal.''
    The Chamber supported the Cybersecurity Enhancement Act of 2014 (S. 
1353, P.L. 113-274), sponsored by Sens. Rockefeller and Thune and 
signed into law on December 18, 2014. The act directs the comptroller 
general to conduct a study assessing the extent to which ``sectors of 
critical infrastructure have adopted a voluntary, industry-led set of 
standards,'' and ``the reasons behind the decisions'' of critical 
infrastructure to do so. The Chamber believes that this study would 
offer much more insight about framework use than a mandatory survey of 
individual firms.
    It is worth adding that critical infrastructure sectors are keenly 
aware of and supportive of the framework and similar risk management 
tools. The Chamber understands that critical infrastructures at 
``greatest risk'' (CIGR) have been identified and engaged by 
administration officials under the terms of the 2013 cybersecurity 
executive order (EO).\3\ If the United States is to build a more secure 
cyber future, the Chamber urges you and other government officials to 
ensure that all resources, particularly the latest cyber threat 
information, are available to CIGR to counter increasing and advanced 
threats.
---------------------------------------------------------------------------
    \3\ www.whitehouse.gov/the-press-office/2013/02/12/executive-order-
improving-critical-infrastructure-cybersecurity
---------------------------------------------------------------------------
    At the time of this writing, it is not clear that Federal entities 
such as the Department of Homeland Security (DHS) have utilized all 
resources at their disposal to help CIGR mitigate expensive 
cyberattacks emanating from highly advanced and nefarious actors. 
Policymakers have not sufficiently acknowledged this expensive, 
practical reality. Nation-states or their proxies and other 
sophisticated criminal actors are apparently hacking businesses with 
impunity. This needs to stop.

    Question 4. Ms. Beauchesne, in your testimony you cite the need to 
harmonize preexisting regulations on cybersecurity. Please submit for 
record specific details regarding which agencies and what regulations 
are duplicative, burdensome, inconsistent, or otherwise in conflict 
with the NIST framework and our goal of better cybersecurity.
    Answer. Information-security requirements should not be cumulative. 
The Chamber believes it is valuable that agencies and departments are 
urged under the 2013 cybersecurity EO to report to the Office of 
Management and Budget any critical infrastructure subject to 
``ineffective, conflicting, or excessively burdensome cybersecurity 
requirements.'' We urge the administration and Congress to prioritize 
eliminating burdensome regulations on businesses.\4\ Thus, it is 
positive that Michael Daniel, the administration's lead cyber official, 
has made harmonizing preexisting cyber regulations with the framework a 
priority.\5\
---------------------------------------------------------------------------
    \4\ The business community already complies with multiple 
information security rules. Among the regulatory requirements impacting 
businesses of all sizes are the Chemical Facilities Anti-Terrorism 
Standards (CFATS), the Federal Energy Regulatory Commission-North 
American Reliability Corporation Critical Information Protection (FERC-
NERC CIP) standards, the Gramm-Leach-Bliley Act (GLBA), the Health 
Insurance Portability and Accountability Act (HIPAA), and the Sarbanes-
Oxley (SO<INF>X</INF>) Act. The Securities and Exchange Commission 
(SEC) issued guidance in October 2011 outlining how and when companies 
should report hacking incidents and cybersecurity risks. Corporations 
also comply with many non-U.S. requirements, which add to the 
regulatory mix.
    \5\ www.whitehouse.gov/blog/2015/02/02/strengthening-cyber-risk-
management
---------------------------------------------------------------------------
    The Chamber would defer to leading sector associations and 
companies to determine what works best for them vis-a-vis government 
regulators. The examples that follow partially illustrate the 
challenges involved in streamlining regulations.
    First, some businesses in the communications sector--made up of 
broadcasting, cable, wireline, wireless, and satellite segments--
believe that agency duplication is a growing concern. Multiple 
agencies--including DHS, the Federal Communications Commission (FCC), 
and the National Telecommunications and Information Administration 
(NTIA)\6\--address cybersecurity in the communications sector. Whether 
it is the communications sector or another one, quality cybersecurity 
expertise is hard to attract and retain. Cyber personnel and their 
business colleagues (e.g., with legal and risk management duties) 
should not be unduly stressed battling both advanced hackers and 
Federal regulators. Regulatory overlap could easily lead to conflicting 
rules and the splintering of industry resources, which would be 
detrimental to cybersecurity. Such a problem is not unique to the 
communications sector.
---------------------------------------------------------------------------
    \6\ www.ntia.doc.gov/press-release/2015/iptf-seeks-comment-key-
cybersecurity-issues
---------------------------------------------------------------------------
    Second, financial institutions offer numerous products and services 
that subject them to multiple cybersecurity and information privacy 
programs, including the Gramm-Leach-Bliley Act (GLBA) and various rules 
and guidance issued by Federal and state regulators. Federal financial 
sector regulators work toward harmonizing their mandates across 
agencies through bodies like the Federal Financial Institutions 
Examination Council (FFIEC)\7\ and the Financial and Banking 
Information Infrastructure Committee (FBIIC). Nevertheless, agencies 
commonly leave the interpretation of rules and guidance documents to 
individual agency officials who may interpret them differently, often 
leading to confusing or conflicting recommendations.
---------------------------------------------------------------------------
    \7\ http://ithandbook.ffiec.gov/it-booklets/business-continuity-
planning.aspx
---------------------------------------------------------------------------
    Further, beyond the Federal level, there are several state-based 
financial regulatory entities that create their own guidance and have 
oversight responsibilities, adding to the regulatory mix. The financial 
services industry needs improved consistency and clarity among their 
various regulators to minimize costs while maximizing business safety 
and soundness.
    Third, the natural gas sector is impacted by a long list of 
recommended practices, standards, and guidelines--including the DHS 
Transportation Security Administration (TSA) Pipeline Security 
Guidelines (2011),\8\ the Department of Energy's (DOE's) Cybersecurity 
Capability Maturity Model (C2M2),\9\ and DHS' Cyber Security Evaluation 
Tool (CSET)--which are employed by industry operators to bolster their 
cybersecurity posture and resilience in an all-hazards context. Natural 
gas companies have worked diligently to use one or more of these 
standards and recommended practices. However, as companies are 
increasingly pressured by government agencies to use multiple tools, 
cybersecurity can become more of a record-keeping and compliance 
exercise rather than an exercise in advancing legitimate security.
---------------------------------------------------------------------------
    \8\ www.tsa.gov/assets/pdf/guidelines_final_apr2011.pdf
    \9\ http://energy.gov/oe/services/cybersecurity/cybersecurity-
capability-maturity-model-c2m2-program/cybersecurity
---------------------------------------------------------------------------
    The Chamber hopes that the new Cybersecurity Forum for Independent 
and Executive Branch Regulators can help, according to its fall 2014 
charter, ``identify and explore opportunities to align, leverage, and 
deconflict cross-sector regulatory authorities' approaches and promote 
cybersecurity protection.'' \10\ We would like to maintain a dialogue 
with your office and the Commerce committee as the administration and 
the interagency forum tackle the regulatory streamlining initiative 
tied to the framework.
---------------------------------------------------------------------------
    \10\ http://pbadupws.nrc.gov/docs/ML1428/ML14288A568.pdf; http://
pbadupws.nrc.gov/docs
/ML1501/ML15014A296.pdf
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           Ann M. Beauchesne
    Question 1. I want to follow up on the request I made to you at the 
hearing. Of the 200 or so members that make up the National Security 
Task Force, how many of them have implemented the framework? How many 
members in your general membership have implemented the framework?
    Answer. The U.S. Chamber of Commerce believes that the Framework 
for Improving Critical Infrastructure Cybersecurity (the framework) is 
a remarkable public-private achievement. The National Institute of 
Standards and Technology (NIST) worked closely with the Chamber's 
Cybersecurity Working Group and other private sector organizations to 
develop the framework. NIST treated the business community as a genuine 
partner as it tackled a tough assignment in ways that should serve as a 
model for other agencies and departments.
    Generally, the Chamber does not survey its members. Yet, the 
Chamber is committing substantial resources to promoting the framework 
to its membership and the wider business community. As highlighted in 
my testimony, the Chamber has organized an extensive, ongoing 
cybersecurity education and advocacy campaign--Improving Today, 
Protecting Tomorrow <SUP>TM</SUP>--partnering with state and local 
chambers to host events in Chicago, Austin, Seattle, and Phoenix.
    The Chamber also hosted a number of events in Washington, D.C., 
including America's Small Business Summit 2014 and the Third Annual 
Cybersecurity Summit, where discussion of the framework was prominently 
featured. Further, we are planning events this year to build on the 
success of the 2014 campaign.
    Use of the framework is voluntary, not mandatory, which is why many 
businesses and public-sector organizations, such as county IT 
departments, have embraced it. Industry's interest in cybersecurity and 
the framework is robust and expanding. Michael Daniel, White House 
special assistant to the president and cybersecurity coordinator, said 
in September 2014 at the Chamber's third cyber roundtable in Seattle 
that industry's response to the framework has been ``phenomenal.''
    The Chamber supported the Cybersecurity Enhancement Act of 2014 (S. 
1353, P.L. 113-274), sponsored by Sens. Rockefeller and Thune and 
signed into law on December 18, 2014. The act directs the comptroller 
general to conduct a study assessing the extent to which ``sectors of 
critical infrastructure have adopted a voluntary, industry-led set of 
standards,'' and ``the reasons behind the decisions'' of critical 
infrastructure to do so. The Chamber believes that this study would 
offer much more insight about framework use.
    It is worth adding that critical infrastructure sectors are keenly 
aware of and supportive of the framework and similar risk management 
tools. The Chamber understands that critical infrastructures at 
``greatest risk'' (CIGR) have been identified and engaged by 
administration officials under the terms of the 2013 cybersecurity 
executive order (EO).\1\ If the United States is to build a more secure 
cyber future, the Chamber urges you and other government officials to 
ensure that all resources, particularly the latest cyber threat 
information, are available to CIGR to counter increasing and advanced 
threats.
---------------------------------------------------------------------------
    \1\ www.whitehouse.gov/the-press-office/2013/02/12/executive-order-
improving-critical-infrastructure-cybersecurity
---------------------------------------------------------------------------
    At the time of this writing, it is not clear that Federal entities 
such as the Department of Homeland Security (DHS) have utilized all 
resources at their disposal to help CIGR mitigate expensive 
cyberattacks emanating from highly advanced and nefarious actors. 
Policymakers have not sufficiently acknowledged this expensive, 
practical reality. Nation-states or their proxies and other 
sophisticated criminal actors are apparently hacking businesses with 
impunity. This needs to stop.
    In addition to having policymakers acknowledge cost concerns, the 
Chamber would welcome working with you, other lawmakers, and the 
administration on establishing an intelligent and forceful deterrence 
strategy, using an array of policy tools that the United States lacks.

    Question 2. What is the prevalence of cyber insurance policies 
among members of the U.S. Chamber of Commerce? And what is the amount 
of annual payouts under those policies?
    Answer. The prevalence of cyber insurance among Chamber members is 
unknown. Typically, the Chamber does not ask its members about such 
matters because this information is relatively sensitive.
    We note, however, that more than 50 major insurance providers now 
offer cyber insurance coverage. According to a Marsh Risk Management 
Research report, demand for cyber insurance grew by 21 percent across 
all industries in 2013, compared with 2012, and the pace is increasing. 
Financial institutions accounted for the largest percentage--nearly 30 
percent--of that increase. Other data-intensive sectors, including 
retail/wholesale and professional services, saw increases of 19 percent 
and 13 percent, respectively. It appears that demand for cyber 
insurance is booming as a result of a number of high-profile hacks and 
data breaches, spurring explosive growth in what is approximately a $2 
billion industry.
    The Chamber applauds the insurance industry for developing market-
driven policies to help businesses mitigate losses from a variety of 
cyber incidents, including data breaches, business interruption, and 
network damage. Business purchases of cybersecurity insurance should go 
hand in hand with investments in cybersecurity.
    Cyber insurance risk is challenging to measure, model, and price. 
Nevertheless, growing awareness of the cybersecurity framework and 
almost daily headlines about cyber incidents have stimulated industry's 
interest in cyber insurance. A healthy cyber insurance market should 
play a role in businesses' reducing the number of successful 
cyberattacks by implementing risk management tools in return for more 
coverage.
    The Chamber supports a growing cyber insurance market, which is 
nascent compared with more established lines such as auto, life, and 
health. But, the Chamber would not support public policies either 
compelling insurers to offer cyber insurance or mandating that firms 
buy cyber insurance.
    The Chamber plans to promote cyber risk management tools, including 
cyber insurance, as part of its national roundtable cybersecurity 
series. The campaign emphasizes growing awareness of the framework--
particularly recommending that businesses of all sizes and sectors 
adopt fundamental Internet security practices--and teaming up with law 
enforcement and entities like DHS.
    If the campaign comes to a Florida city, the Chamber would welcome 
having you as a keynote speaker.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Paul N. Smocer
    Question 1. The financial services sector is a leader in cyber 
threat information-sharing innovation, as evidenced by the successful 
collaboration via the FS-ISAC and the creation of Soltra Edge, a new 
threat intelligence-sharing software platform. What are the key 
principles that cyber threat information sharing legislation must 
include to eliminate existing constraints on the activities of the FS-
ISAC and Soltra Edge?
    Answer. The financial services sector realizes that in order to 
appropriately defend itself, threat information sharing is key.
    The FS-ISAC coordinates information sharing today among its member 
institutions, with industry associations, and between financial 
institutions and the Federal Government, law enforcement and other 
critical infrastructure sectors. Information is shared through the 
traffic light protocol (TLP), which allows recipients of the threat 
data to know the sensitivity of the information they receive and their 
ability to share. This allows data to be distributed to the right 
audiences in a more secure and trusted format. Soltra Edge expands on 
the FS-ISAC's trust model for cyber threat information sharing in that 
Soltra Edge is an automation platform that collects, distills, and 
transfers threat intelligence from and to a variety of other sources, 
including, but not limited to the FS-ISAC.
    Because of the level of current sharing that occurs, the financial 
services sector is often and rightly credited as being one of leaders 
in cybersecurity and, particularly, cyber threat information sharing. 
Even at that level though, not everyone participates in sharing and 
even those that do at times become reticent to share. In the latter 
case, this is particularly true when there is some success to an attack 
versus just an attempt to attack. In these cases, issues of liability 
often influence the decisions to share freely.
    One must also recognize that our sector exists in an interconnected 
world. As a sector, we are not an island unto ourselves. We need and 
rely on the sectors that provide us with power, water, 
telecommunications, computing, etc. A key reason for the immaturity in 
those sectors is concern over the potential liabilities associated with 
sharing such information.
    To encourage better information sharing within our sector, in other 
sectors, between the sectors, and to the government, sensible ``Good 
Samaritan'' protections are needed. Without such legislation, cyber 
threat information sharing will not expand beyond those companies that 
already do so to those companies that should do so, but fear litigation 
and potential reputational damage for sharing. In particular, we 
believe that in order to protect current initiatives, such as the FS-
ISAC and Soltra Edge, and to expand cyber threat sharing beyond those 
that already do so, legislation is needed that includes the following 
provisions:

  <bullet> Facilitates real-time sharing to enable institutions and 
        government to act quickly;

  <bullet> Provides a targeted level of liability and disclosure 
        protections for cyber threat information sharing and receiving 
        between individual institutions, through existing sharing 
        mechanisms such as our FS-ISAC, private to government, and 
        government to private;

  <bullet> Offers a good faith defense for the sharing of threat 
        information and data;

  <bullet> Provides protection from disclosure through the Freedom of 
        Information Act or to prudential regulators;

  <bullet> Facilitates the appropriate declassification of information 
        by the intelligence agencies and expedites the issuance of 
        clearances to appropriate private sector individuals; and

  <bullet> Includes appropriate levels of privacy and civil liberties 
        requirements.

    The threat of cyber-attacks is a real and constant danger to our 
industry and to other critical infrastructure sectors upon which we, 
and the Nation as a whole, rely. The financial services industry is 
dedicated to improving our capacity to protect customers and their 
sensitive information. Effective cyber threat information sharing 
mitigates cyber risks to our customers, clients, partners and networks 
from malicious cyber activity.

    Question 2. Mr. Smocer, you mentioned in your testimony that the 
Cybersecurity Forum for Independent and Executive Branch Regulators is 
looking at ways to align and harmonize with the Framework and thus 
streamline regulatory agencies' cybersecurity efforts regarding 
critical infrastructure. Can you tell me how the financial services 
sector will benefit from harmonizing regulatory authorities and 
requirements and how this Forum is facilitating such benefits?
    Answer. According to the Charter for the Independent and Executive 
Branch Regulators, ``[t]he purpose of the voluntary Cybersecurity Forum 
for Independent and Executive Branch Regulators (The Forum) is to 
increase the overall effectiveness and consistency of regulatory 
authorities' cybersecurity efforts pertaining to U.S. Critical 
Infrastructure, much of which is operated by industry and overseen by a 
number of Federal regulatory authorities. The Forum will enhance 
communication among regulatory agencies and regulated entities through 
the sharing of best practices and exploring ways to align, leverage, 
and deconflict approaches to enhance cybersecurity protections, and 
will establish processes to encourage coordination and consistency 
where multiple Agencies have regulatory authority over a common 
industry.'' We laud such an approach and hope that it bears fruit. 
However, as described in our response to Sen. Blunt's question, there 
is some cause for concern.
    Simply, financial institutions are subject to various cyber 
security and information privacy requirements under the Gramm Leach 
Bliley Act and to regulatory standards and guidance issued by numerous 
financial regulators. In today's world, financial institutions often 
are multi-faceted, offering products and services that subject them to 
the regulatory authority of multiple agencies.
    To their credit, the Federal financial sector regulators do attempt 
to bring some consistency to their guidance and regulatory expectations 
across agencies through organizations such as the Federal Financial 
Institutions Examination Council (FFIEC) and the Financial and Banking 
Information Infrastructure Committee (FBIIC). To a limited extent, this 
helps avoid a single organization facing multiple expectations about 
the same operations. Even then, agencies often leave the interpretation 
of that guidance to agency-specific reviewers who may interpret it 
differently. Moreover, beyond the Federal level, there are a plethora 
of state level financial regulators who create their own guidance and 
by law have oversight responsibilities. For financial institutions, 
consistency among their various regulators helps keep down costs and 
overhead while still assuring safety and soundness.
    Beyond our industry though, the financial services sector would 
benefit from harmonizing regulatory standards across critical 
infrastructure sectors, such as telecommunications and electrical 
power. This would help all the sectors that rely upon each other to be 
able to better assess the level of cyber risk between sectors. It would 
better allow agencies responsible for assuring the Nation's cyber 
protection of the consistency of cybersecurity efforts across sectors. 
Practically, as the number of regulators with disparate requirements 
increases, the ability to train and place cybersecurity experts--
already an expertise with a recognized shortage--also becomes more 
taxed.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                             Paul N. Smocer
    Question. Mr. Smocer, in your testimony you mention your concerns 
that some Federal and state agencies have their own approaches to 
regulation that do not align with the Framework.
    Please submit for record specific details regarding which agencies 
and what regulations are duplicative, burdensome, inconsistent, or 
otherwise in conflict with the NIST framework and our goal of better 
cybersecurity.
    Answer. As mentioned in my prior testimony, FSR/BITS is a trade 
association representing the country's leading financial service 
companies. Under current regulatory regimes, some of our individual 
member institutions face regulation from the following regulatory 
bodies:

  <bullet> The Securities and Exchange Commission (SEC);

  <bullet> FINRA;

  <bullet> The Federal Reserve System;

  <bullet> The Office of the Comptroller of the Currency (OCC) ;

  <bullet> The Federal Deposit Insurance Corporation (FDIC);

  <bullet> The Consumer Financial Protection Bureau (CFPB);

  <bullet> The U.S. Commodity Futures Trading Commission (CFTC);

  <bullet> State banking agencies, and

  <bullet> State insurance agencies.

    None of the above regulators, however, are Executive Branch 
agencies. Thus, these agencies are not subject to the President's 
Executive Orders and they do not have to adhere to the Administration's 
directives to harmonize cybersecurity regulations. Perhaps because of 
this, we have seen examples of agencies each asking their own set of 
cybersecurity examination questions that may loosely ``track'' to the 
NIST Cybersecurity Framework, but in substance deviate from agency to 
agency.
    For example:

  <bullet> In April 2014, the SEC's Office of Compliance Inspections 
        and Examinations (OCIE) issued a risk alert in which it 
        announced that it would be conducting cybersecurity-focused 
        examinations of approximately 50+ registered broker-dealers and 
        investment advisors. In this same risk alert (http://
        www.sec.gov/ocie/announcement/
        Cybersecurity+Risk+Alert++%2526+Appendix+-+4.15.14.pdf), OCIE 
        stated that ``some'' of its questions would ``track information 
        outlined in the `Framework for Improving Critical 
        Infrastructure Cybersecurity.'' Of the 28 example questions 
        with subparts not all did.

  <bullet> On November 3, 2014, the FFIEC issued its ``FFIEC 
        Cybersecurity Assessment General Observations.'' This document 
        detailed the FFIEC's cybersecurity examinations of 500+ 
        community institutions and provided cybersecurity areas to 
        focus on and certain questions to consider when considering 
        cybersecurity risk. It did not, however, tie these focus area 
        or questions to the NIST Cybersecurity Framework.\1\
---------------------------------------------------------------------------
    \1\ https://www.ffiec.gov/press/PDF/
FFIEC_Cybersecurity_Assessment_Observations.pdf

  <bullet> Without a reference to the NIST Cybersecurity Framework, the 
        New York State Department of Financial Services issued an 
        ``examination guidance'' to all New York State chartered or 
        licensed banking institutions on December 10, 2014, stating 
        that it would be conducting ``new targeted cybersecurity 
        preparedness assessments'' of these entities.\2\ In this 
        announcement, the Department also announced that as part of 
        that assessment it would be asking 12 specific questions.\3\
---------------------------------------------------------------------------
    \2\ http://www.dfs.ny.gov/about/press2014/pr1412101.htm
    \3\ http://www.dfs.ny.gov/banking/bil-2014-10-10_cyber_security.pdf

  <bullet> On February 3, 2015, FINRA issued its ``Report on 
        Cybersecurity Practices.'' \4\ Like the SEC, it referenced the 
        NIST Cybersecurity Framework. However, in detailing 
        cybersecurity best practices that firms should implement, it 
        did not ``map'' such practices back to the NIST Cybersecurity 
        Framework categories or subcategories. Such an exercise would 
        be left to an individual firm that wished to compare the 
        Framework against this new set of cybersecurity best practices.
---------------------------------------------------------------------------
    \4\ http://www.finra.org/web/groups/industry/@ip/@reg/@guide/
documents/industry/p602363.pdf

    We certainly are glad to see an increasing focus on cybersecurity 
by agencies that play an important role in protecting the financial 
services industry. However, lack of harmonization between agencies and 
with the Cybersecurity Framework means that regulated organizations 
must continually reinvest their resources not in defending themselves 
against cyber assaults, but in assessing and reassessing themselves 
against multiple agency expectations. That is simply not an effective 
approach.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Paul N. Smocer
    Question 1. Some members of the Financial Services Roundtable sell 
insurance products that cover financial losses associated with 
cyberattacks. Do you have any data on how much is being paid out to 
insureds as a result of losses from cyberattacks?
    Answer. FSR does not have, nor do we collect, data on what our 
member companies pay out under various cyber insurance policies.

    Question 2. Last week, the press reported on a massive hacking ring 
that is alleged to have stolen up to $1 billion from banks in numerous 
countries, including the United States. The news, which emerged from a 
report written by Kaspersky Lab, is just the latest in a string of 
massive hacks and breaches in recent years, including last year's 
breach at JPMorgan Chase. At what point does consumer dissatisfaction 
with cyberattacks affect a company's decisions to devote more resources 
to cybersecurity?
    Answer. Specific to the report from Kaspersky Lab, FSR has been 
aware of the analysis that has underlied this report since early 
January. Our BITS division has distributed such information to security 
experts within our member companies. In addition, the FS-ISAC has 
distributed information to the entire financial sector. At this point 
in time, we are unaware of incidences where this malware has harmed our 
member companies or their customers. Like all cyber-attacks, FSR will 
continue to monitor these threats and work with our member companies 
and the FS-ISAC to share threat information and assist our members in 
responding to them and in protecting customers.
    More broadly, the Kaspersky report and other recent security trends 
point to the fact that the threats are rapidly growing. However, it is 
important to recognize that financial institutions' investment in cyber 
is a long-established practice. While recent events help feed the 
continual reassessment of cyber risk within institutions that, in turn, 
help drive investments in cyber protections, it would be improper to 
suggest that recent events have somehow been a stimulus that awoke the 
sector to this risk. The sector has focused on this risk for decades.
    As I noted in my testimony, the current cyber threat environment is 
grim. Each day, cyber risk grows as attacks increase in number, pace, 
and complexity. We are no longer in the days wherein the threat was 
confined to individual hacktivists and fraudsters. We are now in an era 
of attacks by not only organized crime syndicates, but also nation-
states. Correspondingly, the attacks have grown beyond webpage 
vandalism and fraud into large-scale attacks that threaten the 
availability of services to citizens and threaten the privacy and 
accuracy of their information. Our sector is increasingly concerned 
with these threats, particularly with the potential for attacks that 
could undermine the integrity of the financial system through data 
manipulation or destruction. This growing threat affects all 
institutions in our sector regardless of size or type of financial 
institution including large and small, banks, credit unions, insurers 
and investment firms. Increasingly, and as we have recently witnessed, 
other sectors face these same threats.
    Being a focus of attacks is certainly one reason why the financial 
sector has historically led the way in making huge investments in not 
only security infrastructure and the best-qualified people to maintain 
the systems, but also in driving collaboration across industries and 
with the government. The primary reason for these investments though is 
the recognition that our customers trust us to protect them--to protect 
their investments, their records and their information. Individual 
financial institutions invest in personnel, infrastructure, services, 
and top of the line security protocols to protect their customers and 
themselves and to respond to cyber-attacks. These investments protect 
the individual institutions and their customers. The level and nature 
of cybersecurity investments are subjects of discussions within both 
the C-suite of institutions and with their boards. Institution 
executives know they are responsible for managing risk in their 
companies, and recognize that cyber-risk in particular bears special 
attention. Directors understand their oversight role in assuring 
management is fulfilling those responsibilities. Both management's and 
directors' ability to assess and respond to cyber risk is also the 
subject of review by financial regulators.

    Question 3. What is the prevalence of cyber insurance policies 
among members of the Financial Services Roundtable? And what is the 
amount of annual payouts under those policies?
    Answer. While we do not have data specific to our members, our 
research has revealed that 2014 marked an important milestone in the 
growth of cyber insurance, with a significant jump in both the number 
of companies offering cyber insurance and the number of firms buying 
cyber insurance. Currently, over fifty major insurance providers now 
offer cyber liability insurance coverage. Demand for that insurance 
rose by 21 percent across all industries in 2013 compared to 2012, with 
financial institutions representing the biggest increase of 29 percent 
in coverage buying. In 2014 that pace doubled, in some areas tripled, 
in what suddenly has become a $2 billion industry.
    Several developments contribute to the growth in cyber insurance.

  1.  The recent increase in cyber incidents, both in number and 
        severity, including a string of high-profile hacks and data 
        breaches.

  2.  A growing realization that although steps can be taken to 
        minimize the likelihood of experiencing a successful cyber-
        attack and the severity of the loss if the attack succeeds, its 
        occurrence cannot be entirely eliminated, especially if the 
        enterprise becomes the target of a sophisticated, persistent 
        adversary. It is becoming accepted that cybersecurity is 
        similar to healthcare in the sense that one can take 
        precautions, but not prevent entirely.

  3.  Increased appreciation and understanding of best practices, such 
        as those found in the NIST Cybersecurity Framework, has 
        improved underwriting ability, which has bolstered supply.

    Regarding payouts by member company insurers, as noted in my 
response to question #1 above, we do not have, nor do we collect, data 
on FSR member company payouts on cyber insurance policies.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Jefferson H. England
    Question 1. In August of 2013, the Department of Commerce Internet 
Policy Taskforce released a series of recommendations incorporating 
stakeholder input for ways the government could incentivize use of the 
Framework. Some of the potential incentives mentioned include engaging 
cyber insurance companies, studying tort liability, identifying 
opportunities for regulatory streamlining, further research and 
development initiatives, government procurement, and technical 
assistance. What incentives do you think would have the biggest impact 
on business behavior?
    Answer. As a small business, we recognize that the greatest 
incentive is the ability to attract and retain customers by 
demonstrating capability in our cybersecurity practices and the ability 
to enter into contracts with our vendors to deliver secure services to 
our customers. The market already provides strong cybersecurity 
incentives.
    However, tort liability review would have a powerful impact on 
business behavior. Individuals who attack our networks are criminals. 
State sponsored attacks on our networks are acts of war. As businesses, 
we need to know that if we employ reasonable cybersecurity practices 
that our government has our back when it comes to brining the 
perpetrators to justice. Not only will evildoers be more discouraged 
from committing cybercrime, but business and consumers will by 
extension have greater protection. Businesses know that they need to 
accept responsibility. and providing protections from liability.
    There are already many creative ideas designed to protect an 
individual's identity. Examples include multi-factor authentification 
when accessing personal information, cyber ``keys'' that are required 
to unlock certain personal information, and virtual information that is 
a proxy for real information so that the need for safeguarding the 
virtual information is less relevant. Government sponsorship of 
research and development initiatives and government procurement are 
also ways that can incentivize business to reach beyond what they may 
already be doing. In the rural telephone industry, recovery on certain 
cybersecurity expenditures is not allowed via the universal service 
fund and yet we are required to provide defined levels of Internet 
service. There is a disconnect in our industry that needs to be 
addressed.
    Cyber insurance companies already have a business imperative to 
``incentivize'' the market because of the risk they themselves are 
assuming by insuring companies conducting business over the internet, 
so I do not believe there is a need for government to engage them in 
this space unless it is to be a lessons learned exercise.
    It is my experience that business tends to reach out to peers and 
suppliers for recommendations and assistance so I cannot speak to the 
value of Federal technical assistance.
    I would also caution against grants for cybersecurity improvements 
as I believe this model to be a disincentive. Grants are typically 
awarded on a needs basis potentially causing businesses that are 
currently engaged in improvement (on their own dime) to cease all 
improvement until they receive grant dollars. The result is a race to 
the bottom in terms of cyber security quality because improvements may 
be limited to the availability of grant dollars as distributed.

    Question 2. What role, if any, do you think your industry 
regulator, the Federal Communications Commission, should have with 
respect to the Framework and cybersecurity regulations or guidelines in 
general?
    Answer. I believe there is a significant role that the FCC can play 
with respect to the framework and cybersecurity regulations or 
guidelines in general.
    First and foremost, there needs to be continued education within 
our industry regarding the availability of the framework and its 
benefits to telecommunications providers. Staff availability and 
encouragement is critical for more widespread adoption. Creating an 
atmosphere of fear and regulation is counterproductive.
    Second, the FCC can and should recognize that the framework itself 
(let alone organizational adoption) is still in its infancy and needs 
the proper time to grow and evolve into a meaningful tool. I (and other 
employees of Silver Star Communications) participate as members of the 
Communications Security, Reliability and Interoperability Council 
(CSRIC) Working Group IV which was created with the primary purpose of 
developing voluntary mechanisms that provide macro-level assurance to 
the Federal Communications Commission (FCC) and the public that 
communication providers are taking the necessary corporate and 
operational measures to manage cybersecurity risks across the 
enterprise. The outcomes from this organization have been impressive, 
including widespread industry participation and meaningful industry 
suggestions and practical solutions, including a set of specific 
guidance to small and medium sized businesses that face very different 
challenges than the much larger communications companies. The FCC has 
played an important role in contributing to the outcomes of this 
working group and has been able to gain important visibility regarding 
industry progress from this group.
    Third, the FCC can be a government advocate for communications 
providers with respect to tracking down and bringing criminals and 
state sponsored attackers to justice. The easy solution is to play the 
hard hand and penalize business through regulation and liability but 
this approach only treats the symptoms without addressing the cause of 
the problem.
    Finally, I believe that the FCC has a responsibility to uphold the 
original scope of Executive Order 13636 and stand firm in the position 
that cybersecurity improvements should be voluntary in nature. 
Regulation implies that at some point (typically a reporting period) 
there is a static state in regards to cybersecurity, that somehow an 
organization is complete or done when the requirements are met. Cyber 
security activities are far too dynamic and businesses need to respond 
and even fail in their attempts to improve. The market rewards 
businesses who make decisions to make commerce a safer cyber 
experience. The FCC should recognize that things will go wrong. There 
will be more cybersecurity breaches. With each one, there are cries for 
improved regulation or to hold someone (excepting the criminals who 
carried out the attack) responsible without drawing attention to the 
fact that at the same time there are amazing advancements made in 
protecting information by organizations who are voluntarily adopting 
practices to be more competitive. I would add that because of the 
existing business imperative, these advancements will always outpace 
regulation. The consequence is that there is extreme waste of resources 
both on the part of businesses performing outdated activities to be 
compliant with regulation and by the regulating body enforcing outdated 
measures.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                           Dr. James A. Lewis
    Question. The Framework itself is voluntary and based upon a risk 
management model, as opposed to compliance with rote standards.
    Wouldn't the concept of a mandatory survey be counter to the 
voluntary approach adopted by NIST, and could it impact the use of the 
Framework if private sector owners and operators of critical 
infrastructure view using the Framework as being linked to new 
reporting requirements?
    Answer. The NIST Framework is part of a larger approach to 
cybersecurity created by the February 2013 Executive Order (EO) 13636 
(http://www.whitehouse.gov
/the-press-office/2013/02/12/executive-order-improving-critical-
infrastructure-cyber
security). It is a standards-based approach reinforced by information 
sharing and partnerships between critical infrastructure companies and 
sector-specific agencies. The Framework must be put in the larger EO 
context to be understood. The EO instructed that:

  <bullet> NIST develop a voluntary cybersecurity framework (Section 
        7);

  <bullet> The Secretaries of Treasury and Commerce identify possible 
        incentives for better cybersecurity (Section 8);

  <bullet> The Departments of Homeland Security and Justice, and the 
        Director of National Intelligence take steps to improve 
        information sharing (the subject of a February 2105 Executive 
        Order) (Section 4);

  <bullet> That all agencies integrate strong privacy and civil 
        liberties protections into cybersecurity initiatives to secure 
        critical infrastructure (Section 7), and

  <bullet> The White House, DHS, and agencies responsible for 
        regulating the security of critical infrastructure review and 
        report on the adequacy of the Framework and of existing 
        regulation for cybersecurity (Section 10).

    The EO already has a two-part reporting requirement. The first 
requirement was for agencies to determine whether and how existing 
regulation could be streamlined and aligned with the NIST Framework. 
Executive Branch departments and agencies with responsibility for 
regulating private-sector critical infrastructure were tasked to assess 
whether existing regulatory authority was sufficient to meet the 
objectives of the Framework and identify what changes, if any, were 
needed. At the conclusion of the review, the White House determined 
last May that existing regulatory requirements, combined with strong, 
voluntary partnerships, could mitigate risks to critical infrastructure 
(http://www.whitehouse.gov/blog/2014/05/22/assessing-cy
bersecurity-regulations).
    The EO also calls for agencies, in consultation with critical 
infrastructure owners and operators, to determine by September 2016 if 
cybersecurity requirements are ineffective, conflicting, or excessively 
burdensome. This 2016 reporting will provide data to assess whether if 
the Framework is useful or not. The areas for further consideration 
include deciding if any action is needed before 2016, and ensuring that 
any review imposes only a minimal burden. There is an unfortunate 
precedent in a 2011 Commerce Department survey of telecom companies on 
cybersecurity-related issues, where the survey was both complicated and 
expensive. Congress can help ensure that this experience is not 
repeated and that requirements are not excessively burdensome.
    Congress can also help ensure that in meeting the EO requirement, 
the Executive Branch collects only the data that will allow it to 
assess if Framework is effective in improving cybersecurity and where 
it needs to be amended or strengthened. This essentially revolves 
around two questions: have companies adopted the framework and is it 
improving their cybersecurity. Without knowing the answer to these 
questions, we cannot say if the Framework has improved our defenses 
against the kinds of actions that affected Anthem, Sony, and many other 
companies. A simple attestation runs the risk of suffering from what is 
called in survey research, ``respondent error.'' The best way to reduce 
the likelihood of this error is to find quantitative metrics that will 
indicate Framework performance. A quantitative approach is a standard 
practice in business and should be duplicated in the reports required 
by the EO.
    Over time, it is likely that as companies implement the Framework, 
their experience will narrow it to a shorter and more focused list of 
actions relevant to their particular industry sector, as they 
experiment with different approaches to implementing it. Each 
industrial sector may find that some parts of the framework are more 
important for their business than others. An assessment of adoption and 
effectiveness would speed this evolution and answer important questions 
about the contributions of the Executive Order and the Framework to 
better cybersecurity and to national defense.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                           Dr. James A. Lewis
    Question. NIST is considering the future governance of the 
Framework so that it is maintained by the private sector instead of by 
NIST. We have seen with Target, Home Depot, and the numerous other 
breaches that have occurred in recent years that voluntary industry-
maintained standards often do not work. Instead, such industry self-
regulation just becomes a minimum standard. And when companies suffer 
cyberattacks, harming consumers and themselves, they will often just 
say that they were fully compliant with their respective industry's 
standards to avoid responsibility for their weak cybersecurity. Do you 
think there is any danger in that becoming the case for the Framework 
if it becomes wholly maintained and operated by the private sector?
    Answer. The NIST Framework is part of a new approach to 
cybersecurity created by the February 2013 Executive Order (EO) 13636. 
It is a voluntary, standards-based approach, reinforced by information 
sharing, and the involvement of sector specific regulatory agencies. 
The administration also hopes to identify incentives but any real 
incentive will probably require legislation.
    The involvement of sector specific agencies means that the future 
development of the Framework will most likely take two separate paths. 
Sector specific agencies, agencies, in consultation with their critical 
infrastructure owners and operator partners, will adjust and customize 
the Framework to better meet the needs of their sectors. At the same 
time, it is possible that a private entity, such as a non-profit 
organization will undertake to maintain and update the Framework 
Document. My understanding is that NIST intends to pass responsibility 
for updating the Framework to such an entity if it can find a neutral 
non-profit with sufficient technical expertise.
    The EO tasks the sector-specific agencies to work with critical 
infrastructure owners and operators to maintain and adapt the Framework 
to their sector's circumstances. This means that future work on the 
Framework, as part of the larger cybersecurity structure created by EO 
13636, will be undertaken as apart of public-private partnerships 
between critical infrastructure companies and agencies. Since work on 
the Executive Order began in August 2012, many high-profile incidents 
have highlighted the need for improved cyber security. Cybersecurity 
has become an issue of concern for many corporate boards. More 
incidents can be expected to occur in the future. This heightened 
attention and increasing risk, along with the government-private sector 
partnerships, suggests that the impetus will be for these partnerships 
to improve and extend the Framework and avoid the pitfalls of self-
regulation. Congress will have an opportunity to review the status of 
the Framework and its implementation in September of 2016, since the EO 
requires agencies to report on implementation, burdensomeness, and 
effectiveness. This will provide us with data to determine that the 
framework is actually contributing to better cybersecurity in critical 
infrastructure or needs to be amended or replaced.

                                  [all]

                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
